<html>
<title> - PROGRESS SINCE SEPTEMBER 11TH: PROTECTING PUBLIC HEALTH AND SAFETY OF THE RESPONDERS AND RESIDENTS</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]



 
 PROGRESS SINCE SEPTEMBER 11TH: PROTECTING PUBLIC HEALTH AND SAFETY OF 
                      THE RESPONDERS AND RESIDENTS

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON NATIONAL SECURITY,
                  EMERGING THREATS, AND INTERNATIONAL
                               RELATIONS

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 8, 2006

                               __________

                           Serial No. 109-246

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                      http://www.house.gov/reform



                     U.S. GOVERNMENT PRINTING OFFICE

36-998 PDF                 WASHINGTON DC:  2007
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001


                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
CHRISTOPHER SHAYS, Connecticut       HENRY A. WAXMAN, California
DAN BURTON, Indiana                  TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
GIL GUTKNECHT, Minnesota             CAROLYN B. MALONEY, New York
MARK E. SOUDER, Indiana              ELIJAH E. CUMMINGS, Maryland
STEVEN C. LaTOURETTE, Ohio           DENNIS J. KUCINICH, Ohio
TODD RUSSELL PLATTS, Pennsylvania    DANNY K. DAVIS, Illinois
CHRIS CANNON, Utah                   WM. LACY CLAY, Missouri
JOHN J. DUNCAN, Jr., Tennessee       DIANE E. WATSON, California
CANDICE S. MILLER, Michigan          STEPHEN F. LYNCH, Massachusetts
MICHAEL R. TURNER, Ohio              CHRIS VAN HOLLEN, Maryland
DARRELL E. ISSA, California          LINDA T. SANCHEZ, California
JON C. PORTER, Nevada                C.A. DUTCH RUPPERSBERGER, Maryland
KENNY MARCHANT, Texas                BRIAN HIGGINS, New York
LYNN A. WESTMORELAND, Georgia        ELEANOR HOLMES NORTON, District of 
PATRICK T. McHENRY, North Carolina       Columbia
CHARLES W. DENT, Pennsylvania                    ------
VIRGINIA FOXX, North Carolina        BERNARD SANDERS, Vermont 
JEAN SCHMIDT, Ohio                       (Independent)
BRIAN P. BILBRAY, California

                      David Marin, Staff Director
                Lawrence Halloran, Deputy Staff Director
                      Benjamin Chance, Chief Clerk
          Phil Barnett, Minority Chief of Staff/Chief Counsel

Subcommittee on National Security, Emerging Threats, and International 
                               Relations

                CHRISTOPHER SHAYS, Connecticut, Chairman
KENNY MARCHANT, Texas                DENNIS J. KUCINICH, Ohio
DAN BURTON, Indiana                  TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         BERNARD SANDERS, Vermont
JOHN M. McHUGH, New York             CAROLYN B. MALONEY, New York
STEVEN C. LaTOURETTE, Ohio           CHRIS VAN HOLLEN, Maryland
TODD RUSSELL PLATTS, Pennsylvania    LINDA T. SANCHEZ, California
JOHN J. DUNCAN, Jr., Tennessee       C.A. DUTCH RUPPERSBERGER, Maryland
MICHAEL R. TURNER, Ohio              STEPHEN F. LYNCH, Massachusetts
JON C. PORTER, Nevada                BRIAN HIGGINS, New York
CHARLES W. DENT, Pennsylvania

                               Ex Officio

TOM DAVIS, Virginia                  HENRY A. WAXMAN, California
                  R. Nicholas Palarino, Staff Director
                        Robert A. Briggs, Clerk
             Andrew Su, Minority Professional Staff Member


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on September 8, 2006................................     1
Statement of:
    Bascetta, Cynthia, Director, Health Care, Government 
      Accountability Office; Joseph Zadroga, Little Egg Harbor 
      Township, NJ; Steven Centore, Flanders, NY; Lea Geronimo, 
      New York, NY; and Lawrence Provost, Virginia Beach, VA.....    24
        Bascetta, Cynthia........................................    24
        Centore, Steven..........................................    50
        Geronimo, Lea............................................    66
        Provost, Lawrence........................................    70
        Zadroga, Joseph..........................................    55
    Howard, John, M.D., M.P.H., J.D., Director, National 
      Institute for Occupational Health, Centers for Disease 
      Control and Prevention, Department of Health and Human 
      Services; Dr. Robin Herbert, co-director of the World Trade 
      Center Worker and Volunteer Medical Screening Program, Mt. 
      Sinai Hospital, accompanied by Dr. Steven Levin; Thomas R. 
      Frieden, M.D., M.P.H., commissioner, New York City 
      Department of Health and Mental Hygiene; Nicholas 
      Scoppetta, commissioner, Fire Department of New York, 
      accompanied by Dr. Carrie Kelly, head, Bureau of Health 
      Services, and Dr. David Prezant, chief, Office of Medical 
      Affairs; and Dr. Joan Reibman, associate professor of 
      medicine, NYU Medical Center, director, Bellevue Hospital 
      World Trade Center Health Impacts Clinic...................    95
        Frieden, Thomas R........................................   137
        Herbert, Robin...........................................   122
        Howard, John.............................................    95
        Reibman, Joan............................................   158
        Scoppetta, Nicholas......................................   145
Letters, statements, etc., submitted for the record by:
    Bascetta, Cynthia, Director, Health Care, Government 
      Accountability Office, prepared statement of...............    27
    Centore, Steven, Flanders, NY, prepared statement of.........    52
    Frieden, Thomas R., M.D., M.P.H., commissioner, New York City 
      Department of Health and Mental Hygiene, prepared statement 
      of.........................................................   139
    Geronimo, Lea, New York, NY, prepared statement of...........    68
    Herbert, Dr. Robin, co-director of the World Trade Center 
      Worker and Volunteer Medical Screening Program, Mt. Sinai 
      Hospital, prepared statement of............................   124
    Howard, John, M.D., M.P.H., J.D., Director, National 
      Institute for Occupational Health, Centers for Disease 
      Control and Prevention, Department of Health and Human 
      Services, prepared statement of............................    96
    Maloney, Hon. Carolyn B., a Representative in Congress from 
      the State of New York, prepared statement of...............     9
    Nadler, Hon. Jerrold, a Representative in Congress from the 
      State of New York, prepared statement of...................    15
    Provost, Lawrence, Virginia Beach, VA, prepared statement of.    74
    Reibman, Dr. Joan, associate professor of medicine, NYU 
      Medical Center, director, Bellevue Hospital World Trade 
      Center Health Impacts Clinic, prepared statement of........   161
    Scoppetta, Nicholas, commissioner, Fire Department of New 
      York, prepared statement of................................   149
    Shays, Hon. Christopher, a Representative in Congress from 
      the State of Connecticut, prepared statement of............     3
    Zadroga, Joseph, Little Egg Harbor Township, NJ, prepared 
      statement of...............................................    59


 PROGRESS SINCE SEPTEMBER 11TH: PROTECTING PUBLIC HEALTH AND SAFETY OF 
                      THE RESPONDERS AND RESIDENTS

                              ----------                              


                       FRIDAY, SEPTEMBER 8, 2006

                  House of Representatives,
       Subcommittee on National Security, Emerging 
              Threats, and International Relations,
                            Committee on Government Reform,
                                                      New York, NY.
    The subcommittee met, pursuant to notice, at 10:30 a.m., in 
Auditorium, 1st Floor, District Council 37, 125 Barclay Street, 
Hon. Christopher Shays (chairman of the subcommittee) 
presiding.
    Present: Representatives Shays and Maloney.
    Also present: Representatives Fossella, Nadler, and Weiner.
    Also present: Senators Schumer and Clinton.
    Staff present: R. Nicholas Palarino, Ph.D., staff director; 
Robert A. Briggs, analyst; and Andrew Su, minority professional 
staff member.
    Mr. Shays. The Subcommittee on National Security, Emerging 
Threats, and International Relations field hearing entitled, 
``Progress Since September 11th: Protecting Public Health and 
Safety of the Responders and Residents,'' is called to order.
    Five years after the cataclysmic attacks on the World Trade 
Center, shock waves still emerge from Ground Zero. Diverse and 
delayed health problems continue to emerge in those exposed to 
contaminants and psychological stressors unleashed on September 
11th.
    Firefighters, police, emergency medical personnel, transit 
workers, construction crews, and other first responders, as 
well as volunteers, came to Ground Zero knowing there would be 
risks, willing to take those risks, but confident their 
community would sustain them and not let them down. Make no 
mistake, these individuals did not just go to work on that day, 
they went to war. However, as we will hear today, Federal, 
State, and local health support has not provided the care and 
comfort they need and rightfully deserve.
    After the 1991 war in the Persian Gulf, veterans suffering 
a variety of unfamiliar syndromes faced daunting official 
resistance to evidence linking multiple, low-level toxic 
exposure to subsequent, chronic ill health. In part due to work 
by this subcommittee, long-term health registrants were 
improved, an aggressive research agenda pursued, and sick 
veterans now have the benefit, in law, of presumption that 
wartime exposures cause certain illnesses.
    When the front line is not Baghdad, but Lower Manhattan, 
occupational medicine and public health practitioners still 
have much to learn from that distant Middle East battlefield. 
Proper diagnosis, effective treatment, and fair compensation 
for the delayed casualties of a toxic attack require vigilance, 
patience, and a willingness to admit what we do not yet know, 
and might never know, about toxic synergies and syndromes. 
Health surveillance has to be focused and sustained, and new 
treatment approaches have to be tried to restore damaged lives 
before it is too late.
    Today it appears the public health approach to lingering 
environmental hazards remains unfocused and halting. The 
unquestionable need for long-term monitoring has been met with 
only short-term commitments. Screening and monitoring results 
have not been translated into timely protocols that could be 
used by a broader range of treatment physicians. Valuable data 
sets compiled by competing programs may atrophy as money and 
vigilance driving September 11th health research wane.
    We asked our invited witnesses to discuss how the Federal 
investment in World Trade Center health programs has been used 
and how these efforts can be better coordinated and more 
sharply focused. We value their perspectives, appreciate their 
expertise, and look forward to their testimony.
    This Monday our Nation will observe a moment of silence for 
those who lost their lives on September 11th. We convene today 
in remembrance of those lost, and on behalf of those who came 
to save them, the first responders who are suffering 
physically, mentally, and in some cases who are dying 
prematurely, as a result of the toxic terrors unleashed on that 
terrible day.
    I would like to, before recognizing my fellow member, the 
ranking member in this effort, Mrs. Maloney, I would like to 
thank my committee staff for the work they have done for this 
hearing, the one they did 2 days ago, and the work they are 
doing next week on the Gulf war on Monday, Wednesday, and 
Friday. We are putting together five hearings in just 9 days, 
and I do appreciate what the staff, both the Republican and 
Democratic staff, have done.
    And then, just to say to my left is Mr. Fossella, who had 
requested this hearing, to my right is Ms. Malone is who had 
requested this hearing, and if the truth be known she requested 
the one before that and the one before that and the one before 
that. So I give you Mrs. Maloney.
    [The prepared statement of Hon. Christopher Shays follows:]
    [GRAPHIC] [TIFF OMITTED] 36998.001
    
    [GRAPHIC] [TIFF OMITTED] 36998.002
    
    Mrs. Maloney. OK. Thank you very much, Chairman Shays, and 
I thank you for holding this hearing. I thank our panelists, 
and I thank everyone who is attending and pointing a spotlight 
on this very important issue.
    This is the fourth hearing that has been held on this 
issue--four hearings that have been absolutely invaluable to 
the September 11th responders and others who are sick. 
Amazingly, Chairman Shays is the only chairman to ever call a 
hearing on this issue. Now there is a lot of focus on it, but 
when I started asking for these hearings there was not, and he 
came forward and started building the scientific data and the 
support that has moved us forward with our monitoring programs 
and our reaction to our heroes and heroines and trying to help 
them.
    I would also like to take this opportunity to thank DC 37 
for allowing us to use their space today, and especially 
Lillian Roberts, the head of the union. You should stand and 
say hello. She is here in attendance, as well as her health and 
safety officer--[applause]--Lee Clarke. They have done such a 
great job advocating for a better Federal response to this 
issue, and I must say it was Lee Clarke who was the first one 
to sound the alarm and tell me and others that the important 
$125 million for worker's compensation had been unbelievably 
removed from the Federal budget, and we worked very hard 
jointly to get that restored.
    From the immediate aftermath of September 11th, and now on 
the fifth anniversary, DC 37 was not only on the site, but they 
have played a very, very important part in helping us move 
forward with the Federal assistance. And we are exactly one 
block away from where the Twin Towers once stood, and at the 
home of so many of the responders who heroically rushed the 
workers from DC 37 and were part of it.
    On Monday we mark the fifth anniversary of September 11th, 
and once again our Nation will pause to remember that tragic 
day, and many of us will renew our pledge never to forget. But 
as we do this, we must remember that we lost nearly 3,000 
people on September 11th, but many, many thousands more lost 
their health.
    And to this day, not one single Federal dollar has been 
spent on the treatment of the health care needs of the heroes 
and heroines of September 11th. And our purpose today is to 
make sure that every single person who was exposed to the 
deadly toxins receives medical monitoring, and every single 
person who is sick is treated.
    Regrettably, we have seen government running from the sick 
victims instead of standing beside them and trying to help 
them. And I must mention that with us today is Mr. Zadroga, and 
his son James Zadroga died prematurely in the bloom of his 
youth, and to this day many people will not acknowledge that 
his death was related to September 11th. His lungs, according 
to science, weighed three times more than the normal lung, it 
was totally black, and it was filled with phlegm. How dare 
anyone not acknowledge his heroic efforts and the fact that he 
died because of his work saving the lives of others.
    I must tell you that my office and other offices, we are 
receiving more information, more of our constituents are coming 
to us, who are sick years after the disaster. For some the 
illness did not emerge until recently, but we have to be there 
to help.
    I do congratulate the New York delegation, and the 
Connecticut delegation, the New Jersey delegation, and really 
the entire Congress and our two Senators who worked so hard to 
set up the World Trade Center medical monitoring program that 
is located at Mt. Sinai, and this week their very important 
scientific data that 70 percent of September 11th responders 
suffered respiratory problems. and 60 percent are still sick as 
a direct result of their work at Ground Zero, 40 percent of 
whom have no health care coverage.
    This provides a concrete scientific link between the 
exposures of the toxins of Ground Zero and the health problems 
many are suffering. Earlier this year we learned from the fire 
department that the average fire department responder has lost 
12 years of lung capacity following their service at Ground 
Zero, and that many have been forced to retire or to be 
reassigned because of their September 11th illness.
    And we know at least seven responders' deaths, according to 
the press, are directly related. We believe there are many 
more, and we are calling for a fatality investigation to 
document what has happened. And I asked the city, how can you 
come forward after the heatwave and say authoritatively that 20 
New Yorkers died because of the heatwave, yet the city to this 
day has not acknowledged one death or taken any steps to affirm 
that these heroes and heroines lost their lives because of 
their work at Ground Zero.
    [Applause.]
    Mr. Shays. I need to do something I should have done 
sooner, and I understand the applause and the support. This is 
not a judicial hearing, but it is a very official hearing of 
Congress with a transcriber. And we are going to request that 
there be no signs of applause, boos, or whatever. That is 
something that we just need to have, and so I would like to do 
this.
    If I could, I would like to acknowledge--I have already 
acknowledge--and I am going to give you back the mic, ma'am--
but I want to acknowledge the presence of Jerry Nadler, who has 
been at all of our hearings, and Mr. Weiner as well. And they 
have been totally engaged in this effort, and I--and Vito 
Fossella, and I would like you to applaud of your members for 
what they have done. And if we could do that, and that will be 
the last applause of the day. Thank you.
    [Applause.]
    Mrs. Maloney. Very importantly, today we will hear the 
testimony of Dr. John Howard, the Federal coordinator of 
September 11th health. Dr. Howard was appointed before our last 
hearing back in February when Vito Fossella and I led a push by 
the entire New York delegation for his appointment. He has been 
very busy.
    In April we met with Dr. Howard here in New York, and he 
explained to us that he would have a plan of how to take care 
of those who are sick by this fall. We look forward to hearing 
and seeing this plan. I commend him for admitting that the 
funding that has been made available to date will not go very 
far, but that it is only one small part of the problem. We need 
you, Dr. Howard, and the administration to give us a full 
assessment of the need and a commitment to include funding in 
the President's budget.
    Yesterday, at a delegation meeting with Dr. Howard and 
Secretary Leavitt, three Senators were there, our two from New 
York and Senator Menendez, and 10 Members of Congress, we 
received a commitment from Dr. Howard and Secretary Leavitt 
that the $75 million that Congress appropriated last December 
will finally start flowing in October, and that all of the 
money will be made available for this fiscal year. Now that 
does deserve an applause. The first Federal money will be 
flowing to help our sick heroes and heroines.
    At the meeting yesterday we also received a commitment from 
Secretary Leavitt that the long-term needs of those sick from 
September 11th need to be met in a coordinated effort. 
Secretary Leavitt also announced the creation of a new task 
force on September 11th health coordination to be headed by Dr. 
John Agwunobi. I welcome this commitment from the Secretary, 
but quite frankly the sick responders of September 11th did not 
need another task force.
    They truly do not need another task force or point person. 
What they need is medical treatment and medical monitoring. Our 
responders did not wait 5 years before they rushed down to 
Ground Zero to help others, and government should not wait 5 
years to get the treatment to them.
    I, for one, have supported giving Dr. Howard more authority 
to do his job. He is the one person in the administration that 
has dedicated his time to get to know the problem, and we ought 
to let him finish the job. I just hope that he is not getting 
pushed aside for speaking the honest truth of how serious the 
problem is.
    One example of how serious the need for a better response 
can be seen in the more than 30,000 individuals who enrolled in 
the World Trade Center Registry but are ineligible for any of 
the federally funded medical monitoring programs or soon-to-be 
treatment programs. That is why I have introduced with Mr. 
Shays and Hillary Clinton the Remember the September 11th 
Health Act, H.R. 566, back in 2004.
    And this legislation would make available medical 
monitoring to anyone exposed to the deadly toxins of Ground 
Zero, including residents, office workers, children, and 
treatment to anyone who is sick. It would also provide for much 
needed research and coordination, but I also recognize that we 
need to do more than just provide medical monitoring and health 
care.
    We need to make sure that sick September 11th responders 
who have lost their jobs, have no medical care, and cannot pay 
their bills, they cannot support their families because of 
their selfless service, we need to make sure that they are 
taken care of. And that's why I have introduced the James 
Zadroga Act with Congressman Fossella to reopen the Victims 
Compensation Fund to help these people.
    Let us not just call them heroes and heroines. Let us take 
care of them. If there was ever a case that demonstrates that 
need it is James Zadroga.
    I really want to make a commitment to everyone that I will 
not stop this fight until everyone exposed to the toxins at 
Ground Zero is medically monitored and everyone who is sick is 
treated. And our true test as a Nation will not be what is the 
response today, which is a highly visible, 5-year anniversary, 
but what our government's response is 5 years from now, 10 
years from now, 30 years from now, when the carcinogens have 
turned to cancer and are causing deadly problems to the men and 
women who rushed to save the lives of others.
    I thank everyone, and particularly the chairman, 
Christopher Shays, for his consistent work and attention on the 
health care needs of the September 11th responders.
    Thank you.
    [The prepared statement of Hon. Carolyn B. Maloney 
follows:]
[GRAPHIC] [TIFF OMITTED] 36998.003

[GRAPHIC] [TIFF OMITTED] 36998.004

    Mr. Shays. Thank the gentlelady. We have heard from the two 
members of the committee. I need to ask unanimous consent that 
Mr. Fossella, Mr. Nadler, and Mr. Weiner can participate as 
full members of the committee. Without objection, so ordered.
    And let me take care of this now. If Senators Clinton or 
Schumer or Menendez also come to participate, that without 
objection they may participate as if they were members.
    And at this time, Mr. Fossella, thank you for your work, 
and you are recognized.
    Mr. Fossella. Thank you, Mr. Chairman, and I would like to 
thank you up front, as others have already, for convening this 
hearing, the fourth of its kind, and I know it won't be the 
last. As my colleague, Mrs. Maloney, has stated, you have 
provided a venue and an opportunity for the unsung heroes and 
victims of September 11th to continue to tell their story.
    And I think it is bearing fruit, and I urge you not to let 
up, and I know you won't. So it is greatly appreciated on 
behalf of not just so many who suffer from across the city, but 
in particular the people I represent in Staten Island and 
Brooklyn.
    Let me thank my colleagues, in particular Congresswoman 
Maloney, who have basically argued I think very effectively in 
our Congress to get the attention that it deserves to help 
those who have suffered.
    We know that there were at least two sets of victims of 
September 11, 2001--the dramatic image of those who came with 
the burning building whose lives were destroyed, and we 
continue to mourn and honor their loss and memory. But there is 
another set of victims where their lives are broken, and I 
think that our country needs to do everything physically 
possible to make their lives more whole.
    We forget sometimes that it was not the United States that 
was attacked but New York City. In fact, it was America that 
was attacked. It happened to be in New York City. And as a 
result, that attack on America requires, demands, and deserves 
an American commitment, an American response, to those who 
didn't ask any questions but rushed to the pile at Ground Zero, 
who helped out for months without hesitation at the Fresh Kills 
Landfill or other ports around the city, digging and 
participating in the rescue and recovery effort.
    As they did not ask questions in an effort to save other 
lives and to help rebuild the city, our Congress should not be 
asking questions on how we are going to go about paying to help 
them rebuild their lives. We know over the last several years, 
and now substantiated with a report released this week, what 
many of us already know--that common sense, anecdotal, just 
observation, just reality, that people's lives have been taken 
away from them in many ways.
    Young men and young women who had no problem running a mile 
in 6 minutes now have difficulty walking up a flight of stairs. 
We know from the fire department studies how they see young men 
constantly leaving way before their prime, because they can't 
continue to do the job that they love--helping to save and 
rescue others--because they can't take the risk of running into 
the burning building, physically and/or mentally.
    We know that there are thousands of victims who continue to 
suffer and it will only get worse. We have learned to discover 
that while there have been attempts to help, it is 
insufficient. As Mrs. Maloney has indicated we were successful 
to obtain $125 million, $75 million for the first time to go to 
treatment from the Federal Government, but there needs to be 
more done.
    With the appointment of Dr. Howard as the health 
coordinator, and now with Secretary Leavitt committing another 
task force, we know that action is needed and studies become 
less important, although important less important than the 
treatment action that will follow.
    We know earlier this week that the mayor of the city of New 
York has, as he has done for the last several years, constantly 
reminded us how important it is not to forget the victims of 
September 11th. But let me clear: it should not be just borne 
by the city taxpayers or the State taxpayers. We need help from 
the Federal Government, which is why these hearings I think 
lend a hand.
    As we go forward, I know there will be many who want to 
point fingers and look back and undo history. We can't. There 
will be many who want to say, ``How come we didn't follow this 
advice or do this?'' We can learn from that, but I think the 
responsible thing we need to do is everybody who responded to 
Ground Zero who is suffering today, we need to help them get 
their lives back.
    We need to keep the Congress and the Federal Government at 
the table participating to the fullest extent possible, to 
complement the work of the city and the State government, as 
well as the non-governmental organizations. And you have our 
commitment that we will not rest until that job is done.
    Thank you, Mr. Chairman, for convening this. I look forward 
to hearing from not just the first panel but others as we 
continue to hear those stories of the untold victims of 
September 11th.
    Mr. Shays. At this time, we would welcome Senator Clinton, 
but we will give her a chance to catch her breath, and we will 
go to Mr. Nadler. And, Mr. Nadler, thank you for all you do.
    Mr. Nadler. Thank you, Mr. Chairman, and thank you for 
holding this hearing, and welcome to the 8th Congressional 
District.
    Mr. Chairman, the barbaric attacks of September 11, 2001, 
posed a true test of our collective and individual characters. 
Unfortunately, the Federal, State, and city governments failed 
the test of September 11th.
    The EPA told residents, workers, and school children that 
it was safe to return to the area, when clearly it was not, 
placing all these people in harm's way. In addition to outright 
deceptions, September 11th residents and workers have had to 
endure so-called ``cleanup plans'' that are totally lacking in 
scientific merit, and inexcusable delays that continue to 
endanger the health and lives of countless people.
    Beginning just days after September 11th, with EPA 
Administrator Christie Todd Whitman's completely false 
statement, based on no empirical data, that the air is safe to 
breathe and the water is safe to drink, the EPA began 
systematically lying to the public about the safety of the 
environment. To this day we have still not had the 
comprehensive indoor testing and cleanup program that is so 
desperately needed to avoid thousands of more people being 
slowly poisoned, and that the EPA's own Inspector General 
called for 3 years ago.
    There is no doubt that people are sick from World Trade 
Center contamination. The most recent study to show this 
released by Mt. Sinai earlier this week found that 70 percent 
of the more than 9,000 first responders studied suffered health 
problems related to their work at Ground Zero. But this is not 
really news. We have known for years that people are sick.
    In fact, this very subcommittee has been holding hearings 
on this topic since 2003. And while some funds have been 
appropriated for first responder monitoring and treatment, it 
is not a fraction of what is needed. It is a national disgrace 
that Hollywood has spent more money making and promoting a film 
on the World Trade Center than the Federal Government has set 
aside for the medical monitoring and treatment of our first 
responders--much less of the students, residents, workers, and 
tourists whose health was also assaulted.
    The President talks about the war on terror. In an earlier 
war, President Lincoln spoke of society's obligation to ``care 
for him who shall have borne the battle.'' One can only 
conclude that the Federal, State, and city governments have 
betrayed those who have borne the battle--the residents and 
workers caught in the plume on September 11th, or still working 
or living today in contaminated spaces, and the 40,000 first 
responders, the heroes of September 11th, who worked in a 
highly toxic environment for weeks and months without proper 
protection. Thousands of these people are now sick and are 
being shown the back of the hand when they seek medical or 
other assistance.
    But events of the last few days show that the 5-year cover-
up is finally rapidly breaking down. On Wednesday Governor 
Pataki finally admitted we were misled by the EPA. Yesterday 
Christie Todd Whitman and former officials of the Giuliani 
administration began pointing their fingers at each other. But 
we can sort out the blame--moral, political, probably 
criminal--later. The important thing now is to provide 
comprehensive medical treatment for all those exposed to World 
Trade Center contamination.
    That is why yesterday I announced the introduction, along 
with a number of other co-sponsors, of the 9/11 Comprehensive 
Health Benefits Act, which would provide medical care to all 
those suffering adverse health impacts from September 11th in a 
sensible, easy-to-access and cost-effective manner through the 
Medicare system. This includes mental health benefits where 
necessary.
    All costs--all costs--including premiums, deductibles, and 
co-pays related to September 11th-connected illnesses would be 
covered, and the benefits would provide total care. The bill 
authorizes the necessary funds to cover these costs, so as not 
to impair the solvency of the Medicare Trust Fund.
    Under this bill, people will be able to use the long-
established Medicare framework to see their own doctors, or 
practically any specialist they feel necessary, without having 
to navigate a bureaucracy designed to contest their claims.
    The September 11th victims' frustrating experience with the 
adversarial bureaucracy of the State worker's compensation 
system has shown that we need a very different approach from 
one based on worker's compensation. There is no time limit on 
Medicare, so people will be able to receive treatment 10 or 20 
years down the line when people are no longer focused on this, 
should their symptoms persist. And people will be able to 
receive treatment when what I am afraid will be thousands of 
cases of asbestosis, mesothelioma, and lung and other cancers 
begin to emerge in the years ahead.
    Medicare has a low overhead and administrative costs of 
only 2 percent. And since it already covers over 40 million 
people and routinely accepts approximately 2 million new people 
each year, it can easy absorb this new population which might 
eventually total 50,000 or 60,000 people.
    There is no need to reinvent the wheel or create a new 
bureaucracy or force September 11th victims to wait until the 
Federal Government gets its act together. All we need to do is 
give the September 11th victims immediate access to Medicare, 
just as we do for millions of other people every year. My bill 
would do just that, and I hope that Republicans and Democrats 
in Congress, and the Bush administration, will support this 
approach.
    The bill would also establish a federally funded consortium 
of institutions, practitioners, and community-based 
organizations with expertise in providing outreach, screening, 
monitoring, treatment, and research for September 11th-related 
health conditions, and a state-of-the-art clinical facility 
would be established in Lower Manhattan.
    Recovering from September 11th is not simply a matter of 
building skyscrapers, transit hubs, and memorials. It is also 
about coping with the long-term health and environmental 
consequences of this unprecedented attack on American soil. The 
terrorists attacked the United States, and the City and State 
of New York should not be expected to shoulder the enormous 
financial burdens associated with providing essential health 
care. Not to mention the fact that the Federal Government is 
largely to blame for sending people back into contaminated 
spaces, and for not enforcing occupational safety and health 
laws at the World Trade Center site.
    Until we adequately protect the health and safety of all 
those still at risk from the attacks of September 11th, we 
perpetuate and exacerbate the tragedy of that day. It would be 
truly a national disgrace if future historians are compelled to 
record that dishonest actions by the city and State and Federal 
Governments, followed by callous inaction by the Federal and 
local governments, ultimately were responsible for more deaths 
than was Osama bin Laden.
    Thank you for this opportunity to address the committee, 
and I look forward to the witness testimony.
    [The prepared statement of Hon. Jerrold Nadler follows:]
    [GRAPHIC] [TIFF OMITTED] 36998.005
    
    [GRAPHIC] [TIFF OMITTED] 36998.006
    
    [GRAPHIC] [TIFF OMITTED] 36998.007
    
    [GRAPHIC] [TIFF OMITTED] 36998.008
    
    [GRAPHIC] [TIFF OMITTED] 36998.009
    
    Mr. Shays. I thank the gentleman very much. I am torn 
between whether I recognize a future President or a future 
mayor of this city, but I think protocol will lead me to 
recognize our Senator, and to thank you, Senator Clinton, for 
all that you do and your concern about this issue. And thank 
you for honoring this House committee with your presence.
    Senator Clinton. Thank you, Congressman, but I am not 
running for mayor. [Laughter.]
    I want to thank my colleagues in the House of 
Representatives, Congressman Shays, Congresswoman Maloney, 
Congressman Fossella, Congressman Nadler, and Congressman 
Weiner. They have been part of our bipartisan New York regional 
team to bring this issue to public attention and to work until 
we obtain support for those who are suffering the consequences 
of their exposures to the toxic stew at the World Trade Center 
site and at Fresh Kills.
    I also want to thank Lillian Roberts, Executive Director of 
DC 37, for welcoming us to your home, all the labor leaders who 
are here who have been absolutely instrumental in pursuing this 
struggle to get attention to the needs of so many thousands of 
responders, workers, volunteers, and residents, and all of the 
people who have been directly affected, those who did respond, 
those who worked, those who live, those who volunteered. Thank 
you for being here and being part of this important hearing.
    I also want to recognize and thank some of the people with 
whom I have worked on this for now nearly 5 years. I see Dr. 
Carrie Kelly, Dr. David Prezant in the audience. They were 
among the very first to sound the alarm on behalf of the fire 
department, the firefighters, and fire officers. I will never 
forget Dr. Kelly's extraordinarily vivid testimony before a 
committee in the Senate on which I sat within weeks of 
September 11th about what the physical and mental challenges 
and stresses confronting the firefighters would be going 
forward because of their experiences.
    I also want to thank Dr. Robin Herbert and Dr. Steven Levin 
who were among the very first to take up this cause, working 
out of Mt. Sinai to try to help create a system to conduct the 
monitoring and screening that would give us the evidence that 
we needed to support what we could see, feel, smell, and taste 
ourselves, that what happened with the collapse of the 
buildings, with the implosion and sending into the atmosphere 
the pulverized concrete, the minuscule glass shards, the 
asbestos particles, and so much else, was going to impact over 
many years the health and well being of thousands and thousands 
of men and women.
    We are about to have the fifth anniversary of this horrible 
event, and we will rightly recognize and honor the sacrifice 
and commitment of our first responders who conducted the 
greatest rescue mission in the history of the world. It is not 
in any way an overstatement to suggest that probably 25,000 
people's lives were saved because we had brave men and women 
who went into danger on behalf of others.
    It is also going to be a time for us to take stock in our 
country as to what lessons we have learned, what work we are 
doing to ensure our safety going forward, and whether we are 
honoring our commitments to those who were affected, directly 
and directly, by the events of September 11th.
    The work that commenced from the very moment the first 
plane hit was hazardous and different. And for as long as 9 
months, you had first responders, trade and construction 
workers, and others who were working amidst the dust and the 
fog and the smog, a toxic mix of debris, smoke, and chemicals.
    From the very first visit that I made, within 24 hours of 
the attacks, I met people who were emerging from that dark 
curtain of hell covered with the results of the collapse of the 
buildings. Standing there with other public officials I could 
feel and smell what they were working in. It was clear to us 
that these were not healthy working conditions and that the air 
was not safe to breathe.
    Unfortunately, different assurances were provided, and 
there wasn't a concerted effort to try to convince obviously 
committed workers on that pile to where whatever respiratory 
protective devices were available.
    Starting in October 2001 I began, with the support of 
people like those whom I have mentioned, along with Dr. Phil 
Landergen, one of the Nation's experts in the environmental 
impacts of various working conditions and exposures on people's 
health, to agitate for a program to monitor and screen those 
who had been exposed, and to make sure that the fire department 
had the resources it needed to conduct its own monitoring and 
screening, which was fully appropriate because they had the 
information available from before September 11th that they 
could compare to post-September 11th health conditions.
    I was very grateful that we were able to secure $12 million 
in December 2001 to establish the World Trade Center Worker and 
Volunteer Medical Screening Program at Mt. Sinai. When it was 
obvious that money was woefully inadequate, we all worked 
together to get an additional $90 million to expand the number 
of workers and volunteers who were eligible.
    This week the report was released, and it confirmed our 
worst fears, and it confirmed an earlier report from the fire 
department's study that also confirmed our worst fears. 
Thousands, I would say tens of thousands, of first responders, 
workers, volunteers, and residents have experienced mental and 
medical health problems. You know the litany all too well--
asthma, bronchitis, persistent sinusitis, laryngitis--and for 
these individuals their illnesses are a constant reminder of 
that terrible day and of the days and weeks and months later.
    But so many had much more serious illnesses develop, and we 
are only beginning to understand the extent of those. You will 
hear from some witnesses on the first panel who will tell their 
stories or the stories of their loved ones. And the prayers and 
love and compassion that were offered in the wake of September 
11th were a wonderful tribute to our spirit and our resilience, 
but it is not enough.
    It is not enough to say we stand with our police officers 
or our firefighters or our iron workers or our laborers or 
anyone else. Words at this point, nearly 5 years later, are 
really inadequate. That is why we must stand up for and obtain 
the support and the resources required to treat those who are 
suffering.
    I was proud to work with DC 37 and others who formed a 
coalition to fight to get the resources we thought we needed. 
We secured money, more than $100 million, for medical screening 
and health monitoring, and then there was a dispute over the 
money, the $125 million all together. We made an allocation, 
$50 million for workers comp claims related to the September 
11th attacks, and $75 million for long-term medical and mental 
health needs.
    Just yesterday the group before you, along with some other 
of our colleagues, met with Secretary Leavitt. He made a 
commitment to us that the $75 million which has been sitting in 
the Federal treasury that has been designated to get out to 
help people will finally be delivered. And we are going to hold 
him to that promise. We have heard these promises before. If 
promises counted for anything, everybody would be taken care of 
by now, because we have had more than our fill of them.
    And we have to make sure that this time the money is 
delivered, and I want to thank Dr. John Howard, who was put 
into the position of helping to move this along at the Federal 
level, given no staff, no budget, and he, despite some 
considerable obstacles, has been a real support to those of us 
waging this struggle.
    So we hope out of this hearing will come a greater 
awareness even than we have now, a greater commitment than we 
have had until now, and an absolute rock-solid decision that we 
are going to get the help we need from all levels of government 
for everyone who requires it.
    There is nothing we can do to turn the clock back. There is 
nothing we can say to comfort those who have lost loved ones. 
And there is very little we can say to healthy young men and 
women who on September 10th 5 years ago were running marathons 
and lifting weights and just feeling full of vigor and vitality 
who today can hardly breathe.
    But one thing I know for certain is that we cannot rest 
until we put into place a system to take care of every single 
person who was affected by September 11th. And I thank my 
colleagues, and I particularly thank the witnesses and all of 
those who have worked so hard to make the progress on this 
important issue for what we have done up until now, but let us 
keep going, because we have a long way to go, we have miles to 
go and promises to keep.
    Thank you very much.
    Mr. Shays. Thank you very much, Senator. And at this time 
we will have Mr. Weiner be our closer, and to thank him for his 
patience and to thank him for all his good work on this issue 
over so many years.
    And then, we will get to our witnesses, and I will just say 
to our witnesses, this is part of the process of members going 
on the record beforehand, your listening to the comments we are 
making and, of course, hearing what we are saying may want to 
include in your comments, references that you agree or disagree 
with comments that were made by us.
    So at this time, Mr. Weiner, thank you so much for being 
here.
    Mr. Weiner. Thank you very much, Mr. Chairman, and I won't 
take the full time allotted. So much of the foundation has been 
laid, and we are eager to hear from the witnesses. I want to 
thank you for continuing to do what I think we haven't done 
enough of in this process, and that is vigorous oversight.
    It is customary to call hearings like this fact-finding 
hearings. But, in fact, the facts have largely been 
established. It is a fact that thousands of New Yorkers, in 
fact thousands of citizens from the entire country, rushed to 
Ground Zero to rescue, to recover, and to help honor those who 
were the targets of this attack. We are joined in the room by 
Secretary--by Commissioner Scoppetta of the fire department, 
343 were lost that day, many of those in my district.
    It is also now a fact that thousands of people are sick, 
getting sicker, and tragically dying for the service that they 
gave to their country and to their neighbors. This is not 
speculation. This is not an anecdote from a neighbor. These are 
now the facts as we have seen this week.
    It is also, I would say, a fact that it is the Federal 
Government's responsibility, both for the sickness that they 
are experiencing and to help them recover. Former Secretary 
Whitman we learned yesterday is engaged in a Herculean effort 
in behind-covering about her actions. It has now become a fact 
that Secretary Whitman has lied.
    She either was telling the truth on September 12, 2001, 
September 14, 2001, September 16, 2001, September 18, 2001, 
when she repeatedly told the public, told those that were down 
at the rubble, told members of government, told average 
citizens that it was safe to be there, or, alternatively, she 
is lying on September 7, 2006, when she said that she knew 
better.
    Either way we know that the Secretary of the Environmental 
Protection Agency, whose job it was on that day, was not to 
rush into a burning building like the heroic firefighters, was 
not to help dig out their neighbors and friends from the 
rubble, her job was to answer a simple question: is it safe 
down there? And she didn't say it once, she didn't say it 
twice, she said it at least four times, including at least 
twice after evidence had emerged within our own agency, that 
led all of us to know, and especially her to know, that what 
she was saying was not true.
    Now to reveal after the fact, 5 years later, as her 
contribution to honoring those lost, to her contribution to 
furthering the discussion about how it is we make those people 
whole who are sick and dying, her contribution was today that 
she whispered into the ear of government officials, ``Oh, by 
the way, disregard what I have said publicly, disregard what I 
have said repeatedly, I am telling you, it might not be so 
safe.''
    She was either lying then, or she is lying today. Either 
way it is a scandal, and I believe it might be criminal.
    So now that we have established those facts we need to 
focus on what we are going to do about it. The studies have ben 
done, the facts are clear, now, how do we act? Congressman 
Nadler has suggested we fold these workers into Medicare. That 
is an excellent idea. It allows us to act quickly with an 
established infrastructure.
    The Daily News and Congresswoman Maloney and others have 
suggested we create a compensation fund similar to that we did 
in the Feinberg Commission. This time we have to recognize 
having a one- or 2-year statute of limitations is simply not 
going to work. Tragically, there are people who are walking 
around today who might feel healthy, who may find out in 6 
months or a year or 5 years that they are not, but the fact is, 
the final fact is, that we have to act soon.
    The President, Secretary of Health, met with us yesterday 
and say they are putting in the A team. We are gratified for 
that, but it is not enough just to say we are going to do $75 
million. We have to make a commitment that we are going to make 
those people who are sick--as much as we can we have to honor 
what they have done. That is the fact.
    And I yield back the balance of my time.
    Mr. Shays. I thank the gentleman. At this time I--before 
recognizing the witnesses, I want to just thank District 
Council 37 for allowing us to conduct our oversight hearing in 
their auditorium. Ms. Lillian Roberts, Executive Director of DC 
37, as well as her staff, have provided the subcommittee with 
all of the resources and tools necessary to conduct this field 
hearing, and their help has been very, very, very appreciated.
    At this time I do want to recognize the witnesses. I need 
to swear our witnesses in, so I will wait until we have all our 
witnesses here. But I recognize Ms. Cynthia Bascetta, Director, 
Health Care, Government Accountability Office; Mr. Joseph 
Zadroga, Little Egg Harbor Township, NJ; Mr. Steven Centore, 
Flanders, NY; Ms. Lea Geronimo, New York, NY; and Sergeant 
Lawrence Provost, from Virginia Beach, VA.
    I will--I am going to do what I don't usually do and just 
have you, Ms. Bascetta, start your testimony before you are 
sworn in. But when we have all our witnesses, I will be 
swearing all our witnesses in at the same time. So we will 
start with you.

    STATEMENTS OF CYNTHIA BASCETTA, DIRECTOR, HEALTH CARE, 
 GOVERNMENT ACCOUNTABILITY OFFICE; JOSEPH ZADROGA, LITTLE EGG 
    HARBOR TOWNSHIP, NJ; STEVEN CENTORE, FLANDERS, NY; LEA 
 GERONIMO, NEW YORK, NY; AND LAWRENCE PROVOST, VIRGINIA BEACH, 
                               VA

                 STATEMENT OF CYNTHIA BASCETTA

    Ms. Bascetta. Thank you, Mr. Chairman, members of the 
subcommittee, and Senator Clinton.
    Mr. Shays. Here is what I am going to--these are the kind 
of mics that singers tend to use. They have to be a little 
closer to you.
    Ms. Bascetta. How is that?
    Mr. Shays. Yes, that is better. I am sorry. They are not 
the ones that you can keep further away.
    Ms. Bascetta. OK. I am pleased to participate in this 
hearing on programs that monitor and provide treatment for 
people whose health was adversely affected by the September 11 
attack on the World Trade Center. Our work for you has focused 
on the estimated 40,000 responders, who include New York City 
firefighters and police officers, Federal Government personnel, 
and other government and private sector workers and volunteers 
from New York, and many other areas, who risked their lives to 
help in the rescue response and cleanup operations.
    Ongoing studies of the health effects experienced by these 
responders documents the serious long-term physical and mental 
health toll resulting from their heroic efforts. The results of 
the Mt. Sinai study published yesterday are especially 
sobering.
    This February we testified that officials from the fire 
department, the worker and volunteer program, and the registry 
were concerned that Federal funding may run out before 
monitoring could identify all long-term health problems. We 
also reported that the program for Federal responders had 
accomplished little and lagged behind programs for other 
responders.
    In revisiting these issues today, I will discuss actions 
CDC has taken to award $75 million appropriated to it in 
December 2005 to support responder programs. As you've noted, 
this appropriation provided the first Federal dollars for 
treatment in addition to continued support for screening and 
monitoring.
    But first I will update you on the status of HHS's Federal 
responder program. Since it began, HHS has registered more than 
1,700 Federal responders. About 1,400 of the total have been 
registered since your February hearing, including about 1,100 
current Federal workers and 250 former Federal workers.
    Unfortunately, we don't know the percentage of Federal 
responders this represents, because the total remains 
uncertain. For those registered, Federal occupational health 
have completed screening examinations for just over 900 by late 
August, 380 of them since February. The worker and volunteer 
program is now screening former Federal workers under an 
agreement with NIOSH, and as of July 31st had provided exams 
for about 13 former Federal workers and scheduled 11 more. Most 
of the former Federal workers reside outside the New York Metro 
area, but NIOSH has not yet completed making arrangements with 
providers to screen and provide treatment for them.
    Turning to the appropriations, the law gave priority for 
funding to the existing programs that provide screening, 
monitoring, and treatment services. So far, as you have noted, 
CDC has awarded less than $5 million, beginning with $2 million 
for the registry. A few weeks ago in August CDC made two 
emergency awards, $1\1/2\ million to the fire department for 
leasing treatment space, and $1.1 million to the worker and 
volunteer program to hire administrators and a medical 
assistant, as well as an additional physician to help reduce 
the 3 to 4-month waiting time that recently developed at the 
Mt. Sinai Clinical Center.
    The waiting time was caused by a spike in people seeking 
monitoring who had seen media reports about illnesses and 
responders, and notably because the proportion of responders 
who needed to be referred for treatment had increased. CDC also 
expects to award a total of $4\1/2\ million this month to the 
POPA program and Project Hope to help meet the mental health 
needs of responders.
    CDC's proposed spending plan shows that the bulk of the 
funds, more than $50 million, will be awarded to the fire 
department and the worker and volunteer programs. Until 
yesterday CDC had not expected to make awards until February 
2007 after it had reached certain decisions about the coverage 
of treatment services such as which prescription drugs would be 
covered.
    The proposed spending plan showed that about 63 percent of 
the funds would have been awarded in fiscal year 2008. During 
the course of our work this summer it became clear that CDC did 
not know how quickly treatment costs may deplete the available 
funds, but the fire department and the worker and volunteer 
program officials told us that they expected that the funds 
would be depleted well before the end of 2008.
    In summary, the results of the study released yesterday 
suggest an upward trend in the costs for responders due to the 
chronic nature of the health effects they sustained in the 
aftermath of the September 11th attack. CDC has proposed a plan 
to award the $75 million appropriation it received last year, 
but it still hasn't made decisions about what treatment 
services will be covered by Federal funds.
    Moreover, responders who live outside the New York City 
area, including former Federal workers, continue to have 
limited access to services, because screening arrangements for 
them are still incomplete. Resolving these issues in a timely 
manner is critical, so that the funds appropriated will be 
available to help ensure that the responders who risked their 
lives have access to the treatment services they need.
    That concludes my comments.
    [The prepared statement of Ms. Bascetta follows:]
    [GRAPHIC] [TIFF OMITTED] 36998.010
    
    [GRAPHIC] [TIFF OMITTED] 36998.011
    
    [GRAPHIC] [TIFF OMITTED] 36998.012
    
    [GRAPHIC] [TIFF OMITTED] 36998.013
    
    [GRAPHIC] [TIFF OMITTED] 36998.014
    
    [GRAPHIC] [TIFF OMITTED] 36998.015
    
    [GRAPHIC] [TIFF OMITTED] 36998.016
    
    [GRAPHIC] [TIFF OMITTED] 36998.017
    
    [GRAPHIC] [TIFF OMITTED] 36998.018
    
    [GRAPHIC] [TIFF OMITTED] 36998.019
    
    [GRAPHIC] [TIFF OMITTED] 36998.020
    
    [GRAPHIC] [TIFF OMITTED] 36998.021
    
    [GRAPHIC] [TIFF OMITTED] 36998.022
    
    [GRAPHIC] [TIFF OMITTED] 36998.023
    
    [GRAPHIC] [TIFF OMITTED] 36998.024
    
    [GRAPHIC] [TIFF OMITTED] 36998.025
    
    [GRAPHIC] [TIFF OMITTED] 36998.026
    
    [GRAPHIC] [TIFF OMITTED] 36998.027
    
    [GRAPHIC] [TIFF OMITTED] 36998.028
    
    [GRAPHIC] [TIFF OMITTED] 36998.029
    
    [GRAPHIC] [TIFF OMITTED] 36998.030
    
    [GRAPHIC] [TIFF OMITTED] 36998.031
    
    [GRAPHIC] [TIFF OMITTED] 36998.032
    
    Mr. Shays. Thank you very much.
    At this time, I would like all of you--and if you, Mr. 
Centore, are able to stand as well, I would like all of you to 
stand. We will be swearing you in.
    The only person I never swore in the 10 years I have been 
chairman--I chickened out--is the senior Senator from West 
Virginia. [Laughter.]
    [Witnesses sworn.]
    Mr. Shays. Mr. Centore, you will need to put that mic 
fairly close to you, and probably on this side of you, since 
you are looking at us in this direction.

                  STATEMENT OF STEVEN CENTORE

    Mr. Centore. Thank you. My name is Steve Centore. I am a 
member of the U.S. Department of Energy. During the September 
11th period I was the Regional Response Coordinator for the 
Radiological Assistance Program. All this should be covered in 
the testimony that I sent out to Bob Briggs, and he was 
supposed to put it in your handout.
    Let me just say it is a privilege and an honor to be here 
today in front of you and participate in this hearing. And I 
have nothing but the utmost respect for this panel.
    However, having said that, there is always a disclaimer. My 
mother is a little Scottish woman from the hills of West By God 
Virginia. My father is a little Italian fellow from the Bronx. 
So, you know, even tempers running--[laughter]--you know, 
stretching throughout my family. So if I have a tendency to get 
a little excited when we get to certain topics, you will 
understand why.
    In your letter that you sent out, your invitation, there 
was two questions that you asked. One you wanted to know how 
effective were the medical screening and monitoring programs 
for individuals that responded to the World Trade Center 
disaster. You know, and right now I feel like I have been set 
up, because I am sitting next to a member from HHS, and I am 
probably one of the few Federal emergency responders that----
    Mrs. Maloney. Point of clarification, she is not from HHS, 
she is from the General Accounting Office, an independent arm 
of government.
    Mr. Centore. Oh, OK. I am sorry. That takes a load off my 
mind. [Laughter.]
    Because they were No. 1 on my list to talk about.
    I spent the first 4 months at Ground Zero in a HAZMAT 
support role, providing support to New York City FDNY/NYPD, 
after which I was reassigned to covert ops in different parts 
of the country doing different things which I can't go into.
    It took about 4 years I believe before we ever got our 
first letters from FOH, the Federal Occupational Health, about 
medical screening. Me and my team, the five guys on my team, we 
got our letters around November/December timeframe last year, 
2005. I finally got an opportunity to go to my medical 
screening in I believe it was April 2006, and I thought, oh 
boy, this is great, because I had already been diagnosed with 
PTSD, anxiety disorder, my liver was failing, my gallbladder 
was almost completely shot, my spleen was enlarged, my lungs, 
my throat, I had varices, I had bursitis, and I have bone 
narrow----
    Mrs. Maloney. Could you pull your microphone a little 
closer? People are having difficulty hearing.
    Mr. Centore. Sorry. That is a problem I have now, I have 
lost my memory.
    Mrs. Maloney. You were talking about going to get your 
screening.
    Mr. Centore. Right, yes.
    Mrs. Maloney. Federal screening.
    Mr. Centore. So I went to--I went to the satellite office 
that FOH opened up in Islip at the Federal Building. And when I 
went in, you know, the nurse started taking my data, and one of 
the things she had mentioned was, ``You know, there is no 
treatment. We don't provide any treatment. We don't provide any 
reimbursement of expenses or anything.''
    And I got to thinking about it for a while and I said, ``So 
I am just a data point for you on the map.'' And she said, 
``Yes, basically.'' I said, ``So when I die, I become a second 
data point for you.'' And she said, ``Unfortunately, that is 
right.'' And I am like, well, why am I wasting my time here?
    I had already engaged my own local doctors to provide, you 
know, medical treatment for me. At the time I was seeing an 
internist, a GI specialist, hematologist, a psychologist, and a 
psychiatrist. All of this I paid for out of my own pocket. I 
had to use up all my own sick leave and my own annual leave, 
and I couldn't figure that out, how you could get injured on 
the job. Now that you are injured on the job, it is my 
responsibility, you know? I mean, I was made to feel like a bad 
guy, like I did something wrong. And for the longest time I had 
a guilty feeling, and I couldn't understand why. I still don't.
    But anyhow, to get back to your--the issue that you want to 
discuss, is this program working? The program is doing exactly 
what it was supposed to do--collect data. Is it helping 
anybody? No. Not one bit.
    [The prepared statement of Mr. Centore follows:]
    [GRAPHIC] [TIFF OMITTED] 36998.033
    
    [GRAPHIC] [TIFF OMITTED] 36998.034
    
    [GRAPHIC] [TIFF OMITTED] 36998.035
    
    Mrs. Maloney. Thank you for your very moving testimony. 
Thank you.
    Mr. Zadroga.

                  STATEMENT OF JOSEPH ZADROGA

    Mr. Zadroga. First of all, thank you for inviting me, and I 
agree with your committee reference to you have an independent 
study, I would really like to see a Grand Jury with subpoena 
powers and charge people criminally for what occurred that day.
    Senator Clinton, I would like to personally thank you. You 
are one of the few people that called the day that my son 
passed and gave condolences. Actually, you were the only one 
from New York that gave condolences to my family when my son 
passed, and I thank you for that. That was very well received.
    My wife would like to be here today, but unfortunately she 
had to stay home and take care of Tylerann. And sometimes she 
has the way of saying things, if you are reading a paper, she 
gets to the point a little too fast. And, you know, as I always 
say you can take the girl out of the north, but you can't take 
the north out of the girl. So we decided to leave her home for 
the day.
    As you know, my name is Joseph Zadroga. I was a police 
officer for 27 years in North Arlington, and I was also Chief 
of the Bergen County Police Academy for 6 years.
    Jimmy worked for 13 years with the New York City Police 
Department. He worked in the Sixth Precinct for 6 years, and he 
worked on street crime for 6 years. He was well respected 
within the department, and in street crime he was one of the 
highest performers in the Street Crime Unit.
    He was very street-wise, and he knew how to speak to people 
and get them to break--to confess to their crimes. And because 
of that he was transferred to the apprehension squad within the 
homicide squad, and I really believe he had a true future in 
the New York City Police Department, because someone with 13 
years on, without any rabbis or hooks, don't get transferred to 
homicide squad.
    They really had a future set for him, because he was really 
well liked and he knew what he was doing out there. And he 
wasn't one to brag either. He had over 40 citations, which I 
never knew about until the day of his funeral when his partner 
told me.
    On September 11th he arrived home to speak--just prior to 
the buildings collapsing, and he knew he was going to go right 
back again. He woke up his wife just as he arrived in the 
house, told his wife what was occurring, and then started 
packing up his clothes to leave. And she says, ``Where are you 
going?'' He says, ``I am going back to the city to help.'' And 
she said, ``No, no, you have to stay here.'' And he said, ``No, 
it is my job. I have to go back. And this is what I do for a 
living, and this is what I want to do.''
    However, he did say it was the hardest thing in his life to 
back down the driveway with his wife, who was 7 months 
pregnant, kneeling in the driveway crying, asking him not to 
go, but he went. His wife passed away several years later from 
the stress of taking care of the household and taking care of 
him and his 2-year old daughter.
    So then he had to move in with us, and obviously, you know, 
that is very difficult, for an adult to move back in with their 
parents. But there was no way that he could live alone by 
himself with his medication, and so forth.
    When he passed, we were very fortunate that Dr. Breton, the 
medical examiner in Ocean County, requested an autopsy, because 
I am sure if we were in New York City I don't think that would 
have occurred. And the doctor basically stated that his lungs 
were very severely damaged, and they were black, they were--he 
had black lung disease, besides several other diseases. He had 
all types of chemicals in his lungs, bone particles, and dust 
and sand and glass.
    Since Jimmy's passing, his mother and I felt that the best 
thing we could do was help make aware how all these other 
heroes are being treated by the NYPD and the government. He 
never received any assistance from the city. All he received 
was more stress, and he was treated like a dog. And if a dog 
was--someone observed a dog being treated the way he was, they 
would have been arrested.
    I just want to read a brief statement that he wrote the 
first year anniversary to his father-in-law, who was a minister 
in Florida. It is a three-page letter, but I am just going to 
read a brief sentence. ``To this day, I can still hear the mass 
confusion from the first day to the engine sirens that came 
afterwards.'' He said, ``My nights will never be the same. 
Everyone praises the dead as heroes, as they should, but there 
are more living suffering than dead.''
    And I will pass up a little further where he said, ``Yes, 
they remember the dead, but they don't want to acknowledge the 
sick or living. I am not the only one out there. There are many 
suffering similar, if not the same, symptoms as myself. The 
city doesn't care about any of their employees, and it is sad 
not to mention that 90 percent of Americans that we know are 
sick.''
    ``I just wish for once that the city would open their eyes 
and help the living and stop getting political feedback from 
the dead, get more personal, not political, on how can this 
make us money. That is all the city cares about. If you ever 
meet a New York City copy, a firefighter, or an EMS, just tell 
them thanks, because that is all that you will ever get.''
    I know I am running short on time, so I am just going to--I 
was asked to give some suggestions.
    Mr. Shays. Mr. Zadroga, you just go as long as you want to 
go, sir.
    Mr. Zadroga. Oh, OK. Thank you. Jimmy worked close to 500 
hours at the World Trade Center, with the only protection a 
paper mask. Within weeks he developed a cough that would later 
be known as the World Trade Center cough. He also developed 
short-term memory loss, acid reflux, high fevers, and would go 
into spells where he would sleep for days without eating or 
moving. He had severe breathing problems and was placed on 
oxygen 24/7, all this while the police department refused to 
admit that he was sick and attempted to return him to work 
continuously.
    Jimmy's wife Ronda, as I said, passed 2 years after his 
illness due to the cowardice approach of the city and all the 
stress that she was under. She was just--she was like a 
daughter to me, and she was a lovely person, and she just 
couldn't take the stress of--could not believe that people 
could treat other people that way. I honestly believe that is 
what killed her.
    We watched him progressively get worse until he died at 
home on the floor in his bedroom with his daughter sleeping on 
the bed. I found him that morning, as I always expected to when 
he didn't come down for his medication, lying on the floor. As 
soon as I opened the door, I knew he was gone. I laid down 
beside him. He had his baby's bottle in his hand. At that time 
I woke up the baby, and the baby said--I said, ``Your father is 
gone.'' The baby said, ``No, he is just sleeping. You always 
said that.''
    I heard him during the night. I heard him getting the 
bottle. And I heard him fall, but he always does that, and he 
usually wakes up. I had to convince her that he was gone, and 
her words to me was, ``I knew he was sick, but I didn't think 
it would be this fast.'' This is a 4-year old girl saying this.
    Dr. Breton, the medical examiner, reported that James died 
of a severe lung condition, and making him the first police 
officer whose death was diagnosed to be a direct result of 
working at the World Trade Center, yet the city still refused 
to recognize his cause of death was related to September 11th. 
The city even proceeded to belittle Dr. Breton in the press.
    Since Jimmy's passing, his mother and I felt the best thing 
we could do, and what we felt that Jimmy would want us to do, 
was help make aware of how all these heroes are being treated 
by the NYPD and the government. We need our government to do 
the just and proper thing here and help these heroes. We can't 
do anything for our son now, but we want to make sure that the 
other workers get the treatment that they need when they are 
sick. They all deserve a real commitment from our 
representatives to provide for long-term monitoring and 
treatment.
    This statement was--my wife and I tried for 4 years prior 
to his passing to get his treatment, and yet we could not get 
doctors to treat him. Now that we have everyone's attention as 
a result of our son's death, we feel we have the right to make 
suggestions to help the surviving heroes.
    And as some of the panel said, we must make priority first 
the treatment of our heroes to improve their health. This study 
should be secondary to priorities. I used to answer the phone 
for Jimmy, because the last 2 years he didn't even want to talk 
on the phone. He was so depressed and had post-traumatic 
stress.
    And I would just like to do one conversation that I had 
with one of these monitoring boards that called, and they 
wanted to see how he was. They used to call every 6 or 8 
months. And the phone call went like this, ``Hello,'' he said, 
and then, ``James Zadroga?'' He said, ``Speaking.'' They said, 
``How are you feeling today?'' He would say, ``I am feeling 
terrible. I never felt worse in my life.'' ``How is your lung 
capacity?'' ``My lungs, they hurt so much that I can't believe 
it. I can't take the pain. I am on heavy medication.''
    ``How do you feel mentally?'' ``I feel like I want to kill 
myself. I want to bite the bullet and get it over with. But the 
only reason I am staying here is because of my daughter.'' And 
she said, ``Oh, thank you for the information, and then hung 
up.'' And that was the help that we got.
    Again, I agree, we should not worry about what it costs or 
what kind of money we are going to need to help these heroes 
with their health. I can't understand how this country can 
place value--such little value on life for heroes that worked 
for them.
    In my 30 years working in government, I have yet to see 
where politicians that wanted to get something done, no matter 
how much they complained that they didn't have the money, but 
they wanted to get it done for their own pet project, they 
always found the money. So the money is out there.
    We should recruit the best doctors in the city, if not the 
world, to help these people. Obviously, their illnesses are 
different from any others. We could never get a doctor to treat 
James. Someone--and I don't know if it was in the government or 
if it was the health care, would always call and tell them to 
get him out of the hospital as quick as they could, so they 
would shoot him up with steroids and send him home.
    I had two doctors tell me they wouldn't treat him because 
of a phone call, and I had one doctor tell me they wouldn't 
treat him because they felt the insurance wouldn't pay. In the 
future I know we are going to need organ donors and transplants 
for these heroes. And I think we should at this time set up a 
bank for the heroes, set up a donor list for organs that are 
going to be needed for them.
    I know the police, fire, EMS, and the good people of New 
York would gladly sign up. Matter of fact, I will be the first 
one to sign up on the list. My son was just going for a lung 
transplant--well, I shouldn't say going for a lung transplant. 
We went to Philadelphia, and the doctor felt concerned up 
there. He was the only one that really gave any concern for 
Jimmy's health, and he told us when we come back the next time, 
which was January 10th, he was going to introduce Jimmy to the 
lung transplant team. Unfortunately, he passed on the 5th.
    I also strongly recommend that the Federal Government must 
reinstitute the comprehension fund. Jimmy used the 
comprehension fund, and that did help him pay his doctor bills, 
his past bills from his credit cards, and his hospital bills 
that were well over $50,000 prior to receiving that money.
    And by reestablishing this compensation fund I believe it 
also will reduce the lawsuits that we are talking about. 
Everybody is worried about these lawsuits out there. I for one, 
I don't worry about lawsuits. There are many ways of handling--
the government could handle these lawsuits. I feel that if they 
are going to the compensation fund, these people could be 
helped immediately rather than wait 10, 15 years down the line 
for court settlements.
    And that is about all I have to say. I thank you for having 
me here today.
    [The prepared statement of Mr. Zadroga follows:]
    [GRAPHIC] [TIFF OMITTED] 36998.036
    
    [GRAPHIC] [TIFF OMITTED] 36998.037
    
    [GRAPHIC] [TIFF OMITTED] 36998.038
    
    [GRAPHIC] [TIFF OMITTED] 36998.039
    
    [GRAPHIC] [TIFF OMITTED] 36998.040
    
    [GRAPHIC] [TIFF OMITTED] 36998.041
    
    [GRAPHIC] [TIFF OMITTED] 36998.042
    
    Mr. Shays. Mr. Zadroga, we are so grateful you came today, 
and I know it hasn't been easy for you to give your testimony. 
But the reason why we have you as our first panelist, that we 
want everyone who follows to know what you all are saying.
    Mr. Centore, we get your message loud and clear, and we 
know what you are asking for, and what you are asking for needs 
to be met. And we thank you as well for your testimony.
    Ms. Geronimo, welcome, and thank you for being here.

                   STATEMENT OF LEA GERONIMO

    Ms. Geronimo. Good afternoon.
    Mr. Shays. Good afternoon.
    Ms. Geronimo. My name is Lea Geronimo, and I wanted to 
thank you for the opportunity to finally speak up after 5 years 
of waiting. I am resident of the Lower East Side of Manhattan, 
and I also work just three blocks away from where the World 
Trade Center stood.
    The September 11 disaster has changed my life forever. I am 
here today to share my story as one of the forgotten victims of 
that tragic day. The toxic World--the toxic World Trade Center 
dust was not contained just at the Ground Zero site on 
September 11th. For more than a year it permeated my office as 
well as my neighborhood. But as a result of repeated assurances 
by the Federal Government stating that the air was OK, I had no 
choice but to go back to work less than a week after the 
disaster.
    Whether at home or at work I could not escape the dust and 
the fumes. Within months of September 11th I developed 
bronchitis. What I thought was just a random occurrence is now 
a chronic problem. Since September 11th I have had bronchitis 
nine times.
    Nine months after September 11th I developed constant 
menstrual bleeding that continued every day for 5 months. I was 
given a sonogram, but the doctors could not explain why I was 
going through this. Last year I developed lesions and polyps on 
my cervix and my uterus, and I had them removed, and to this 
day my doctors still do not know why I had these problems at 
such a young age of 35.
    Additionally, I started to get small psoriasis spots like 
this one on my elbow. There are others on my scalp and my back, 
and recently my thighs and my scalp broke out in dozens of new 
spots, painful, very painful. I had to use a combination of 
various prescription medicines, including two different creams 
to use on my face and my body, as well as a prescription 
shampoo and a scalp medication.
    Additionally, over the last 3 months I have had to receive 
UV light treatments three times a week in order to treat the 
spots all over my legs and torso. These treatments and the 
medicine regimen are not only taxing but they are costly. To 
date, even with my limited health insurance, I have paid more 
than $15,000 out of pocket. To make matters worse, I have had 
to take a 10 percent salary cut. I have also started to get 
deductions from my salary to pay toward my health insurance.
    Today I face worsening health problems, skyrocketing 
medical expenses, and shrinking health care. But my story is 
not unique. In fact, it is increasingly the norm for countless 
of families and low income workers in the Lower East Side and 
Chinatown.
    As a member of the Beyond Ground Zero Network, a coalition 
of grass roots organizations, legal and health care advocacy 
groups, we recognize the mounting health crisis brewing in our 
community. Within weeks of September 11th we began outreach and 
surveyed over 2,000 residents and workers who put their health 
as the No. 1 priority.
    We found thousands of residents and local workers suffering 
from new and worsened cases of asthma, severe breathing 
problems, and intense coughing. Today whole families suffer 
from asthma, respiratory problems, skin problems, and 
gastrointestinal problems.
    Without any funding we launched a collaborative, a 
September 11th treatment program with Bellevue Hospital. This 
pilot program got off the ground with intense community 
participation by the Beyond Ground Zero Network and has just 
expanded over the last year. Today we have a backlog of over 
700 residents and workers representing the tip of the iceberg.
    As the only September 11th treatment program for residents 
and local workers in Lower Manhattan, our collaborative 
treatment program is only the smallest step toward addressing 
the existing health crisis within our local community. There is 
no excuse for taking small steps on the fifth anniversary of 
September 11th. Our health, my health, has been destroyed, and 
I can't get this back. Our lives will never be the same, and we 
will not tolerate any half-measures and the whisper of a 
promise.
    We demand reparations for the lies about the toxic air. We 
need immediate compensation, because we can no longer work due 
to these health problems. We need a comprehensive long-term 
treatment and study program to provide medical care for 
residents and workers in Lower Manhattan, and to continue 
investigating the complex, emerging September 11th health 
problems.
    We demand from the Federal Government today. Our lives 
depend on it. Now is the time to act.
    Thank you for your time.
    [The prepared statement of Ms. Geronimo follows:]
    [GRAPHIC] [TIFF OMITTED] 36998.043
    
    [GRAPHIC] [TIFF OMITTED] 36998.044
    
    Mr. Shays. Thank you, Ms. Geronimo, very much.
    Sergeant Provost.

                 STATEMENT OF LAWRENCE PROVOST

    Mr. Provost. Good afternoon, and thank you for inviting me 
to come. First, I have to say that anything I say here today 
does not represent the opinions of the Department of Defense or 
the U.S. Government. However, it is as a soldier that I 
volunteered to respond to the attack on our Nation on September 
11, 2001.
    I arrived at the World Trade Center site on my own 
initiative, in uniform, after gaining clearance from my 
military unit to do so, to assist in the search and rescue and 
remained there for the first 7 days. On September 11, 2002, my 
Army Reserve Unit landed in Afghanistan, and we returned home 
to New York on March 11, 2003. In September 2004, my team again 
went overseas to Iraq, and we arrived home on March 11, 2005.
    Much has happened in the past 5 years, but it is impossible 
not to forget that what has happened to all of us these past 5 
years has been more or less because of September 11th. Our war 
began at home, and our war ultimately must be fought and won at 
home.
    Speaking as a member of two groups in the September 11 
community--the military volunteers at the World Trade Center 
site and the so-called undocumented victims, those who did not 
work for the city or State of New York--we are faced with three 
major issues in regards to September 11 illnesses--emotional, 
physical, and spiritual health.
    I am not ashamed to admit as a person in uniform that it 
has been a very tough road mentally because of September 11th. 
The severe PTSD issues that I have faced have been a major 
burden on my family, my friends, my job, and it has been hard. 
You know, and there is a real stigma that exists because of 
that, because you are a person in uniform, whether you are in 
the military or a police officer or a firefighter, or even in 
everyday society I think we still see that.
    I was even penalized in one of my evaluation reports 
because I went and sought help from a military clinic regarding 
my World Trade Center emotional health issues, and I am still 
fighting this evaluation but it is going to remain forever in 
my file. I probably will not be promoted again, and this is 
just very symptomatic of what is going on with so many people. 
And, unfortunately, it is sad to say that I have it pretty easy 
compared to other people, frankly.
    In regards to the physical health issues, there are many of 
them. On September 14, 2001, at the site I began to develop 
severe rashes on my arms, back, and neck. These continue to 
this day, and you can probably see many of the red blotches 
that are across my face now. I was treated onsite, but because 
I did not go to the hospital I was denied Federal compensation 
related to September 11th. The victims comp fund said you had 
to be treated at a hospital within the first 48 hours.
    Well, when we were onsite, one, we didn't care about going 
to a hospital; second, there was no place to sign in. You know, 
we just went ahead and we did what we had to do.
    At age 27, I am much weaker physically now than I was 
before September 11th. And though I do not experience--and as I 
said, I do not experience most of the symptoms the others have, 
at least as far as yet--I have it easy, because I am not dying. 
Bernie Gidfried, a friend of mine, whose ambulance corps was 
contracted to the city of New York but was not a part of the 
FDNY, she was buried twice that day, once by each tower. She is 
on 22 different medications now.
    Father Lyndon Harris, he gave me permission to say this, 
most people don't know, but he is the priest who ran St. Paul's 
Relief Operation. Father Harris is sick. He has severe PTSD, 
and his lungs are deformed. He was told this by the Mt. Sinai 
Medical Institute. What are we to say to heroes like Father 
Harris who gave--who literally gave their all for all of us 
rescue workers down there?
    My battle buddy, who was only onsite for 2 days, is on a 
respirator day and night. I was there 7 days. He was there 2 
days, and he has to suffer because of this.
    People from out of the State came, and they have already 
died. Lieutenant Dave Michael, another Army Reservist who came 
as a part of his police department from the Midwest, he only 
worked at Fresh Kills, and he has died in his forties recently.
    I feel as thought preventative treatment from the beginning 
would have helped many of the chronically, critically, and 
terminally ill have a longer life span. And many of the 
monitoring program's specific toxins are identified while 
strain on the heart and the atrophy of the organs continues.
    As I said before, Father Harris' lungs are currently 
deformed, and he has a history of coughing. He has not received 
workman's compensation. He is about to lose his medical 
insurance. I mean, I just--it is mind-boggling, and there are 
so many of these stories. I mean, this is--this is like what 
happened to John Lindsay before he died. You have a great 
individual who does so much, and then it is like nothing. You 
have no medical insurance, and you are going to die alone.
    Governor Pataki's recent bill was for city and State public 
servants, not people such as on this panel. In New York City, 
49 percent of emergency medical services are volunteers, are 
private ambulance services, that are not covered by the FDNY. 
If you were down there giving to your country, you should be 
given treatment. And what about the downtown residents whose 
only crime was living and working in the greatest city in the 
world?
    We have seen little assistance from the mayor and the 
Governor. Each is in a power grab for their piece of the most 
valuable real estate in the world, the World Trade Center site, 
while neglecting first the families of the victims, the 
developer, and now the first responders and residents of Lower 
Manhattan.
    The mayor's administration has not declared war on first 
responders and residents, but its actions in effect have sent 
the message for us to drop dead and to stop being a nuisance. 
What they have not realized by their actions is that what they 
are doing is not in the best interest of the city, it is not in 
the best interest of the soul of the Nation. They have not yet 
realized that the billions they will inevitably spend on 
lawsuits would have made it more profitable for them to save 
people than to let them be killed by terrorists.
    And I don't think that this is the stronger and better New 
York that Mayor Giuliani spoke of. And I do believe this leads 
to the issue of our spiritual health. And while our government 
cannot compel State-sponsored religion, any program that the 
Federal Government does develop does have to take into account 
the faith component and the faith healing.
    Again, we saw what happened over at St. Paul's Chapel where 
people of all faiths went. That is just something that in any 
program, especially for people who are dying, who are getting 
ready to meet their maker, these are issues that we definitely 
have to confront.
    In regard to spiritual health, as a military reservist I 
feel terrible in knowing that there are remains of our military 
brothers and sisters in the garbage dump at Fresh Kills 
Landfill, and even today around the World Trade Center site, 
where hundreds of remains have been found in the Deutsche Bank 
Building over the summer.
    I saw it here, I saw it in Afghanistan, and I saw it in 
Iraq. Remains can be, and usually are, everywhere. I can 
guarantee that there are remains from September 11 in other 
places in Lower Manhattan, in air ducts, in roofs, in vents. 
And I don't believe it is good for the spiritual well being of 
our city knowing that there is a continuing graveyard down at 
the World Trade Center site.
    We are at war, and the only way to win wars is by total 
immobilization of the national government in all areas to 
defeat the enemy, and this includes the area of September 11 
help. Many suspect that the attack on the World Trade Center 
itself will never actually be considered anything more than the 
result of a criminal conspiracy, but our definitions of war are 
too far outdated.
    The fact is, those attacks on September 11 were coordinated 
by a foreign non-State enemy, and people, whether they liked it 
or not, were automatically thrust into the role of being a 
soldier, a sailor, an airman, or a marine that day. A Federal 
law to cover all affected and treat them as victims of an 
attack by a foreign entity is certainly called for.
    We live in a strange world with many different and often 
conflicting interests, but putting September 11 under the 
umbrella of the Federal Government is the best guarantee that 
no one is left behind and creates a win situation for all 
parties concerned. Any solutions to be taking place have to 
cover all military volunteers at all sites related to September 
11, including military mortuaries, but this only addresses part 
of the problem.
    All downtown residents and people from out of State must 
also be covered by any Federal program, and I believe Mr. 
Nadler's bill is a great place to start. In future disasters, 
you will also have to take new account that volunteers will not 
be sitting at home. They will, in fact, run toward sites, and 
that is something that also has to be addressed. Data bases 
need to be set up beforehand, and comprehensive programs need 
to be in place beforehand to respond to these disasters.
    Congress should enact reforms immediately to discourage the 
military culture which penalizes those who admit they need any 
sort of physical or psychological assistance relating to the 
war on terror, including September 11th.
    And I don't want to take up too much time, because we have 
a great deal many questions, but I just want to say this is the 
greatest country in the world. We are at war despite the issues 
that we are being faced. I believe the best of humanity is in 
this room. I believe that going together that we can succeed, 
and that we can make sure that those who have died and, 
frankly, those who are continuing to die, that they will not 
have died in vain. And I believe perhaps in that way that 
America can prevail, and we need your help.
    Thank you.
    [The prepared statement of Mr. Provost follows:]
    [GRAPHIC] [TIFF OMITTED] 36998.045
    
    [GRAPHIC] [TIFF OMITTED] 36998.046
    
    [GRAPHIC] [TIFF OMITTED] 36998.047
    
    [GRAPHIC] [TIFF OMITTED] 36998.048
    
    [GRAPHIC] [TIFF OMITTED] 36998.049
    
    [GRAPHIC] [TIFF OMITTED] 36998.050
    
    Mr. Shays. I thank you all very, very much. The line of 
questioning would be from me ordinarily, and then from Mrs. 
Maloney, and then I would go to Senator Clinton, and then to 
Mr. Fossella, and then to Mr. Nadler and Mr. Weiner. I am going 
to speak at the very end, ask questions at the very end, and 
give my time to Mr. Fossella.
    Mr. Fossella. Thank you, Mr. Chairman. Thank you all for 
your testimony. It was very moving, and, again, just a strong 
reminder of why we are all here and why we can't go away.
    Now, for Ms. Bascetta, I think it is a consensus here that 
the Federal Government needs to be fully behind this effort 
with money now and resources for treatment, among others, 
continued monitoring. But one thing that we often ignore is the 
fact that many people who have lived in New York City and the 
surrounding area have moved already to other parts of the 
country, and will continue to move.
    And I think many of us--and it has been confirmed by people 
like Dr. Howard and others--that this is a 20, 30, 40-year 
commitment that needs to be made as we monitor and treat those 
who suffered.
    So along those lines, in your study or professional 
opinion, does GAO have any recommendations on how to better 
coordinate existing efforts to address what we believe is a 
health crisis as we go forward? Do you have any suggestions how 
we can start down the path of determining, in conjunction with 
the non-governmental organizations, as well as governmental 
organizations, how many affected, the cost of treatment, and 
what we can expect in the coming years?
    Ms. Bascetta. We are, of course, very concerned and 
troubled most by the fact that 5 years later there have 
obviously been many lost opportunities, starting with the fact 
that there was no roster of who helped. A very obvious lesson 
learned is that we need to know that from day one in the future 
and not to be trying to reconstruct that after the fact. It is 
very expensive, and, frankly, we will probably never know how 
many people participated in the cleanup and rescue operations.
    Another lesson that we need to learn is that we need one 
program for everybody. A multiplicity of programs isn't the 
optimum clinical treatment, because people are people. It 
doesn't matter whether you are with the city, the State, or the 
Federal Government, if you were exposed you ought to be treated 
the same from a clinical standpoint.
    In addition, for the long-term monitoring, you want to have 
the most robust epidemiological evidence you can have, and that 
would require there again to be one program, one set of uniform 
standards, that will be applied to people regardless of whether 
they were volunteers or workers from an array of different 
agencies.
    Mr. Fossella. Is there a model that this country is--or 
other parts of the country have--we can point to, given the 
scale and size?
    Ms. Bascetta. I am not sure about that. I would have to 
give that some additional thought. Certainly, we were hoping 
that even though it was 5 years later that the appointment of 
Dr. Howard as the Federal coordinator of all this could at 
least make up for some last time and--lost time and lost 
opportunities to perhaps, you know, begin to lay out what the 
parameters of a model might be to deal with future situations 
like this.
    Mr. Fossella. Any sense on how long that process would 
take, that one particular program at least you have in your 
mind?
    Ms. Bascetta. Setting up the parameters, do you mean? Well, 
you know, I think there is lots of good science, both clinical 
and statistical, that could be brought to bear immediately to 
fashion a program. You also asked me about cost. There is 
certainly, you know, a wealth of expertise that could be 
brought to bear to combine the epidemiological evidence that we 
have now with various statistical and economic programs that 
could cost out a range of scenarios, the best case and the 
worst case, depending on, you know, how the health of the 
responders evolved over time.
    But I think Chairman Shays had said in his opening 
statement that requires vigilance and patience, and certainly 
that is the case.
    Mr. Fossella. Is there any way that GAO can undertake that 
responsibility?
    Ms. Bascetta. We would do whatever the Congress asked us to 
do.
    Mr. Fossella. I yield back. Thank you, Mr. Chairman.
    Mr. Shays. Thank you. At this time the Chair would 
recognize Mrs. Maloney.
    Mrs. Maloney. I thank all of you for your very moving 
testimony. You certainly have pointed out what we need to do. 
And I thank, again, the chairman for this hearing. I yield my 
time to the junior Senator from New York.
    Senator Clinton. Well, I thank my friend and colleague, and 
I want to thank all of our witnesses for their moving and 
eloquent and helpful testimony. I think that there are several 
action items that have to come out of this hearing. Obviously, 
one is that we need to expedite not only the $75 million but 
begin to put together a budget request for money in addition to 
the $75 million.
    If there is a supplemental request before the end of this 
year from the administration to fund matters such as the war in 
Iraq, or continuing help for people along the Gulf Coast 
because of Katrina, or to deal with the drought in Iraqi 
Mountain West, whatever the reason is we will work very hard to 
get additional money in that for the treatment that is so 
desperately needed.
    We will also begin to work to get a budget item in the 
President's budget. This is an ongoing Federal Government 
commitment, and it needs to continue year to year without the 
kind of fits and starts that unfortunately we have experienced 
over the last several years.
    I think it is also first and foremost the responsibility of 
the Federal Government to take care of Federal employees. And, 
Mr. Centore, I am so sorry. I just cannot express strongly 
enough my sympathy for what you have been through as a Federal 
employee and someone who has given a lifetime of commitment to 
our country.
    And as we heard from Ms. Bascetta, the Federal Government 
has failed on many levels, but it has miserably failed in 
taking care of its own workers. And that has to be addressed 
with renewed commitment.
    Additionally, we have to set up systems to deal with this 
going forward, and I appreciated Congressman Fossella's line of 
questioning. I have introduced legislation, bipartisan 
legislation, in the Senate with Senator Voinovich from Ohio. 
Why? Because there was a team of people from Ohio who came to 
help us in New York.
    When they returned home, they got sick. And it was the same 
kind of problem that we began seeing with our people, and so 
we, along with several other of our colleagues in the Senate 
and with my colleague, Congresswoman Maloney, in the House have 
introduced the Disaster Area Health and Environmental 
Monitoring Act, which would give the President authority to 
carry out a program for the protection, assessment, monitoring, 
study of the health of people exposed to harmful substances, 
and then simultaneously we need something along the lines of 
what--Congressman Nadler or Congressman Maloney has a different 
approach. We need some kind of system to guarantee the 
treatment.
    Now, I can't help but add--you might expect this from me--
if we had a health care system in America that took care of 
everybody we would not be talking about creating special little 
programs to take care of people. We wouldn't have, you know, 
Mr. Zadroga, being turned away for treatment as we heard his 
father describe to us.
    This is something that, you know, is long overdue in our 
country, and eventually we are going to have to get around to 
doing it. We are wasting billions of dollars, and we are 
destroying lives because we won't face up to the fact that we 
are not fulfilling our responsibility as the richest country in 
the world to provide quality, affordable health care to every 
single American, especially to those people who are harmed 
because of an attack on our country.
    So I think there is a lot of work ahead of us, and I just 
want to, you know, end by underscoring the fact that we do need 
to understand what went wrong, because we cannot learn those 
lessons if we are not courageous and honest enough to face 
them. And a lot of things went wrong.
    But that should not be an additional excuse for not taking 
care of the people who need our help now. And I really believe 
that the testimony we have heard from each of our witnesses on 
this first panel does more than any of us up here can to 
underscore the continuing responsibility we all feel.
    And I recall that we had a hearing like this in February 
2002. It was a hearing that I called that the Senate had, and 
we began hearing these stories then. And it was very hard to 
get people's attention. I will never forget the testimony of 
one of the representatives from the cit. When we said, ``Well, 
who is responsible for the air?'' and the response was, ``We do 
water; not air.''
    And there was just this I think feeling that, oh my gosh, 
we have so many other things to worry about, we are just not 
going to be able to focus on this yet. Well, finally we are 
focused. The need is obvious, and we have a lot of work ahead 
of us. And I think I can speak for all of the Members of the 
congressional delegation is that we will remain working 
together in a bipartisan fashion until we get answers to the 
money for the treatment, the systems that need to be set up, 
and then policies to try to make sure this never happens again.
    And I thank our conveners for holding this hearing.
    Mr. Shays. I thank the Senator from New York. Mrs. Clinton, 
thank you very much. And at this time, I would recognize Mrs. 
Maloney for your time.
    Mrs. Maloney. I thank the gentleman for yielding, and I 
thank our two Senators for their commitment and dedication to 
this issue. Just yesterday they joined Vito Fossella and myself 
at a meeting with Secretary Leavitt, and their presence and 
commitment helped us secure Secretary Leavitt's and John 
Howard's commitment to release the $75 million by October 1st. 
It cannot help Mr. Zadroga's son, but it can help others, and I 
thank them for their leadership.
    I yield my time to the senior Senator from New York.
    Senator Schumer. Well, thank you, Carolyn. I want to thank 
you for your really exquisite leadership on this issue, along 
with Vito Fossella and my colleague, Senator Clinton, who has 
taken such a lead on this issue in the U.S. Senate.
    I also want to thank Chris Shays for holding this hearing 
in a timely fashion here in New York yards from the scene of 
both the terrible tragedy and the countless acts of heroism 
right during the attack and in the days, weeks, and months 
afterwards.
    And let me just say this. We came together as a society in 
a really amazing and refreshing way after September 11th. The 
partisan differences, the geographic differences vanished. We 
were all New Yorkers. We were all people who had been injured 
by what happened. And what we are doing--what we are talking 
about here is a test. Has our society forgotten about what 
happened?
    The victims we have heard from and heard about were injured 
every bit as much as those who were hurt immediately as a 
result of the planes crashing into the Twin Towers. It is only 
their symptoms that emerged later, and it took too long, just 
really until the last week, until the views of so many that 
damage occurred, real damage, although its effects would not be 
known 5 years, 10 years, even 20 years later, were real.
    And we have to summon the same energy, the same focus, and 
the same unity in helping these folks as we did in helping 
those who were injured immediately thereafter. That is our job. 
Make no mistake about it, $75 million isn't going to be close 
to enough. And when we met with the Secretary yesterday, a 
number of us were a little skeptical I guess I would say 
because he wouldn't give an unequivocal commitment that 
everyone would be taken care of. We need that commitment.
    We need that commitment now. It is, we all believe, a 
Federal responsibility. Just as helping those who were injured, 
and the families of those who perished in the Twin Towers, was 
agreed to be a Federal responsibility. And there are going to 
be other--there are going to be several different approaches 
that are taken. The real answer is simply to get the treatment, 
the health care, the help for the people who need it.
    And I wanted to come by and apologize to everybody, because 
I had so many other prior commitments, to tell this panel in 
particular, but everyone here, that I will join in the effort 
to do everything that we can to see that what happened to those 
who helped early on, but show symptoms of illnesses that came 
from that help years later are treated every bit as fairly as 
those who were hurt on that terrible day, 9/11/01.
    Thank you, Chris, and thank you, Carolyn, for yielding your 
time.
    Mr. Shays. Thank the gentleman very much. I appreciate his 
being here to speak in unity with this effort.
    At this time, the Chair would recognize Mr. Nadler. And as 
the gentleman rightfully pointed out, I think we are in his 
district.
    Mr. Nadler. We are indeed. Thank you very much, Mr. 
Chairman. First of all, I said in my opening statement that I 
felt that the Federal, State, and city governments have 
betrayed the first responders and the people who came to help 
and the people who live in downtown Manhattan. I think the 
testimony we have heard strengthens that statement.
    So as a member of the Federal Congress, not the 
administration or anything but the Congress, let me apologize 
to those of you who were--who live downtown or are--or were 
responders and have gone through what you have gone through, 
for the betrayal by the Federal Government. And we will try to 
reverse that, to the extent we can now, and that is the purpose 
of this hearing.
    Second of all, Mr. Centore, you testified about--that when 
requesting Federal assistance you talked about how you couldn't 
get real help. And when requesting Federal assistance such as 
workman's compensation or disability retirement, you had 
various problems. Could you elaborate a bit on the problems and 
frustrations that you have had or that you know that others 
have had in trying to get help from the Federal worker's comp 
system?
    Mr. Centore. I can only speak from, you know, my own 
experience. I can back it up with hearsay from other parties. 
But the biggest concern in the last letter that I received from 
Department of Labor concerning workman's comp was, ``How do we 
know you were there?'' And I am like, well, I have eight or 
nine pictures with me on the pile, and they said, ``Well, they 
could have been doctored up.''
    I said, ``You work for the Federal Government, don't you?'' 
because I know where this is going. I mean, this was--you know, 
it was just mind-boggling that the man would question my 
integrity like that.
    Mr. Nadler. We have heard the same thing from other people, 
but go ahead.
    Mr. Centore. OK. No, that is all I am going to say. That 
was the biggest----
    Mr. Nadler. In other words, it is an adversarial system 
where they seem to try to avoid certifying you as someone who 
ought to get help?
    Mr. Centore. Well, if I can be candid----
    Mr. Nadler. Please.
    Mr. Centore [continuing]. I feel like it is a contest 
between me and them. It is a contest to see if they are going 
to give in first or I am going to die first. And I have made a 
solemn promise to myself that I am going to collect that one 
nickel, just one nickel, before I go anywhere. It is like--it 
is insane. My doctors don't believe that I still have to go to 
work, even in my condition.
    Mr. Nadler. So do you think, given your experience, that it 
would be a good idea to make the major means of first 
responders and others with--the people who live or work 
downtown who have gotten sick as a result of September 11th, do 
you think it would be a good idea to make the major means of 
access to Federal help, to medical treatment, the worker's comp 
system? Or should we try something else?
    Mr. Centore. Well, I do, but, you know, I think you have to 
start at the very beginning. And if you read the paper that I 
submitted to the committee, the very first thing I said that we 
have to do is somebody has to stand up and say, ``Yes, this is 
attributable to the September 11th incident.'' And that 
somebody has to be the Federal Government. I mean, that is the 
power that, you know, speaks for the entire country.
    If the Federal Government is willing to stand up and say 
that, I think you will have more doctors and more people in the 
medical community finally stepping forward. I have--right now I 
have as many doctors as I have pills, which scares me. But they 
all treat all of my illnesses in a traditional manner, with the 
exception of a few who have been--had some experience dealing 
with other September 11th responders.
    And I am like, I don't know where you get this information 
from. You know, that is the first step. Somebody has to admit 
that this was caused by September 11th. And then, second, which 
it is going to be a lot longer, is we have to educate local 
medical communities on symptoms and diagnoses of having to deal 
with situations such as the World Trade Center.
    Mr. Nadler. Thank you. I have a couple questions which I 
wanted to ask Mr. Centore and Mr.--Sergeant Provost. And to the 
extent that Mr. Zadroga has information from his son, I would 
ask you to answer this, too, but it may not apply in any case.
    The first question is, when you served on the pile--I will 
ask Mr. Centore first, and then Mr. Provost, and, Mr. Zadroga, 
if you want to--were you issued a respirator?
    Mr. Centore. I am glad you brought that question up. We 
started off with the paper mask. The problem with that was----
    Mr. Nadler. That is useless. Were you issued----
    Mr. Centore [continuing]. They got clogged up. You couldn't 
breathe, so you were either going to suffocate and your lungs 
were going to be OK, or you took the doggone thing off so you 
could breathe, but you run the risk of, you know, developing--
--
    Mr. Nadler. Let me just say that we have had testimony on 
other occasions that the paper mask was useless to protect 
anyone's health anyway.
    Mr. Centore. Right.
    Mr. Nadler. But, so were you issued a respirator?
    Mr. Centore. Eventually. Near the end, a friend of mine, 
actually he is my counterpart in the EPA, I ran into him. He 
was doing monitoring for the EPA down on the pile, and he 
begged me and pleaded with me, he said, ``Hey, if you go back 
down to the pile, make sure you wear at least the half-face, if 
not a full-face, respirator.''
    Mr. Nadler. Because of health hazards.
    Mr. Centore. Oh, yes.
    Mr. Nadler. OK. And were you told that it was the law under 
the Occupational Safety Health Act that you must wear a 
respirator?
    Mr. Centore. No, sir. What we were told was we went over 
the schoolhouse, and they would put up a sign that--when 
respirators were required. So 1 day they would have the sign 
up, next day they would take the sign down.
    Mr. Nadler. OK.
    Mr. Centore. Next day they would have the sign up.
    Mr. Nadler. And did you see--and did you see EPA or OSHA 
officials enforcing the Federal occupational safety laws?
    Mr. Centore. No, sir.
    Mr. Nadler. Walking around the site to see whether people 
were wearing respirators?
    Mr. Centore. Not until they were able to get a handle on 
the situation.
    Mr. Nadler. OK. And my final question, and then I will ask 
Sergeant Provost the same questions, did anyone tell you that 
you were not allowed on the site without proper protection 
gear?
    Mr. Centore. No, sir.
    Mr. Nadler. Thank you. The reason I am asking these 
questions is that Christie Todd Whitman has said that they told 
workers to wear their gear, and that at the Pentagon, the 
cleanup at the Pentagon, the law was enforced and no one was 
allowed on the site without wearing respirators.
    I will ask if Sergeant Provost can give shorter yes or no 
answers to the same questions. I will repeat the questions. 
Were you issued a respirator?
    Mr. Provost. No, sir.
    Mr. Nadler. Were you told of the health hazards of working 
on the site?
    Mr. Provost. No, sir.
    Mr. Nadler. Were you told of OSHA requirements to wear 
respirators or any other protective gear?
    Mr. Provost. No, sir.
    Mr. Nadler. Did you see EPA or OSHA officials enforcing 
Federal occupational safety laws?
    Mr. Provost. Never, sir.
    Mr. Nadler. And did anyone tell you that you were not 
allowed on the site without wearing proper protective gear?
    Mr. Provost. Never, sir.
    Mr. Nadler. Thank you. Mr. Zadroga, do you have any 
information on this that you could give or----
    Mr. Zadroga. Yes. All my son was ever issued was a paper 
mask, and he was never told that he had to wear a respirator. 
Matter of fact, at one point he asked to have a respirator from 
a lieutenant that was walking by carrying 10 of them, and the 
lieutenant refused to give it to him and said, ``It is for the 
higher command only.''
    Mr. Nadler. Thank you. Let me just add one thing, and that 
will finish my questioning. Actually, I have finished the 
questioning. I wanted to make one comment with this panel, 
because Congressman Fossella I think it was, maybe it was 
someone else, I don't--I think it was Congressman Fossella 
earlier commented that respirators could have been 
requisitioned from the Army, that they could have been gotten 
somewhere.
    At the ombudsman's hearings, the EPA ombudsman at my 
request held hearings downtown in February and again in March 
2002 on very much the same topics we are holding hearings on 
4\1/2\ years later. Because of his conclusions, EPA ombudsman's 
office was later dismantled by Christie Todd Whitman, but at 
those hearings we had testimony from police officers--and this 
is February 2002--we had testimony from police officers that 
they requested respirators, that they were not available, that 
they were not made available, that thousands of them were in 
National Guard armories all over the metropolitan areas, 
including New York City, and never requested, never 
requisitioned, and never used, because no one thought to do it 
apparently.
    But those who requested respirators, at least from those 
police officers who testified, it was never made available to 
them.
    I thank you very much. And, again, on behalf--I can't say 
on behalf of the Federal Government, but on my own behalf I 
certainly apologize for the terrible treatment that your 
country has extended to you.
    Mr. Shays. I thank the gentleman very much for his 
questions, and at this time the Chair would recognize Mr. 
Weiner.
    Mr. Weiner. Thank you, Mr. Chairman, and I thank the panel. 
And I want to echo what Congressman Nadler said. We have said 
you are heroes, we have said we are grateful, it is time for 
the United States to say we are sorry and we are going to make 
it up to you.
    I would like to ask you all a question about the comments 
that the Secretary of the Department of Environmental 
Protection made in the period after September 11th. I remember 
the comments and questions, among many others, were: is it safe 
to be living in New York during that time, given what was in 
the air?
    My office was in Sheep's Head Bay, Brooklyn, and there were 
embers that were falling that far away from Ground Zero. When 
on September 13 the Secretary--when Christie Whitman said, 
``The EPA is greatly relieved to have learned that there 
appears to be no significant levels of asbestos dust in the air 
in New York City.'' Mr. Centore, did you read that?
    Mr. Centore. No, sir, but I can--I can tell you that is not 
true, because I was--we were stationed at the corner of 
Chambers and West Side, and I could feel all the silica fibers 
clinging to my skin.
    Mr. Weiner. Mr. Centore, those of us in public life who 
didn't spend weeks down there but spent hours just seeing the 
site, when we went home we had dust on our shoes, things coming 
out of our nose from 15 or 20 minutes of exposure.
    Mr. Zadroga, when on September 14 Christie Whitman said, 
``The good news continues to be that air samples have taken--
have been taken, have all been at levels that caused no 
concern.'' You were there, your son was there, can you tell us, 
had you heard those comments from the Secretary? Did you take 
some relief in them?
    Mr. Zadroga. Mr. Shays. Well, sir, I wasn't there. My son 
was there. But I did hear those statements, and I couldn't 
believe they were saying that. It was just totally unacceptable 
as far as I was concerned. I knew there was asbestos in that 
building, because one of my friends that I grew up with, he 
told me they had asbestos in that building on like the first--
he told me first 40 or 50 floors.
    Mr. Weiner. Ms. Geronimo, you who live in the area, this 
must have been of monumental concern, seeing what was going on 
in the neighborhood you lived and worked. When you heard on 
September 16 Christie Whitman say, ``There is no reason for 
concern,'' did that set your mind at ease? Did you at least 
feel that the Federal Government was checking and was giving it 
a clean bill of health?
    Ms. Geronimo. To be quite frank, no. I knew she was lying. 
We were given paper masks in our office also. But you have to 
understand, the way that our office receives air, it gets the 
air from the outside, filters it backs through the building, 
and gets it in. And for over a year, especially during the 
summer, there were times there was no air in the building at 
all, because they had to shut all the air vents.
    But I was still expected to walk through all of the 
military barricades, I was still expected to walk through all 
the debris that was still flying in the air for weeks to come, 
and there is a smell that none of us will ever forget that was 
made out of human remains, the crushed concrete, the glass, the 
asbestos, and other toxins that I am sure of were created from 
all of those fires that day.
    Mr. Weiner. Mr. Provost, on September 18 when Christie 
Whitman said, ``Given the scope of the tragedy from last week, 
I am glad to reassure the people of New York and Washington, 
DC, that their air is safe to breathe, that their water is safe 
to drink.'' When she said that, since then it has now become 
clear and now become the fact that she herself and the EPA knew 
that was not true, but did you believe her based on what you 
were seeing?
    Mr. Provost. No, sir, I didn't, because I had to leave the 
site the day before because of all the rashes and the physical 
issues that I was already having based on being there only a 
week. So I knew it was a lie.
    Mr. Weiner. Well, I just want to wrap up by asking the 
panel yes/no, do you believe, Mr. Centore, that Christie 
Whitman was honest with you?
    Mr. Centore. Remembering that I am still under oath, and I 
just--I know you want a yes/no answer, but it is not that 
clearcut. What I started to allude to before was my counterpart 
with the EPA was part of one group that was doing air 
monitoring on the pile, and I said, ``But you guys gave us a 
clean bill of health. You said that the air was OK.'' That was 
the second team that was sent somewhere north of NoHo to take 
air samples. I said, ``There is nobody up there.'' And that is 
what--those were the samples they were using to decide whether 
we had to have respirators on or not.
    Mr. Weiner. Mr. Zadroga, do you believe that Christie 
Whitman and the EPA has been honest with you and your family?
    Mr. Zadroga. No.
    Mr. Weiner. Ms. Geronimo, do you believe Christie Whitman 
and the EPA has been honest with you and your family?
    Ms. Geronimo. No.
    Mr. Weiner. Mr. Provost, do you believe that Christie 
Whitman and the EPA has been honest with you and your family?
    Mr. Provost. No, sir.
    Mr. Weiner. Thank you, Mr. Chairman.
    Mr. Shays. I thank the gentleman. At this time the Chair 
would recognize Mrs. Maloney.
    Mrs. Maloney. Mr. Chairman, I feel I should yield to you, 
since we would not even have these hearings if you had not 
responded to my request. But since you have yielded, I would 
like to ask Mr. Zadroga, has the city of New York to this day 
acknowledged that your son died because of the exposures of the 
toxic dusts at September 11th?
    Mr. Zadroga. No, they have never acknowledged that. Matter 
of fact, they never acknowledged his death. I never received 
even a letter of condolence. The only thing I ever received 
from New York City was from the Pension Board saying that 
``Your son passed away. Would you please sign this paper so we 
can send you payment?''
    Mrs. Maloney. OK. As you know, I have followed up on one of 
your recommendations to open up the victims compensation fund 
for the workers and responders.
    Mr. Zadroga. Yes, thank you for that.
    Mrs. Maloney. Prior to your son's death, was there anything 
that the city, State, or Federal Government did to make sure 
that your son got the medical attention that he needed? And one 
of your statements in your testimony, you said, ``One doctor 
was getting ready to treat my son and then he got a phone call 
and refused to treat my son.'' Could you elaborate?
    Mr. Zadroga. Well, that was actually on, you know, more 
than one occasion. We took my son to many different hospitals 
and many different doctors seeking help. The one doctor that 
refused, he was from Columbia Presbyterian, and he just said, 
no, he will not help us. He said because of--he actually never 
said a reason.
    Dr. Murphy from DeBoer, he----
    Mrs. Maloney. OK. Did the city, State, or Federal 
Government assist you in any of the medical treatment?
    Mr. Zadroga. No.
    Mrs. Maloney. Thank you. And, Mr. Zadroga, it appears that 
Dr. Howard is responding to a request that Congressman Vito 
Fossella and I made to him to make sure that the determinations 
of who died from their injuries of Ground Zero, that they come 
forward with some type of fatality program so that we can make 
the connection between the deaths and the Ground Zero toxins 
and exposure.
    And they have come forward by saying that they will be 
working with the New York City Health Department by setting up 
a fatality investigations program together with the New York 
City Health Department. Do you have an opinion on this?
    Mr. Zadroga. Well, first of all, I did sit with Dr. Howard 
when he was first appointed with the DEA for 2 hours, giving 
him my son's medical records, autopsy records, and he agreed 
with us that--or agreed with me that my son died from a 
pulmonary disease.
    However, weeks later we went away for a weekend, and then 
we came back and we just happened to come across a news article 
that one of his first statements to the news was that my son 
died from a heart condition. So to me his credibility was 
destroyed. I called his office and requested confirmation on 
why he would say something like that, and they--the secretary 
or whoever I spoke to said, ``He didn't say that.'' I said, 
``Well, I have it right in front of me.'' And she said, ``Well, 
I will get back to you,'' and never got back to me. The Health 
Department never did anything to help my son.
    I would also like to say that my son had a biopsy done at 
DeBoer of his lungs, and they were sent to two Federal military 
bases, and we never received a true biopsy report back from 
them. I only received a generic one upon threat of subpoena.
    Mrs. Maloney. So is it fair to say that you do not trust 
the city of New York or the Federal Government to come forward 
with the fatality determination on fatalities from Ground Zero? 
Is that a correct analysis of your statement?
    Mr. Zadroga. That is correct. And that is why I suggested 
that a Grand Jury hearing be established with subpoena powers, 
so that we could get the underlings that work for these people 
who know what really happened to come forward and say what 
happened. I am sure they were told do not treat them, get them 
out, because every time we went to the hospital, as I said, he 
was just--they told him they would take good care of him, and 
then it was like somebody threw a switch, and then they just 
threw him out of the hospital.
    Mrs. Maloney. Thank you. I would like to ask GAO, Ms. 
Cynthia Bascetta, in your testimony I would like to ask a 
specific question on payment and funding. And I want to know 
from your testimony, you talked about the recent payments to 
Mt. Sinai's consortium program and the fire department program. 
And in your testimony you said these payments were made on 
August 11th.
    And it seems to me that based on your testimony, that this 
money was not expected, and did they have an explanation for 
this funding? And before you answer, remember the question, 
because we are under the 6-minute rule, and I want to get some 
questions in to the other panelists very quickly.
    I want to ask Ms. Geronimo, has there been any assistance 
to you in any other area, workers from the city, State, or 
Federal Government, to deal with your health problems as a 
direct result of September 11th? And how do you feel about the 
statutorily requirement that residents cannot be part of the 
World Trade Center consortium project? Remember the question, 
and I am going to Mr. Provost of the National Guard.
    Mr. Provost. Army Reserve.
    Mrs. Maloney. Excuse me.
    Mr. Provost. I am sorry.
    Mrs. Maloney. Army Reserve. Excuse me, Army Reserve. And 
have any of your fellow men and women in the Army Reserve, have 
any of your people who responded to September 11th been 
eligible for any type of long-term medical monitoring or 
treatment? And has there been any coordination by the Federal 
Government to make sure that you and the others from the Army 
Reserve or Navy Reserve or other military areas receive 
treatment? And do you think it is wrong that you had to go to 
Iraq and Afghanistan in order to get medical treatment from the 
Federal Government and to get a response to your concerns?
    And finally, Mr. Centore, you are a Federal worker, and 
when Mrs. Clinton and I were fighting to establish a medical 
monitoring program we tried to include Federal workers, but the 
administration countered that they would take care of Federal 
workers, and that they would establish their own separate 
program for Federal workers. And has that program worked for 
Federal workers, or do you believe Federal workers should be 
part of the World Trade Center consortium program which is 
treating all of the other workers that have been part of the 
effort?
    My time is up, but you have time to respond, and I would 
like to go first to the General Accounting Office.
    Ms. Bascetta. Your question was, did they explain the 
August awards? And let me give you the context. We were 
updating our work. We wanted to be fair to the Department, so 
we asked them whether they had----
    Mrs. Maloney. Was it expected, or was it a surprise?
    Ms. Bascetta. No, it was a surprise.
    Mrs. Maloney. It was a surprise.
    Ms. Bascetta. They termed them as emergency awards. They 
said that they were able to make the awards very quickly, 
because they had in contact with the recipients, and because 
they had draft applications. But I have worked for the Federal 
Government for 28 years. We saw the applications. One was dated 
the 10th, and one was dated the 11th, and the payments went 
out. The awards were made on the 11th. I have never seen 
anything that rapid. It was certainly very unusual, and----
    Mrs. Maloney. Never seen anything like it in 28 years.
    Ms. Bascetta. No. And, you know, I would make the point 
that they obviously were able to change their process, which 
was to have all of these awards undergo peer review, so I would 
imagine that sets a precedent for them for the process that 
they plan for getting the awards out this October.
    Mrs. Maloney. Thank you. Ms. Geronimo.
    Ms. Geronimo. I believe your question was whether or not I 
thought that the government--Federal, State, or city--has given 
any attention to the residents that live in Lower Manhattan, 
and I say no.
    Mrs. Maloney. Do you think the residents, given the health 
problems they are exposed to, should be part of the consortium 
that many of us have worked to have you be part of that 
consortium?
    Ms. Geronimo. Of course. There wasn't a bubble over the 
Ground Zero site. It is not as if all the toxicities remained 
in the area. You know, it went everywhere. It went as far as 
Brooklyn, it went uptown. As trucks were being led to the Bronx 
or to Staten Island with the debris, it was there.
    When there were people being brought--bodies being brought 
to the Javitz Center, it was there. It was all over the city, 
quite frankly, and it is true--there were many volunteers from 
the city and the country that had come here, even if they 
helped for only a day or a year and a half, and they were all 
affected by this toxic air.
    Mrs. Maloney. Remember the September 11th Health Act that I 
authored with Congressman Shays that we have had in for several 
years would cover everyone exposed to the toxins and treatment 
for everyone who was sick. And so I want you to know about that 
bill.
    Ms. Geronimo. Thank you. But I would also like to give 
special thanks to Jerrold Nadler. With his legislation that he 
announced yesterday he has acknowledged that grass roots 
organizing and the people that live in Lower Manhattan have 
helped to work with him to create the criteria as well as the 
availability for all people that were affected here, not just 
the first responders, the New York City fire department, and 
the policemen, not just the military volunteers that came down 
and gave their time, but also residents.
    I think that is a very big problem, that people in Lower 
Manhattan are virtuously invisible when it comes to the people 
affected after September 11th, because we have no recourse with 
the exception of the program at Bellevue.
    Mrs. Maloney. If we could have the answers from Mr. Centore 
and from Mr. Provost.
    Mr. Shays. And then I am going to take over. We are going 
to finish this panel up in like 3 minutes.
    Mr. Provost. My colleagues have been told, ``You were never 
down there,'' but ironically enough our headquarters for a task 
force of about 250 military volunteers was based in then 
candidate Bloomberg's campaign headquarters on 340 West Street, 
and he even addressed us at our closing ceremony on September 
13.
    But, again, we are told by the city that we were never 
there. I do suggest that the committee look into the records of 
the Office of Emergency Management for the city of New York, 
because they have an extensive data base of volunteers. They 
even issued volunteer tags for people that were down there. 
These were the famous red and orange tags that started to be 
issued on Friday and Saturday.
    And we personally also--I personally have the records of 
most of the military volunteers I know that were down there. 
But no, we get told that we were essentially never there. And 
do I think it is wrong? Yes, I think it is a sin against human 
decency.
    Mr. Centore. I think I paraphrased the first part of your 
question wrong. You asked me about the Federal program, what 
I--did I think it was working?
    Mrs. Maloney. Well, two parts, whether you think the 
Federal program is working, and, second, Senator Clinton and I 
tried to get Federal employees covered in the World Trade 
Center consortium monitoring program, which is headquartered at 
Mt. Sinai, believing that it would be good to have everybody in 
one program, yet they insisted on having a separate program. 
And is the Federal monitoring program working? And, second, do 
you think the Federal workers should be folded into the larger 
program that everyone else is in----
    Mr. Centore. Well, first----
    Mrs. Maloney [continuing]. With the exception of residents 
and students?
    Mr. Centore. First of all, is the Federal program working? 
If you design a program to do nothing and it does nothing, it 
is working I guess. [Laughter.]
    Mr. Shays. In other words, it is working the way it is 
intended.
    Mr. Centore. Yes, exactly. You know, I can't argue with 
that. I mean, I didn't design it. You know, I just--I saw the 
results of it. Do I think that the feds should be rolled into 
the consortium? Most definitely, because that way now if you 
try to start a separate program with the feds, you have another 
whole set of doctors and another whole medical community you 
have to try to bring up to speed on dealing with the issues and 
the ailments and the sicknesses and everything else that you 
already have established and paid for with the first 
consortium.
    So that would be my--and one other thing I wanted to say to 
Ms. Geronimo. I keep a paper bag tacked to my wall in my room, 
and on the very first couple of days that we were down at 
Ground Zero, before all of the pizza trucks and everything else 
came rolling in, the residents took it upon theirself to make 
bag lunches and bring it down to the responders, and on there 
they would write little messages of hope. And mine says, ``May 
God bless you all,'' and I still have that to this day on my 
wall.
    Mrs. Maloney. Thank you for your very moving testimony. 
Thank all of you.
    Mr. Shays. With the time that I have, and I am not using 
all the time, I know Mr. Nadler has one very quick question for 
one witness. So, Mr. Nadler, quickly please.
    Mr. Nadler. Thank you. The question is for Ms. Geronimo. 
Ms. Geronimo, Christie Todd Whitman yesterday, it is reported 
in today's papers, said that all her statements about the ``air 
is safe to breathe,'' they were for the entire area except for 
Ground Zero itself, that of course she understood that the 
people on Ground Zero, on the pile, that they needed 
protection, but across the street everything else was OK.
    As someone who lives in the Lower East Side, and who works 
a few blocks from Ground Zero, is this distinction that the air 
was not safe on Ground Zero, but was OK a block away or two 
blocks away or across the street, does this make any sense to 
you at all?
    Ms. Geronimo. Well, I will answer your question like this. 
I work for a brokerage house on Wall Street, and the government 
and the world economy was not very happy that the Stock 
Exchange had to close for 3 days. So in answer to your 
question, it didn't matter how bad the air was. I had to go 
back to work.
    Mr. Nadler. But was there any distinction between the air 
on Ground Zero or a block away?
    Ms. Geronimo. No.
    Mr. Nadler. OK. Thank you.
    Mr. Shays. Thank you.
    Ms. Geronimo. It was just as dirty at 13th Street where I 
live, at Wall Street where I work, and right across the street 
from the Ground Zero site.
    Mr. Nadler. Thank you very much.
    Mr. Shays. I thank the gentleman. Let me say I just want 
this panel to know why you are first, because we wanted your 
story to be heard first. That is why you are here.
    Mr. Zadroga, I want you to know that your story is for me 
the symbol of what we need to do, and I want you to be able to 
look back in a few years with all the horrible memories you 
have of your son's mistreatment, I want you to think of the 
beautiful memories you have of your son. And also, my goal is 
to have you believe and know for a fact that your testimony 
today made a world of difference.
    And for you and the other panelists I just want you to know 
that it is our determination that there be monitoring and that 
there be the health provided to meet whatever need is needing 
to be met, and that this has the funds necessary on the 
Federal, State, and local level.
    And I know that you must say ``been there, heard that,'' 
but I know we made a difference, this committee made a 
difference, with Gulf war illnesses. We had the help of a few 
other people like Ross Perot who stepped in, but we know that 
if the story gets out, and if the media is listening to people 
like you, that there will be a world of difference.
    So I just want to thank you for being here today. I want to 
thank you for your testimony. I want you to hold this 
committee's feet to the fire. And I want to just allow you, 
this panel, an opportunity to talk to any press that may want 
to talk with you before we start the next panel. So we will 
have a 10-minute recess before we begin the next panel, and so 
thank you all very, very much.
    [Recess.]
    Mr. Shays. We have a terrific panel here, and I would like 
them to--Commissioner Scoppetta, you are the only one who is 
standing. You might want to stay standing, because I am going 
to invite all of you to stand, and I am going to swear you all 
in.
    If there is anyone else that may provide testimony on your 
behalf, I would like them to be sworn in as well, even if we 
don't call on them. Do we have everyone? Raise your right 
hands.
    [Witnesses sworn.]
    Mr. Shays. We will note for the record that all our 
witnesses responded in the affirmative, and if anyone who was 
not called on but stood up to be sworn in, if they give 
testimony we will make sure the transcriber has their full name 
and title.
    Maybe we could, Dr. Herbert, have you slide down just a 
speck.
    Dr. Herbert. Sure.
    Mr. Shays. Are we adding--I think what we are going to do 
is--I don't like Dr. Howard being so stuck in a corner there. 
Can we have you slide down, Dr. Scoppetta, just a bit? Is that 
all right, sir? Thank you. Are we making it work here? OK.
    OK. Dr. Howard, it is good to see someone smiling in this 
room.
    Dr. Howard. Thank you.
    Mr. Shays. All right. We are going to start just as I 
called your names, and as you are lined up on the table. And, 
Dr. Howard, we are going to have you start, and we will go from 
there.

   STATEMENTS OF JOHN HOWARD, M.D., M.P.H., J.D., DIRECTOR, 
NATIONAL INSTITUTE FOR OCCUPATIONAL HEALTH, CENTERS FOR DISEASE 
    CONTROL AND PREVENTION, DEPARTMENT OF HEALTH AND HUMAN 
  SERVICES; DR. ROBIN HERBERT, CO-DIRECTOR OF THE WORLD TRADE 
  CENTER WORKER AND VOLUNTEER MEDICAL SCREENING PROGRAM, MT. 
  SINAI HOSPITAL, ACCOMPANIED BY DR. STEVEN LEVIN; THOMAS R. 
 FRIEDEN, M.D., M.P.H., COMMISSIONER, NEW YORK CITY DEPARTMENT 
OF HEALTH AND MENTAL HYGIENE; NICHOLAS SCOPPETTA, COMMISSIONER, 
 FIRE DEPARTMENT OF NEW YORK, ACCOMPANIED BY DR. CARRIE KELLY, 
HEAD, BUREAU OF HEALTH SERVICES, AND DR. DAVID PREZANT, CHIEF, 
  OFFICE OF MEDICAL AFFAIRS; AND DR. JOAN REIBMAN, ASSOCIATE 
 PROFESSOR OF MEDICINE, NYU MEDICAL CENTER, DIRECTOR, BELLEVUE 
       HOSPITAL WORLD TRADE CENTER HEALTH IMPACTS CLINIC

                    STATEMENT OF JOHN HOWARD

    Dr. Howard. Thank you, Mr. Chairman, and good morning, 
everyone. My name is John Howard, and I am the Director of the 
National Institute for Occupational Safety and Health in the 
Centers for Disease Control and Prevention in the U.S. 
Department of Health and Human Services.
    I am very pleased to appear in front of you again today to 
report on the progress that we have made and the progress that 
we still need to make on the health needs of those who served 
in response to the World Trade Center attack on September 11, 
2001, and the affected communities.
    Since February I have been privileged and honored to serve 
as the HHS World Trade Center programs coordinator. The 
Secretary of Health and Human Services, Michael Leavitt, asked 
me to perform this activity and charged me with the important 
task of assuring that programs addressing the health of World 
Trade Center responders and nearby residents are well 
coordinated. I have been to New York a number of times, and I 
want to thank everyone in New York for their generosity and 
their time in meeting with me and working with me on my 
coordination activities.
    Participating in these dialogs has enabled me to better 
understand the needs of those who have been affected medically 
by the World Trade Center disaster, and also to hear 
suggestions and comments about those steps that we still need 
to do. From the perspective that I have as a medical doctor, I 
am also pleased to work with the Secretary's new task force, 
which is a policy guidance body in the Department of Health and 
Human Services, to bring to them as their eyes and ears of the 
Secretary here in New York City.
    I am very pleased to be here again. I am pleased to answer 
any question that you may have. Thank you very much, Mr. 
Chairman.
    [The prepared statement of Dr. Howard follows:]
    [GRAPHIC] [TIFF OMITTED] 36998.051
    
    [GRAPHIC] [TIFF OMITTED] 36998.052
    
    [GRAPHIC] [TIFF OMITTED] 36998.053
    
    [GRAPHIC] [TIFF OMITTED] 36998.054
    
    [GRAPHIC] [TIFF OMITTED] 36998.055
    
    [GRAPHIC] [TIFF OMITTED] 36998.056
    
    [GRAPHIC] [TIFF OMITTED] 36998.057
    
    [GRAPHIC] [TIFF OMITTED] 36998.058
    
    [GRAPHIC] [TIFF OMITTED] 36998.059
    
    [GRAPHIC] [TIFF OMITTED] 36998.060
    
    [GRAPHIC] [TIFF OMITTED] 36998.061
    
    [GRAPHIC] [TIFF OMITTED] 36998.062
    
    [GRAPHIC] [TIFF OMITTED] 36998.063
    
    [GRAPHIC] [TIFF OMITTED] 36998.064
    
    [GRAPHIC] [TIFF OMITTED] 36998.065
    
    [GRAPHIC] [TIFF OMITTED] 36998.066
    
    [GRAPHIC] [TIFF OMITTED] 36998.067
    
    [GRAPHIC] [TIFF OMITTED] 36998.068
    
    [GRAPHIC] [TIFF OMITTED] 36998.069
    
    [GRAPHIC] [TIFF OMITTED] 36998.070
    
    [GRAPHIC] [TIFF OMITTED] 36998.071
    
    [GRAPHIC] [TIFF OMITTED] 36998.072
    
    [GRAPHIC] [TIFF OMITTED] 36998.073
    
    [GRAPHIC] [TIFF OMITTED] 36998.074
    
    [GRAPHIC] [TIFF OMITTED] 36998.075
    
    [GRAPHIC] [TIFF OMITTED] 36998.076
    
    Mr. Shays. Thank you, Dr. Howard. Dr. Herbert.

                   STATEMENT OF ROBIN HERBERT

    Dr. Herbert. Good morning.
    Mr. Shays. Good morning.
    Dr. Herbert. Or good afternoon. I am Dr. Robin Herbert, 
Director of the Data and Coordination Center of the World Trade 
Center Medical Monitoring Program. I would like to--thanks, can 
you hear me better?
    Mr. Shays. Yes.
    Dr. Herbert. Great. I would like to thank the Chair of the 
committee, Congressman Christopher Shays, along with 
Congressmember Carolyn Maloney of the subcommittee, and the 
distinguished Members of Congress who have been here today, 
Senators Chuck Schumer and Hillary Rodham Clinton, 
Congressmembers Jerrold Nadler, Vito Fossella, and Anthony 
Weiner, for having me testify today.
    It is particularly an honor to be here after yesterday's 
meeting with Secretary Leavitt of Health and Human Services in 
which the commitment was made to allocate the remainder of $75 
million in Federal funding to support vitally needed treatment 
programs for World Trade Center responders.
    Given the limited time at this hearing, I have submitted 
written testimony. I would like to also add to my written 
testimony a copy of our recently published or online paper, 
``The World Trade Disaster and the Health of Workers: Five-Year 
Assessment of the Unique Medical Screening Program.''
    The World Trade Center Medical Monitoring Program, 
federally funded through NIOSH/CDC, consists of the data and 
coordination center and five clinical centers in New York City, 
New Jersey, and Long Island, and we are proud to be the sister 
program of the program based at the New York Fire Department.
    Our program provides periodic comprehensive clinical 
examinations for World Trade Center responders in the New York/
New Jersey metropolitan area and throughout the Nation. We have 
examined over 16,500 responders to date. Our patients are a 
highly diverse group that includes members of the building 
trades, law enforcement officers, utilities and 
telecommunications workers, transit workers, public sector 
workers, health care workers, and many others.
    We serve many immigrant workers. Fully 14 percent of our 
program's examinations have been conducted in languages other 
than English. The unifying factor among our patients is that 
all rushed in to respond to the attack on our Nation. They were 
united by their service, and now, sadly, many are linked by the 
illnesses they have developed.
    As many of you are aware, this past Tuesday we released 
sobering findings on the health impact of the disaster on 9,442 
World Trade Center responders who underwent medical 
examinations between July 2002 and April 2004. This study, 
coupled with the findings of other studies, should leave no 
doubt that many World Trade Center responders are sick as a 
result of their work, and that many--that they will need 
ongoing health monitoring and many will need treatment for the 
rest of their lives.
    Of the patients we reported on, 69 percent developed new or 
worsened respiratory symptoms while performing World Trade 
Center recovery work, and 59 percent still had symptoms at the 
time of their examination as long as 2\1/2\ years after the 
attacks. Fully one-third had abnormal breathing tests, and the 
rate of the most common abnormality, low forced vital capacity, 
was five times greater than the rate expected in non-smokers.
    There was a very strong relationship between time of 
arrival at the World Trade Center site and the prevalence of 
symptoms and breathing test abnormalities strongly confirming 
the relationship between the World Trade Center response work 
and respiratory disease. Subsequent work will focus on the 
mental health consequences of the disaster in this group, and 
on characterization of patterns of self-reported diseases such 
as interstitial lung diseases and cancers.
    Even before our recent study, because early on we saw many 
responders who were clinically quite ill but lacked access to 
needed specialty medical testing and treatment, at Mt. Sinai we 
sought and received philanthropic funding to establish the 
World Trade Center health effects treatment program to make 
sure responders could obtain the medical care they needed.
    At the present time, in addition to the federally funded 
monitoring program, Mt. Sinai and the other clinical centers 
have World Trade Center treatment programs that have been 
funded largely by the Red Cross and other private donors. These 
treatment programs have been virtual lifelines for our 
patients.
    At our program at Mt. Sinai, we see very ill and vulnerable 
workers. About half do not speak English. About 40 percent have 
no health insurance, and another 40 percent are underinsured. 
Among those whom we saw in the past year 84 percent are still 
suffering from upper respiratory diseases such as chronic 
sinusitis, 47 percent have persistent lower respiratory 
problems such as asthma, and 37 percent in our physical health 
treatment program have persistent mental health consequences.
    Now, as so many World Trade Center responders have become 
ill, I hope they will all receive the medical and mental health 
care that they need and deserve. We need a comprehensive, 
coordinated, and permanent program that guarantees both 
lifelong medical monitoring to identify World Trade Center 
related illnesses and lifelong treatment for World Trade Center 
related illnesses, both physical and mental health.
    I hope our Nation will repay the World Trade Center 
responders for the sacrifices they made by guaranteeing testing 
and treatment for any illnesses they develop as a result of 
their sacrifices.
    Thank you very much.
    [The prepared statement of Dr. Herbert follows:]
    [GRAPHIC] [TIFF OMITTED] 36998.077
    
    [GRAPHIC] [TIFF OMITTED] 36998.078
    
    [GRAPHIC] [TIFF OMITTED] 36998.079
    
    [GRAPHIC] [TIFF OMITTED] 36998.080
    
    [GRAPHIC] [TIFF OMITTED] 36998.081
    
    [GRAPHIC] [TIFF OMITTED] 36998.082
    
    [GRAPHIC] [TIFF OMITTED] 36998.083
    
    [GRAPHIC] [TIFF OMITTED] 36998.084
    
    [GRAPHIC] [TIFF OMITTED] 36998.085
    
    [GRAPHIC] [TIFF OMITTED] 36998.086
    
    [GRAPHIC] [TIFF OMITTED] 36998.087
    
    [GRAPHIC] [TIFF OMITTED] 36998.088
    
    [GRAPHIC] [TIFF OMITTED] 36998.089
    
    Mr. Shays. Thank you, Doctor. You are the director of the 
program, correct?
    Dr. Herbert. I am the director of the data and coordination 
center, and was co-director with Dr. Levin of the medical 
screening program.
    Mr. Shays. Dr. Levin, thank you for being here. You will be 
here to respond to questions as well, and we thank you for that 
very much. Commissioner Frieden.

                 STATEMENT OF THOMAS R. FRIEDEN

    Dr. Frieden. Good afternoon, Chairman Shays, Congresswoman 
Maloney, and members of the Government Reform Committee. I am 
Dr. Thomas Frieden, Commissioner of the New York City 
Department of Health and Mental Hygiene, and I am pleased to be 
here today.
    September 11th was an unprecedented urban environmental 
disaster. In the days and months that followed, millions of 
people were affected emotionally, physically, and financially. 
Many people have experienced respiratory symptoms and 
psychological distress since that time. We share a commitment 
with others in this room to do whatever we can to understand 
health problems better, so that we can link people in need of 
care to effective services.
    We are grateful to the New York City congressional 
delegation and Mayor Bloomberg for securing funding to support 
medical and mental health monitoring treatment programs, and we 
partner with these programs, as well as other institutions, as 
well as labor and community groups, in this world.
    We also appreciate the funding provided for the World Trade 
Center Health Registry. However, it is essential that Federal 
Government support continue and expand for health monitoring 
and treatment, including extension of the registry and 
additional funding for health and mental health services.
    The city supports legislation introduced by Congresswoman 
Maloney, and co-sponsored by Congressman Fossella and many 
members of the delegation, to reopen the Federal victims 
compensation fund established to support families of those who 
died in the attack and those physically injured in the 
aftermath.
    Earlier this week the mayor announced initiatives 
augmenting screening and treatment programs including 
establishing a WTC environmental health center at Bellevue 
Hospital, expansion of the World Trade Center health unit at 
the Health Department, and creation of a Mayoral Review Panel 
to ensure maximum coordination among city agencies and 
sufficiency of resources.
    Bellevue, in collaboration with NYU Medical Center, will 
evaluate and treat anyone exposed to the WTC, including people 
not covered by existing programs. The initiatives also include 
an expanded unit at the Health Department to increase 
monitoring for WTC related health conditions, increased 
communication with affected individuals, treating physicians 
and the public, and expand risk reduction linkage to care and 
mental health services.
    In the past year, the Health Department has led an 
initiative, in collaboration with medical experts from the WTC 
Medical Monitoring and Treatment Programs, the Fire Department, 
Bellevue, and other specialists to reach consensus on and 
disseminate clinical guidelines which update previously 
released Health Department guidelines on depression, post-
traumatic stress disorder, and substance abuse disorders as 
well as guidelines on the diagnosis and treatment of 
respiratory gastrointestinal and sinus diseases previously 
developed by Mt. Sinai and fire department physicians.
    The World Trade Center health registry is the main platform 
to enable us to better understand possible WTC related 
illnesses and also a major means of assessing treatment needs, 
more than 71,000 people enrolled in the registry, making it the 
largest such effort ever in the United States. Since its 
establishment, the registry has maintained a frequently updated 
resource guide to help both enrollees and the public.
    Baseline interviews were completed in November 2004, and we 
immediately released preliminary findings. Nearly half of adult 
enrollees reported new or worsened sinus or nasal problems, 
shortness of breath, wheezing. Persistent cough and throat 
irritation were also common, and 2 to 3 years after the event 
registrants reported high levels of psychological distress.
    We also published an in-depth analysis of physical and 
mental health conditions among more than 8,000 registrants from 
collapsed or damaged buildings. Those caught in the dust cloud 
were twice as likely to report newly diagnosed asthma. This 
adds to the growing body of literature suggesting that exposure 
to the dust cloud on September 11th in particular was a major 
risk factor for respiratory disease.
    The first biennial followup survey begins this month, and 
will provide critical information on prevalence and persistence 
of symptoms, and at least or more importantly will identify and 
help address gaps in medical treatment. Collecting information 
on 71,000 participants will take at least 9 months. We will 
release initial findings as soon as possible upon completion of 
the survey, just as we did with our baseline survey, and we 
will conduct additional investigations including an examination 
investigation for respiratory illness.
    Response to WTC involves many levels of government as well 
as private institutions. It will also require a long-term 
commitment of Federal and State resources. Much more needs to 
be done, and if we work together we can make sure that all of 
those who experience illness from the attacks on September 11th 
have access to appropriate medical evaluation and treatment.
    Thank you for your support in these efforts.
    [The prepared statement of Dr. Frieden follows:]
    [GRAPHIC] [TIFF OMITTED] 36998.090
    
    [GRAPHIC] [TIFF OMITTED] 36998.091
    
    [GRAPHIC] [TIFF OMITTED] 36998.092
    
    [GRAPHIC] [TIFF OMITTED] 36998.093
    
    [GRAPHIC] [TIFF OMITTED] 36998.094
    
    [GRAPHIC] [TIFF OMITTED] 36998.095
    
    Mr. Shays. Thank you very much. Commissioner Scoppetta.

                STATEMENT OF NICHOLAS SCOPPETTA

    Mr. Scoppetta. Good afternoon, and thank you for the 
opportunity to testify today about the health of our September 
11th first responders.
    With me today are the Department's two chief medical 
officers, Dr. Carrie Kelly, who is head of our Bureau of Health 
Services, and Dr. David Prezant, the Chief of our Office of 
Medical Affairs. Both have been sworn and are available to 
answer questions.
    As we approach the fifth anniversary of the World Trade 
Center attacks, we continue to remember the tremendous losses 
of that day. In a matter of moments, with the collapse of the 
two towers, 343 of our members perished, along with 60 first 
responders from the NYPD and the Port Authority, and more than 
2,300 civilians as well.
    New York City's first responders saved others while risking 
their own lives, and we continue to commemorate their bravery 
and their dedication while mourning their loss.
    In the weeks and months following September 11th, our 
members worked tirelessly at the site amid the debris and dust 
resulting from the towers' collapse. Their rescue and recovery 
efforts continued through May 2002. During that time FDNY 
workers experienced more exposure at the World Trade Center 
site than any other group of workers.
    The physical and emotional toll on our members has been 
thoroughly documented. Dr. Kelly and her Bureau of Health 
Services have been dedicated to ensuring that our members are 
regularly evaluated with special attention to members who 
continue to experience the adverse effects of September 11th.
    In the days following September 11th, virtually all of the 
FDNY first responders worked at the World Trade Center site. 
More than 11,000 firefighters and fire officers, and more than 
3,000 EMTs and paramedics, took part in the rescue, recovery, 
and fire suppression efforts. Our work force was exposed to the 
physical hazards at the site, and the emotional impact 
associated with the recovery of deceased colleagues.
    For those working at the site, respiratory issues surfaced 
quickly. In recognition of these symptoms, FDNY initiated the 
World Trade Center medical screening and treatment program in 
October 2001, just 4 weeks after the attacks. Our VHS partnered 
with the Centers for Disease Control and Prevention, and the 
National Institute of Occupational Health and Safety, to 
implement medical screening for the exposed FDNY first 
responders.
    From October 2001 through February 2002, VHS evaluated more 
than 10,000 of our FDNY first responders. Since that time we 
have continued to screen both our active and retired members 
for a total of almost 14,000 FDNY personnel to date. This WTC 
medical monitoring program has been federally funded and has 
been a joint labor management initiative.
    The program is dedicated to monitoring the health of our 
members while the Mt. Sinai consortium addresses primarily the 
health issues of non-FDNY responders. Our monitoring programs 
work collaboratively, partnering with NIOSH. At this time, more 
than 8,000 of our FDNY members have participated in a second 
round of medical and mental health monitoring.
    In the first few weeks following September 11th, the health 
consequences of World Trade Center exposure became apparent as 
more and more members sought medical treatment primarily for 
respiratory symptoms. More than 2,000 of our members have 
sought treatment since September 11th. Most have been able to 
return to work, but more than 600 have developed permanent 
disabling respiratory illnesses that have led to earlier-than-
anticipated retirement among members of an otherwise generally 
healthy work force.
    In the first 4 years post-September 11th, we experienced a 
four- to fivefold increase in the number of members retiring 
with lung problems on an annual basis. Since VHS performs both 
pre-employment and annual medical examinations of all of our 
members, the World Trade Center medical monitoring program has 
used the results of these exams to compare pre- and post-
September 11th medical data. This objective information enables 
us to observe patterns and changes among members.
    A significantly higher number of firefighters were found to 
be suffering from pulmonary disorders during the year after 
September 11th than those who suffered from those disorders 
during the 5-year period prior to September 11th. Further, the 
drop in lung function is directly correlated to the initial 
arrival time at the World Trade Center site.
    On average, for symptomatic and asymptomatic FDNY 
responders, we found a 375 milliliter decline in pulmonary 
function for all of the 13,700 FDNY World Trade Center first 
responders, but an additional 75 milliliter decline if the 
member was present when the towers collapsed. This pulmonary 
function decline was 12 times greater than the average annual 
decline noted 5 years pre-September 11th.
    Over the past 4 years, pulmonary functions of many of our 
members have either leveled off, improved, or, unfortunately 
for some, declined. More than 25 percent of those we tested 
with the highest exposure to World Trade Center irritants 
showed persistent airway hyperactivity consistent with asthma 
or reactive airway dysfunction, or RADS.
    In addition, more than 25 percent of our full duty members 
participating in their followup medical monitoring evaluation 
continue to report respiratory symptoms. As I noted, many of 
our members who were symptomatic have improved with the 
treatment provided by Drs. Kelly and Prezant, and the 
physicians who work with them and have gone back to work full-
time.
    Certain reports in the press, however, do not accurately 
portray what our doctors have found through their efforts and 
may create needless fears. For example, continued reports of 
possible heavy metal poisoning from World Trade Center 
exposures is not supported by the science. Everyone should know 
that Drs. Kelly and Prezant and many others at the fire 
department who worked continually after September 11th to 
analyze and protect the health of our members, they did not 
stop at performing comprehensive respiratory testing, but also 
performed heavy metal screenings for over 13,000 members, and 
the results consistently found nothing clinically significant.
    The fire department's preliminary analysis has shown no 
clear increase in cancer since September 11th. Pre- and post-
September 11th, the fire department continues, however, to see 
occasional unusual cancers that require continued careful 
monitoring, and, of course, we are obviously aware of the fact 
that cancers may take a long time before they surface.
    Monitoring for future illnesses that may develop and 
treatment for existing conditions is imperative, and, as I will 
discuss in a minute, should be funded through Federal 
assistance. As our doctors and mental health professionals can 
attest, the need for mental health treatment was also apparent 
in the initial days after September 11th, that virtually our 
entire work force faced the loss of colleagues, friends, and 
family.
    In the close-knit family of the FDNY, more than 60 
firehouses lost members. Nevertheless, those who survived 
continue to work in the rescue and prolonged recovery operation 
at the World Trade Center site. In recognition of the mental 
health needs of our members, the FDNY Counseling Services Unit, 
or CSU, expanded from one site to six, and added professional 
staff to provide more services.
    Thanks to funding from FEMA and Project Liberty, as well as 
the American Red Cross, the International Association of 
Firefighters, and the National Fallen Firefighters Foundation, 
we secured critical resources to provide those additional 
services to our members and our families.
    Our goal was to reduce and eliminate any barrier to 
treatment, so that members could easily be evaluated and 
treated in the communities where they live. Additionally, we 
sent specially trained peer counselors to the most affected 
firehouses, accompanied by professional counselors, to provide 
onsite education. We also developed enhanced educational 
programs for our members to address coping strategies and help 
identify early symptoms of stress, depression, and substance 
abuse.
    Nearly 14,000 people have sought mental health services 
through CSU since September 11th. We developed also programs 
for bereaved spouses, parents, and siblings. Now, 5 years 
later, some of these groups still need--provide a needed link 
for these families. Prior to September 11th, CSU treated 
approximately 50 new cases a month. Since September 11th, we 
have seen that number increase to 160 new cases at its six 
sites each month. That is more than 3,500 clients annually. the 
continued stream of clients at the CSU indicates that the need 
for mental health services remains strong.
    Mr. Shays. Excuse me. Mr. Scoppetta, you have gone 10 
minutes now, so you need to really wrap it up.
    Mr. Scoppetta. OK.
    Mr. Shays. Your full testimony is part of the record.
    Mr. Scoppetta. I understand.
    Mr. Shays. You are providing us essential information, and 
we do thank you for it.
    Mr. Scoppetta. Well, let me just say in summary fashion, we 
are going to need continued funding for many years to come, 
because many of these conditions are not going to surface for 
many years, and we really are talking about something that 
needs funding for several decades, not for several years.
    So going forward, we continue to monitor. We have a huge 
registry of people that we monitor. We have objective data, 
because we examined pre-September 11th.
    And just to conclude, our firefighters continue to answer 
the call for help every day, despite the risks they face. And 
careful screening, monitoring, and treatment is what will be 
essential. Early treatment of symptoms can reduce the 
likelihood of disability and restore function in many members.
    Thank you. My apologies for running over.
    [The prepared statement of Mr. Scoppetta follows:]
    [GRAPHIC] [TIFF OMITTED] 36998.096
    
    [GRAPHIC] [TIFF OMITTED] 36998.097
    
    [GRAPHIC] [TIFF OMITTED] 36998.098
    
    [GRAPHIC] [TIFF OMITTED] 36998.099
    
    [GRAPHIC] [TIFF OMITTED] 36998.100
    
    [GRAPHIC] [TIFF OMITTED] 36998.101
    
    [GRAPHIC] [TIFF OMITTED] 36998.102
    
    [GRAPHIC] [TIFF OMITTED] 36998.103
    
    [GRAPHIC] [TIFF OMITTED] 36998.104
    
    Mr. Shays. You do not need to apologize at all. Your 
testimony is very vital, and I will have specific questions to 
ask you when my turn comes.
    It is Dr. Reibman, is that correct?
    Dr. Reibman. Yes.
    Mr. Shays. Dr. Reibman, thank you very much for being here.

                   STATEMENT OF JOAN REIBMAN

    Dr. Reibman. Good afternoon, Congressman Shays, 
Congresswoman Maloney, Mr. Weiner, and Mr. Nadler. My name is 
Joan Reibman, and I am an Associate Professor of Medicine and 
Environmental Medicine at New York University School of 
Medicine, and an attending physician at Bellevue Hospital, a 
public hospital on 27th Street in New York City.
    I am a specialist in pulmonary medicine, and for the past 
15 years I was the Director of the Bellevue Hospital Asthma 
Program. Most of my patients come from Lower Manhattan. As 
such, I know Lower Manhattan well, and know that although it is 
thought of as an area replete with office towers, it is also a 
major residential community. Almost 60,000 residents of diverse 
race, ethnic, and economic backgrounds live south of Canal 
Street alone.
    The destruction of the World Trade Center towers resulted 
in the dissemination of dust throughout Lower Manhattan, and 
these dusts settled on streets, playgrounds, cars, and 
buildings, and entered apartments through windows, building 
cracks, and ventilation systems. The fires continued to burn 
through December.
    Thus, individuals living in the communities of Lower 
Manhattan have potential for prolonged exposure to the initial 
dusts, to resuspended dusts, and to the fumes from the fires. 
As pulmonologists in a public hospital, we naturally asked 
whether the collapse of the buildings posed a health hazard for 
these residents.
    We, therefore, collaborated with the New York State 
Department of Health in a study funded by the Centers for 
Disease Control to examine whether there was an increase in the 
rate of new respiratory symptoms in community residents near 
Ground Zero. The study was designed, implemented, and completed 
in 16 months after September 11th, and the results have been 
reported in two publications.
    Community members were actively involved in the design and 
implementation of this work, and we surveyed residents in 
buildings within 1 mile of Ground Zero, and for purposes of 
control other low-risk buildings approximately 5 miles from 
Ground Zero. We mailed and hand distributed questionnaires to 
apartments in selected buildings and publicized the study at 
local events, health fairs, tenants meetings, community board 
meetings, and town hall meetings.
    Surveys were analyzed for 2,800 residents in the areas. 
Approximately 60 percent of individuals in the exposed area, 
compared to 20 percent in the control area, reported new onset 
respiratory symptoms such as cough, wheezing, or shortness of 
breath at any time following September 11th. The more important 
question, however, was whether these symptoms resolved over 
time or persisted.
    We, therefore, examined whether symptoms were present in 
the months preceding completion of the study, 8 to 16 months 
after September 11th, and defined persistence of the frequency 
of symptoms at least twice each week. Such new onset and 
persistent symptoms as eye irritation, nasal irritation, sinus 
congestion, nosebleed, or headaches, were present in 43 percent 
of the exposed residents, more than three times the number of 
exposed compared to control residents.
    New onset persistent lower respiratory symptoms of any kind 
were present in 26 versus 7 percent of exposed and control 
residents, respectively, a more than threefold increase in 
symptoms. This included an increase in cough, shortness of 
breath, and 10 percent versus 1.6 percent of residents had 
wheeze.
    In individuals with new onset persistent respiratory 
symptoms, many of them had daily symptoms consistent with 
severe disease. The respiratory symptoms resulted in an almost 
twofold increase in unplanned medical visits in the exposed 
population compared to the control population. Moreover, more 
than twice as many exposed residents used medications 
prescribed for asthma.
    This study was one of the few studies, and particularly one 
of the few with a control population, to describe the incidence 
of respiratory symptoms among residents of Lower Manhattan 
after September 11th. It suggested that many residents had 
symptoms in the immediate aftermath, and many have persistence 
of symptoms in the year after the event.
    Do these symptoms persist today, 5 years after the attack, 
and some 3\1/2\ years after our study? When it comes to the 
residents, we have little information. The registry, which was 
implemented after our study was completed and closed in 2004, 
found a similar pattern of symptoms to ours, but did not 
address the issue of persistence. We look forward to the 
resurvey planned by the registry which should help shed light 
on this question.
    While we await more survey information, we are cognizant of 
what we are seeing in our clinics. After September 11th, we 
began to treat residents who felt they had World Trade Center 
issues in our Bellevue Hospital asthma clinic. We were then 
approached by the Beyond Ground Zero Network, a coalition of 
community organizations, and together began an unfunded program 
to treat residents.
    We were awarded an American Red Cross liberty disaster 
relief grant to set up a medical treatment program for World 
Trade Center health issues for residents and responders, which 
began functioning approximately a year ago. Today we have 
evaluated and are treating 570 individuals, including residents 
and responders.
    Most of our patients have persistent upper or lower 
respiratory symptoms for which they are seeking care 5 years 
after September 11th. Interestingly, many of these symptoms did 
not occur immediately, but either developed or were recognized 
1 year or more after the event. We have a backlog of hundreds 
of patients waiting to get into the program suggesting that the 
need has not abated.
    This week Mayor Bloomberg announced new initiatives to 
provide for evaluation and treatment of individuals with 
suspected World Trade Center related illnesses. This much 
needed support will serve to provide evaluation and treatment 
for residents, office workers, and individuals caught in the 
dust cloud.
    I would like to thank Mayor Bloomberg and Members of 
Congress for their continuing efforts to provide funding for 
monitoring and treatment, and members present for having this 
important hearing. It is paramount that the Federal Government 
fully fund ongoing monitoring and treatment for all those who 
were exposed to the effects of the September 11th attack in New 
York City. And, furthermore, we will need funding for research 
to understand the new diseases and to guide our treatment.
    Thank you very much.
    [The prepared statement of Dr. Reibman follows:]
    [GRAPHIC] [TIFF OMITTED] 36998.105
    
    [GRAPHIC] [TIFF OMITTED] 36998.106
    
    [GRAPHIC] [TIFF OMITTED] 36998.107
    
    [GRAPHIC] [TIFF OMITTED] 36998.108
    
    [GRAPHIC] [TIFF OMITTED] 36998.109
    
    [GRAPHIC] [TIFF OMITTED] 36998.110
    
    Mr. Shays. Thank you very much, Dr. Reibman. We will start 
out with Mrs. Maloney, and then I will go to Mr. Nadler, Mr. 
Weiner, and then I will be asking questions. We are going to do 
a 10-minute series of questions, so we can do it in a little 
more depth.
    I basically view the first panel as kind of stating the 
case and the problem, and we need to get into some very 
important issues as to how we help folks. And I know that my 
focus is going to be not at this hearing, maybe there are other 
hearings and investigations, who did what when. I want to know, 
what are we going to do to monitor folks, what are we going to 
do to provide them health care, what are we going to do not 
just in the short run but the long run, and I hope with the 
answer to all of our questions that you are going to tell us 
what you think that commitment is in both the short and long 
run.
    So at this time, I would acknowledge that Mrs. Maloney has 
10 minutes to ask questions.
    Mrs. Maloney. I thank the chairman for yielding. I thank 
all of the panelists for their testimony and hard work. I 
particularly would like to thank Dr. Howard for working so hard 
on a Federal response, attending so many meetings, and 
particularly the meeting that we had yesterday with Secretary 
Leavitt. And I wanted to go over some of the issues that we 
discussed yesterday.
    Yesterday, Dr. Howard, you and Secretary Leavitt committed 
to releasing the $75 million that the delegation and Congress 
secured in the budget, and in December releasing this money for 
monitoring and the first money for treatment in October. Is 
that correct?
    Dr. Howard. That is correct.
    Mrs. Maloney. Thank you. You also committed to making this 
entire funding with no limitation to spreading it over periods 
of time. Is that correct?
    Dr. Howard. That is correct.
    Mrs. Maloney. Just to be clear, we are going on what you 
said yesterday with Secretary Leavitt, and what you are 
testifying to today, instead of what was reported to the 
General Accounting Office, that the funding would not be 
released until February 2007, and that it would be spread over 
3 years. Correct? You are not going with that GAO----
    Dr. Howard. Correct.
    Mrs. Maloney. Thank you. Thank you very much. I would like 
to now go to Dr. Frieden, and I want to ask some questions 
about the clinical guidelines that thankfully came out last 
week. When did the city of New York know that the air around 
Ground Zero was not safe and that the Ground Zero dust was 
toxic?
    Dr. Frieden. I can only refer to my personal experience of 
the information on this. Actually, a few days after being sworn 
in as Health Commissioner, Senator Clinton's hearing occurred, 
at which I testified, and said at that time that we knew--and 
this was in February 2002--we knew that there were many people 
with short-term health effects. We knew that from other 
disasters the likelihood of long-term mental health effects was 
certainly present, and we did not know what the long-term 
respiratory or other physical health impacts would be.
    Mrs. Maloney. And this was your knowledge after being sworn 
in in 2002. Is there any way you can find out what happened 
earlier with your predecessor, and when did the city of New 
York and the Health Department suspect that people were getting 
sick from their exposure to the toxins at Ground Zero?
    Dr. Frieden. I can certainly look at the literature and get 
you any information in the future.
    Mrs. Maloney. Could you find out whether or not the city of 
New York's Health Department was part of a discussion on 
October 2001 to determine if area doctors were seeing a pattern 
of illnesses possibly related to September 11th? I know that 
NIOSH was there, the World Trade Center consortium was there, 
the fire department was there, and I am told that the city of 
New York was there. Do you have any knowledge of this meeting 
in 2001 discussing the pattern of illnesses?
    Dr. Frieden. I am not familiar with the answer, but I can 
certainly get it and get back to you.
    Mrs. Maloney. Thank you.
    Dr. Frieden. We do know that immediately after September 
11th, with support of CDC, we implemented a system throughout 
area hospitals to monitor for different patterns of complaints. 
At that point, as you will recall, there were still concerns 
about the potential of a related bioterrorist attack, and that 
was the primary purpose of that system of monitoring.
    Mrs. Maloney. Was the city Health Department part of a 
December 2001 meeting--I am told that they were--where a draft 
of World Trade Center clinical guidelines were discussed? And 
why did the city's Health Department choose not to disseminate 
these guidelines discussed at the December 2001 meeting?
    Dr. Frieden. I have seen reference to that, and the 
recollection of people from within the Department who were 
present at that meeting was that the majority of people at that 
meeting felt that it would be quickest and most efficient to 
have them post it on the Mt. Sinai Web site. That was done, and 
the Health Department has referred clinicians to that Web site.
    Mrs. Maloney. Most doctors listen to an official directive 
from the New York City government or the Federal Government as 
an official directive. I wish you would look back to see why 
Mt. Sinai's Web site has more weight and credibility than the 
city of New York. I find that astonishing, quite frankly.
    And did you mail to doctors the clinical guidelines you did 
prepare for September 11th mental health issues?
    Dr. Frieden. Yes. As soon as we could produce guidelines 
for three different conditions that we suspected or had 
evidence were related, specifically post-traumatic stress 
disorder, depression, and substance abuse disorders, we 
disseminated those guidelines widely to all licensed physicians 
as well as other providers in New York City as we are doing now 
with an update of those guidelines.
    Mrs. Maloney. When did you disseminate it? I was told you 
did not disseminate it until last week.
    Dr. Frieden. No, that is not correct. In terms of the 
mental health effects, as soon as we had evidence, we produced 
a publication called ``City Health Information,'' which is 
mailed to all licensed physicians as well as other providers in 
New York City.
    Mrs. Maloney. What year did that go out?
    Dr. Frieden. There were three different bulletins produced, 
one on post-traumatic stress disorder, one on depression, and 
one on substance abuse disorders, and I would have to look up 
and give you the exact month and year when those were 
published.
    Mrs. Maloney. Thank you very much. Dr. Howard, you 
testified before this committee and in our meetings in February 
that this is a long-term problem, 20 to 30-year problem, is 
that correct?
    Dr. Howard. Yes.
    Mrs. Maloney. In the 6-plus months that you have been on 
the job, has there been any actuarial study of just how much 
this will cost?
    Dr. Howard. No.
    Mrs. Maloney. Has the Health and Human Services Department 
employed medical economists?
    Dr. Howard. No.
    Mrs. Maloney. In the letter that you sent Congressman 
Fossella and myself yesterday, which I might note is on my Web 
site if anyone would like to read along and see his response to 
our questions, you have--you talk about 5 years after September 
11th, and you say that there is no estimate of the cost or the 
extent because of the uncertainties involved. Is that correct?
    Dr. Howard. Yes. If I could just expand briefly, I think 
what we are looking for now is the experience that we are going 
to get when our treatment money is released, which is the 
October date that I promised. We have some treatment experience 
from the World Trade Center clinical consortium, and from the 
fire department based on the limited Red Cross experience.
    We would like to see some additional experience, so that we 
can do some sound actuarial analysis, to be able to answer some 
of the questions that you asked in terms of, what are the 2-
year costs? What are the 5-year costs? What are the 20-year 
costs?
    Mrs. Maloney. Thank you. Yesterday at our meeting with 
Secretary Leavitt, you and the Secretary made a commitment to 
work toward a coordinated plan to get health monitoring and 
treatment for everyone exposed, residents and rescue workers, 
is that correct?
    Dr. Howard. Yes, that is correct.
    Mrs. Maloney. And I just would like to say I would like to 
see more Federal leadership. The city is doing many good 
things, the State is doing many good things, the private sector 
is doing many good things, but we really have to pull all this 
together under one umbrella, and we are counting on your 
leadership.
    Dr. Howard. Thank you very much. I just want to add in 
response to that, the Secretary, as you know, yesterday in the 
meeting with the New York delegation pointed out that he is 
convening a top-level HHS task force headed by our Assistant 
Secretary for Health, Dr. John Agwunobi, and the directors of 
the operating divisions of HHS.
    He is doing that, recognizing that this issue that we are 
struggling with today needs the entire department's policy 
guidance. As you know, I have represented myself as a physician 
here, as the eyes and ears of HHS on the ground. It has been my 
privilege to do that. My agency funds a lot of the medical 
activities that are going on here in New York City, and I am 
pleased to see that the Secretary is now putting policy 
guidance as an important link in that process.
    Mrs. Maloney. OK. Thank you so very much. That is 
important, and we look forward to your continued participation 
in this so-called A team. But as we heard from our first panel, 
people are sick, people are dying, and they don't need a task 
force, they need treatment money, and they need to get help. 
They also are examples of how widespread through many different 
areas, from the military to the residents, to the responders, 
to the Federal Government employees, that the $52 million that 
we got for treatment is just a drop in the bucket, so we need 
your leadership on making the estimates of what the cost will 
be, so that we can work on getting a line in this upcoming 
Federal budget.
    But I don't see how you are going to be able to do it if 
you haven't hired any medical economists or made any estimates 
on how--the extent of the problem.
    Dr. Howard. Well, one of the issues that I will tell you 
about is within the Department one of the individuals on the 
Secretary's task force will be the Administrator of the Centers 
for Medicaid and Medicare. I can assure you that those centers 
have numerous actuaries and economists who work there, so we 
are going to rely on their important contribution, and that for 
me extremely important.
    As you may know, in NIOSH we are a research agency for 
occupational safety and health, so we do not have that 
expertise. So I am delighted that we will be able to rely on 
the expertise of the Department's actuaries and economists.
    Mrs. Maloney. I just want to point out, and the chairman 
has told me my time is up, but I just want to point out that in 
the letter that you sent Congressman Fossella and myself 
yesterday that you noted that you think that there were 50,000 
rescue workers who are eligible for treatment, while I think 
the city of New York has been using the number of 40,000 
responders. Am I right in assuming that we do not really have 
any firm grass on the exact number of people on the pile and 
those that responded?
    Dr. Howard. Well, I think that you are entirely correct. I 
don't know of anyone at any level of government that is able to 
tell me the exact number. As our GAO witness pointed out, we 
don't--we never had a master list. One of the great lessons 
learned in terms of large public health disaster preparedness 
is we need to know who responds, how to reach them, what their 
number is, so that we can contact them after the disaster is 
over for medical monitoring purposes. That is one of the most 
significant lessons from this experience that I have been able 
to acquire in New York City here.
    Mrs. Maloney. Thank you all for your work.
    Mr. Shays. Thank you. Dr. Howard, it is an amazing comment 
you are making, but it strikes us as so obvious times 10 that 
it is such an obvious point. Anyway, that needed to be made.
    Doctor--excuse me, not Doctor. Mr. Nadler, Congressman 
Nadler.
    Mr. Nadler. Thank you. I chose to be a politician, not a 
physician, but thank you very much, Mr. Chairman.
    Mr. Shays. And it is probably a good thing for all of us. 
[Laughter.]
    Mr. Nadler.
    At both ends.
    Mr. Shays. In both respects. [Laughter.]
    Mr. Nadler. Thank you, Mr. Chairman. Let me start by 
saying--by making two comments. First, to Dr. Howard, I simply 
want to note and congratulate him for being one of the very few 
people in the executive branch of government that I have found 
in the 5-years that I have been working on this problem who 
have honest and forthcoming and as helpful as possible. It is a 
very small list at this point.
    Second, I want to disagree with what my colleague 
Congresswoman Maloney and Dr. Howard were saying a moment ago. 
It is interesting to get a cost analysis, but I don't think it 
is all that important. What is important is to have a 
commitment to spend whatever is necessary and rapidly and to 
appropriate the money as necessary.
    We never had a decent cost estimate for Iraq, and whatever 
you think of the Iraq war, the fact that we didn't have a 
decent cost estimate was not a central issue. We are spending 
whatever the administration thinks we ought to spend. We can 
second-guess whether we agree with them, but the fact is that 
if we agree that there is a major problem here, we ought to 
start--we are going to have a program to treat everybody, and 
whenever the bills come in pay them. Let me just make that off 
the top of my head.
    Second, I have a series of questions for Dr. Howard first. 
Doctor, do you believe there is any doubt that people are sick 
as a result of exposure to World Trade Center contamination?
    Dr. Howard. You know, certainly from the medical studies 
that our department has funded, both for the responder 
population as well as those studies that have been funded that 
Dr. Reibman talks about in the resident population, I don't 
think there is any doubt about the level of symptomatology. We 
still have some question about whether it is persistent in the 
resident population, and we are looking very much forward to 
the Health Department's World Trade Center health registry's 
first followup survey to look at that persistent issue, which 
is still an open issue.
    Mr. Nadler. But in other words----
    Dr. Howard. And in the responder treatment program, the 
responder monitoring program, the research that has come out of 
that program is fairly clear to me.
    Mr. Nadler. So the answer is there is no doubt.
    Dr. Howard. There is no doubt.
    Mr. Nadler. OK. Thank you. Second, does the administration 
accept any responsibility because of the fact that people are 
now sick from World Trade Center contamination given that the 
EPA told people it was safe when it had no basis for saying 
that, and even when it had data to the contrary, and that many 
first responders were not provided respirators and OSHA rules 
were not enforced on the site? Because of all those facts, does 
the administration accept any responsibility for the level of 
sickness at this point?
    Dr. Howard. I am not the one to respond to that question, 
Mr. Nadler.
    Mr. Nadler. OK. I accept that answer. Thank you. And as you 
may know, as you obviously do know, there is no currently--
there is--currently, there is no federally funded program 
except for that $75 million as a first instance to provide 
medical treatment for anybody. There is no program to provide 
medical treatment to residents, to people who work in the 
surrounding office spaces, or children who go to school in the 
impacted area.
    Many of these people went back to their homes and offices 
because they were told by Federal EPA it was safe, and they 
were told--and, frankly, the city Department of Health told 
them to clean up World Trade Center contamination with a wet 
mop or a wet rag.
    Does the administration support providing all necessary 
funds for actual medical treatment, not just screening, for 
residents who were affected as well as for first responders? 
And not just residents, residents, workers, anyone who was in 
the area then, or may have been made sick by being in the area 
subsequently.
    Dr. Howard. Again, I think that is one of the issues as a 
physician looking at the medical reports that we funded here in 
New York, and the findings of Dr. Reibman and others, the World 
Health Center registry's findings, those are the kind of things 
that I will bring back to the Secretary's policy guidance task 
force to be able to wrestle with that issue.
    Mr. Nadler. OK. Thank you. And one final question: will all 
of the treatment programs at the participating clinical centers 
provide uniform services in terms of covered conditions, levels 
of services, in-patient versus outpatient, and provision of 
benefits counseling?
    Dr. Howard. That is certainly our goal. I must say that it 
is challenging to bring all of these different provider 
agencies together on that point, but that is our goal.
    Mr. Nadler. Thank you. Dr. Frieden, I have a number of 
questions for you. Does the city, in light of all of the recent 
study results, does the city administration now believe that 
people are indeed sick as a direct result of exposure to World 
Trade Center contamination?
    Dr. Frieden. There is a lot that we know, and there are 
some things we don't know. Some of the things we know is that 
most people exposed to the dust cloud, and many others exposed 
less intensely, had acute symptoms. We know that some people, 
either because of the intensity of their exposure or other 
factors, developed very severe respiratory illness. There are 
at least three such cases that are well documented in the 
medical literature.
    We know that people who were more exposed appeared to be 
more ill, and in particular presence in the dust cloud is 
predictive of longer term health problems. We know that many 
people with pre-existing illnesses, such as asthma, would have 
had those conditions exacerbated, and that some people who did 
not have pre-existing conditions would have had new onset 
illness.
    As Commissioner Scoppetta mentioned, hundreds of 
firefighters have developed severe enough respiratory illness 
to become disabled as firefighters. We also know that many, and 
probably most, people who had acute symptoms had improvement of 
those symptoms, but many continue to have symptoms. So, yes, 
we----
    Mr. Nadler. Can I take that as a yes?
    Dr. Frieden. Yes.
    Mr. Nadler. The city agrees that this has led to many 
people being ill.
    Dr. Frieden. Yes.
    Mr. Nadler. Despite the mayor's comments.
    Dr. Frieden. I believe that some of the mayor's comments in 
the media were taken out of context.
    Mr. Nadler. OK. That is good--yes. I am sorry, go ahead.
    Dr. Frieden. There is no doubt from our point of view, the 
city's point of view, that there are people who are ill as a 
result of exposures to the WTC disaster.
    Mr. Nadler. And that includes people who live, work, or go 
to school in the area, or those who may be exposed to 
contamination inside buildings, not just first responders.
    Dr. Frieden. As I was saying in my response, I believe 
there is a gradient of exposure, and some of the things we 
don't know are the proportion ill in different groups and what 
the future course will be of illness. But the strongest 
evidence is the evidence that comes from the examinations on 
the first responders.
    That is not to say that there isn't illness among others. 
It is just that the published evidence so far is strongest for 
the first responders.
    Mr. Nadler. Do you believe there is some illness among 
others?
    Dr. Frieden. I have no doubt that there is mental illness 
among others.
    Mr. Nadler. Physical?
    Dr. Frieden. I believe, depending on the level of exposure, 
that there may well be illness among others.
    Mr. Nadler. May well be. OK. Thank you.
    Commissioner, immediately following September 11th, your 
department, Department of Health, advised residents, put it on 
its Web site--and I know that it stayed there for at least a 
number of years, it may still be there for all I know, I 
checked on it about 2 or 3 years later, it was still there--
advised residents returning to the area to clean up asbestos-
laden World--well, to clean up dust--if they saw World Trade 
Center dust in their apartments, said that they should clean it 
up with a wet mop or a wet rag.
    The guidelines just issued say that the dust cloud 
contained asbestos and other substances that may be 
carcinogenic. Secretary Henshaw, the head of OSHA, and the 
Deputy Secretary of Labor of the United States, in a memo on 
January--in January 2002 advised that all World Trade Center 
dust must be presumed to contain asbestos and triggers all the 
legal consequences of such a presumption.
    On January 1, 2002, the first day of the Bloomberg 
administration, I advised you of this advice on the Department 
of Health Web site and told you my opinion that it ought to be 
taken down immediately, because it was reckless--it would lead 
to reckless danger to life and I thought was illegal because it 
is illegal to advise people to remove asbestos-laden material 
without being properly licensed and under proper protection.
    You disagreed with me. You said it was fine, it would stay 
there. Do you still maintain that? Do you still think that was 
fine?
    Dr. Frieden. The issue is: what are people going to do with 
dust in their home or workplace? If they sweep it, or if they 
use a routine vacuum cleaner, that is dangerous. That----
    Mr. Nadler. Wait a minute. But shouldn't the advice have 
been, if you see World Trade Center in your apartment, call a 
government agency and we will do something about it, not you do 
something about it? In fact, isn't that what was legally 
required?
    Dr. Frieden. The program established by the EPA--I don't 
recall the exact month, it was May or June or July----
    Mr. Nadler. That was July 2002, but that was later. That is 
right, and that was different.
    Dr. Frieden. So what were people to do? The choice was 
between not giving guidance that would allow a reduction in 
risk, and giving guidance in wet mopping and HEPA vacuuming, 
both of which were recommended, are accepted ways of reducing 
risk. There are ways----
    Mr. Nadler. So you are saying that if there is asbestos-
laden material it is OK to advise people to undergo the danger 
of inhaling that material as they move it by cleaning it up 
with a wet mop and a wet rag?
    Dr. Frieden. No, I am not saying that.
    Mr. Nadler. That is OK?
    Dr. Frieden. No, I am not saying that. I am saying that a 
way to reduce contamination is wet mopping or HEPA vacuuming. 
And we also----
    Mr. Nadler. Did it say----
    Dr. Frieden [continuing]. We also advised New Yorkers to 
notify their building owner and/or fire professionals to clean 
if the dust was greater than a minimal amount.
    Mr. Nadler. But, Dr. Frieden, the law says it is illegal to 
move or remove asbestos-laden material unless you are trained 
and licensed to do so and wearing proper protective equipment. 
And you were advising people who were not trained or licensed 
and were not particularly wearing any protective equipment to 
remove asbestos-laden material at their risk.
    Mr. Shays. Let me just say the gentleman's time is up, so I 
would like you to respond, and then we are going to go to Mr. 
Weiner. We will have a second round, so we will be able to 
cover some territory.
    Dr. Frieden. I am a doctor, not a lawyer, but we will----
    Mr. Shays. And so let me just say, tread carefully, because 
you are--you are not a lawyer.
    Dr. Frieden. Yes.
    Mr. Shays. And the purpose here is to have us understand. 
The purpose is not to try to bag anybody.
    Mr. Nadler. That is true. I am really looking at this--this 
was done. It is past tense. What I am really looking for is to 
say it never should have been necessary, because people should 
not be in the position of having to do unsafe things because 
government is letting them be victims, because I am looking for 
the future on this.
    Mr. Shays. And let me just say, all of the witnesses here, 
you are--this is a superb panel, and we are going to try to 
make sure we, you know, cover the territory with all of you, 
and we will have a second round.
    But because we do swear our witnesses in, I never want you 
to feel rushed, I never want you to feel like you have to say 
something without a lot of thought. The purpose is just for us 
to understand the truth, and you all--every one of you have 
tremendous credibility with us.
    At this time, Dr. Weiner--Dr. Weiner, God--[laughter]--what 
is happening here? Now, you I might want as a doctor. 
[Laughter.]
    Mr. Weiner. Thank you very much, Mr. Chairman, and I want 
to thank this panel. It is an excellent panel, and I want to 
particularly thank Commissioner Scoppetta, Commissioner 
Frieden, Dr. Howard, and the talented people who are giving so 
much of their time and energy on behalf of the people of this 
city and country, and we are grateful for that.
    Dr. Howard, let me ask you, has OMB asked you, in 
preparation for a supplemental, to put some kind of a number on 
the table for what they think might be asked for in an upcoming 
appropriation request? Has there been any effort, anyone asked 
you to crunch some numbers to come up with some dollars, for 
what it would take to solve this problem?
    Dr. Howard. No.
    Mr. Weiner. Has there been at any time the mandate given 
from the Secretary, with whom we met yesterday, to start to do 
the process of trying to figure out what a compensation fund 
like that contemplated by Congressmember Maloney, or an 
expansion of Medicare as contemplated by Congressman Nadler, 
has anyone asked you to crunch the numbers on what would be 
required for that?
    Dr. Howard. No.
    Mr. Weiner. And I asked this because, frankly, if you look 
at the difference in response--you know, after September 11 we 
created the compensation fund, which was largely speaking an 
open-ended fund, we did a rather substantial bailout of the 
airline industry because it was seen as a Federal 
responsibility. The acts of September 11, compensating people, 
was seen as a Federal responsibility.
    Is it seen by the administration for whom you work that 
the--that compensating people for their health care costs, 
taking care of them, is, in whole or in large part, a Federal 
responsibility by extension of that same thinking?
    Dr. Howard. Well, I can only quote Secretary Leavitt, who 
you met with yesterday, in terms of his commitment for 
compassionate care for all World Trade Center responders, and 
his use of the term that, when he referred to the $75 million, 
in terms of adding treatment, as a downpayment. I think when 
you use the word ``downpayment'' it implies that there will be 
future issues.
    The third point I wanted to make from the meeting 
yesterday, again, he said, ``We all have to work together,'' 
and I think he was talking about the entire New York 
delegation, the Department of Health and Human Services, and 
indeed all of the entities that are here today--the Health 
Department, the city, etcetera. I think this is a problem that 
we all have to work on.
    Mr. Weiner. But did he say we all need to work together, 
and then you are going to pay the bill? Or we all have to work 
together, and then we are going to divide up the bills?
    Dr. Howard. Well----
    Mr. Weiner. I mean, the concern that I have, to be honest 
with you, Dr. Howard, is it seems latent in some of the 
comments that you have made, and the Secretary made yesterday, 
is this notion that we have to figure out who is going to pay 
the bill here, because it could be fairly substantial. And if 
we reach that mind-set, we are getting into a morass that could 
leave many of the victims of these health problems waiting for 
a very long time.
    Part of the beauty of the compensation fund, with all its 
laws, is it provided a certain sense of finality, and frankly a 
certain sense of assumption of responsibility by the Federal 
Government. When you say we all have to coordinate, we have to 
synchronize, we have to get on the same page, does that mean 
that the administration doesn't believe that this is something 
that should be paid for in whole by the Federal Government, and 
that some of these costs they expect to be borne by the city or 
State or individuals?
    Dr. Howard. No, I don't think that the thinking has 
advanced to that direction. I think that is something that I 
would be happy to carry back to the Secretary, your issues and 
questions with regard to that.
    Mr. Weiner. Well, I think it would be something that would 
be--you know, that should be clarified, because I think that 
what--the next question I am going to ask about the 
fingerpointing that has emerged within the last 24 hours, about 
who is responsible for some of the shocking mistakes that were 
made in those early hours and in the time after.
    And I am fearful that what we are setting up for here is a 
high stakes game of he said/she said that is being--becoming a 
substitute for the important work that Dr. Herbert and Dr. 
Reibman and others are doing to try to find help and care for 
these people. And that is my concern, and I kind of see it, in 
fairness, on the part of city officials as well, people a 
little bit concerned about accepting too much responsibility 
for fear of what kind of liability that would bring.
    If the President of the United States, when he comes here 
to visit this weekend, says not we are proud of you, but we are 
sorry and we are going to accept responsibility for paying 
these bills as soon as we can figure out exactly how to do it, 
then I think it opens the door for Carolyn's bill, it opens the 
door for Jerry's bill. Once we have that commitment made, then 
I think things become a lot easier.
    Commissioner Frieden, you are a health expert, one that has 
been recognized. I want to read you something, and tell me just 
if from your--the documents that you have read and your 
experience as a health professional whether you think this is 
true.
    ``If someone said that we, the Federal Government, did 
everything we could to protect the people from that 
environment, and we did it in the best way that we could, which 
was to communicate with those people who had the responsibility 
for enforcing, the city was that primary responder.'' Do you 
think that, in what you know, that the Federal Government and 
the EPA did everything that they could to protect people?
    And I want to point out that some of the advice that they 
gave in those early days was to wear dust masks, and they urged 
first responders and rescue workers to ``change their 
clothing.'' Do you believe today, with the benefit of hindsight 
after 5 years, the Federal Government did everything they could 
to protect people on the pile and in our city during that 
period?
    Dr. Frieden. This is not as simple a question as can be 
answered with a yes or no.
    Mr. Weiner. Take your time.
    Dr. Frieden. I think the primary issue we are concerned 
about is respiratory protection, and the issues are not simple. 
I think that reasonable people can disagree on the best course 
that could or should have been taken. We know a few things. We 
know that if there had been regular wearing of respiratory 
protection, the risks would undoubtedly have been lower.
    We also know that the respirator that was agreed upon--
half-mask, half-face respirator--is very cumbersome to use. And 
20/20 hindsight is easy, but if you remember back to those 
first days people were looking for survivors. And to say to 
someone in that kind of an emergency operation ``you can't go 
there if you are not wearing this mask'' when the mask might 
actually make it very difficult to work or communicate, is 
difficult. It is a judgment call.
    I will correct the record on the enforcement question in 
that quotation that you have just read. It is OSHA and PESH 
that have enforcement responsibility and authority. The city 
Health Department considered and determined that it did not 
have the authority to mandate respirator wearing at the site.
    Mr. Weiner. But in retrospect, and just as a matter of as 
close to fact as we can get, when it was said by the Secretary 
of EPA--and this is on September 18--``Given the scope of the 
tragedy from last week, I am glad to reassure the people of New 
York and Washington, DC, that their air is safe to breathe, and 
that their water is safe to drink.'' With the benefit of 5 
years of hindsight, that was not true, was it?
    Dr. Frieden. And one of the tenets of risk communication is 
the issue of safety is always a very complicated one. And I 
don't think that was an appropriate way to word the message at 
that time.
    Mr. Weiner. Commissioner Scoppetta, can you weigh in on 
this? Your men were--based on the numbers that you quoted in 
your statement, your men and women of your department, almost 
every single one of them, was at some time or another down on 
the pile or down near Ground Zero.
    Based on the information that you know--that you now have 
about the condition of the air, the ailments that have emerged 
from your members, was it--was that true, that the air was 
clean, it was safe to breathe, and the water was safe to drink? 
Because part of the defense that Secretary Whitman has made in 
this 5-year after-the-fact revision of history was that she was 
referring at the time to the pile, which is where your men were 
working, or, rather, that she was not referring to the pile, 
she was referring to the area around the pile.
    But knowing just what you do as a layperson, is it pretty 
clear now after the fact that is not--that wasn't true at the 
time?
    Mr. Scoppetta. Well, as I said in my testimony, within 
weeks of the attacks respiratory illnesses were reported, or 
symptoms of illnesses. And within 4 weeks we started a 
monitoring program because of it, so it did become apparent 
that was the case.
    Now, we did require, and OSHA and PESH worked with us, 
required that our people working on the pile use masks. But 
keep in mind they were working 12-hour shifts. It was a 
recovery effort. It is extremely difficult to communicate 
wearing those masks. So even those who were wearing them 
regularly would have to remove them from time to time to engage 
in consultation, because it was extremely important that we 
recover any remains. And that is why they were on the pile for 
9 months.
    And so it--to answer your question directly, it seems----
    Mr. Weiner. And I just have----
    Mr. Scoppetta [continuing]. Clear that the advice we were 
getting, those mixed messages, I referred to them as our people 
finding illness and at the same time being told that the air is 
OK, must have had an impact on our firefighters who were on the 
pile.
    Mr. Weiner. I see.
    Mr. Scoppetta. Thinking they could remove the mask for 
longer than they should have.
    Mr. Weiner. Well, my time has now expired. I just have one 
final--this is something that emerged in the meeting with the 
Secretary yesterday. I just want you to clarify--could you 
explain to me what type of health coverage a firefighter who 
retires--who retires has after they leave service to the fire 
department, if they were, God forbid, in a couple of years to 
emerge with an ailment? Are they still covered by the health 
insurance provided by the city as if they were employed?
    Mr. Scoppetta. No. Retirees have to rely on their own 
insurance to cover their illnesses, and that--in my testimony--
maybe I didn't get to it, but it is certainly submitted--there 
are certainly gaps, insufficiencies we can call them, in 
insurance coverage for medication, for in-house health care 
across the board, and that is one of the reasons why we so 
desperately need funding for treatment as well as monitoring.
    Mr. Weiner. Thank you, Mr. Chairman.
    Mr. Shays. I have been looking forward to this opportunity 
to have a dialog with all of you. I would like to first ask, if 
you were not a question but you would have liked to have 
answered the question, I would like you to answer the question. 
These were good questions of my colleagues, and so I saw some 
of you take notes. If you have an observation that you would 
like to make--and we are going to go for a second round here. 
We are down to the full committee.
    I would like you to--I would like you to respond. Anything 
that has been brought up in the first testimony or the first 
panel or the second, any question that was raised to one of 
your colleagues on your panel that you would like to make an 
observation or point about? Yes, Commissioner.
    Dr. Frieden. I would like to make two points, if I may. The 
first, just to amplify on my response earlier in terms of what 
the city said and when. On November 1, 2001, Dr. Jessica Layton 
testified before the New York City Council Committee on 
Environmental Protection, and among other things noted that, 
``Persons at greatest risk of health effects include 
unprotected workers on the debris pile or very close to the 
site, persons with pre-existing conditions, such as asthma, 
chronic obstructive pulmonary disease, heart disease, children 
who have developing systems and greater exposure due to their 
body size, elderly.'' So I think there was recognition and 
publicity about that early on from the city's standpoint.
    The second point I want to make I think all of us 
experienced, sometimes the media coverage being less than as 
accurate as we would like it to be, and there were some remarks 
of mine several months ago from a television show relating to 
Mr. Zadroga that I would like to clarify----
    Mr. Shays. Sure.
    Dr. Frieden [continuing]. And amplify. I would like to 
apologize for any misunderstanding that my remarks made. What I 
did say in that interview was that some individuals heavily 
exposed are having serious respiratory problems that without 
knowing the details of an individual case I cannot comment on 
it. But I did not mean to cast doubt on the specific findings, 
only to say that I can't comment on them.
    I do believe it is useful for us to have transparent, 
agreed-upon standards so that if and when there are fatalities 
there can be a standard that any organization or institution 
can use to assess what the causality might be relating to WTC.
    Thank you.
    Mr. Shays. Thank you. Any other comments that you would 
like to make?
    Dr. Howard. Just following the Commissioner's comment and 
Representative Maloney's comments earlier on my efforts to put 
that into action, a fatalities investigation program, and I am 
happy to see that the Commissioner is supportive of that in his 
department.
    We are working with the New York Department of Health, and 
we are working with experts in my agency, with experts at Mt. 
Sinai, and we intend to put that in action, so that we can get 
a handle on these reports that all of us read in the print and 
electronic media of individuals whose deaths are attributed to 
World Trade Center exposure. This is extremely important for me 
as a project to put into action immediately.
    The other issue I wanted to bring up to let everyone know 
is in our department, in the Department of Health and Human 
Services, we are putting together a Web site on the World Trade 
Center. So if you go to HHS.gov, you will see a World Trade 
Center logo. And that World Trade Center site will have a one-
stop shopping point of view for all of the issues that we are 
all talking about in World Trade Center.
    It will have links to every existing resource, including 
the physician guidelines that the New York City Department of 
Health and Mental Hygiene has put out for physicians across the 
country. This is something that I would like to acknowledge 
that the committee has supported. It is extremely important, 
and we hope to have that live very soon.
    Mr. Shays. Thank you. Dr. Herbert, do you have any comments 
that you would like to make about any observations of the first 
panel? And, Dr. Levin, I am going to ask the same thing of you, 
sir.
    And let me just say something. They don't need to directly 
relate to the work that you do. You think about this all the 
time, so you must have opinions outside your own specific 
requirements. So what I want is a candid conversation about 
what was seen. I am looking for recommendations on how we 
proceed.
    And I just want to make sure that, like you do, all of you 
do, that we see change take place in terms of our being able to 
respond to this issue.
    Dr. Herbert. I have a couple of thoughts. The first is 
completely my own view, and it is that I--you know, I am very 
concerned about on the one hand I know there is concern about 
fingerpointing between different levels of government. For me 
as a physician taking care of World Trade Center responders, it 
has been very troubling to see the difficulties our patients 
have had receiving medical care and testing.
    And I think that the panelists this morning were--it was 
heartbreaking to listen to them, and I wish I could say that 
they were unusual, but they really represented what all----
    Mr. Shays. We didn't bring them because they were unusual, 
so----
    Dr. Herbert. Exactly.
    Mr. Shays [continuing]. So I don't want you to wish that. I 
mean, in the sense that I want people to understand that they 
had a very universal message.
    Dr. Herbert. Exactly. And I just wish that, first of all, 
with respect to responders that we could design a system in 
which, a) every responder can get regular medical examinations 
to look for both physical and mental health for their lifetime. 
In terms of treatment, I think it is in the responder's best 
interest if we can get away from a system in which responders 
have to prove that they were there, have to prove that their 
illnesses is World Trade Center related, and all the legal--I 
feel like we spend more----
    Mr. Shays. Let me just ask--and continue later, go 
further--but I think it would be irresponsible if we just 
assume that anyone who steps forward and said ``I was there''--
there has to be some way that someone can document it. But, I 
mean, yes, not signed, sealed, and delivered. But I would be--I 
mean, we saw that with Katrina. I mean, everybody was making 
claims, and we just doled out money.
    If we do that, there won't be enough money to go around. So 
I want to make sure that the people who are, in fact, 
responders get it. So you are going to have--to win me over on 
that point, you are going to have to give me a little bit of 
what you mean, maybe fill in----
    Dr. Herbert. OK. I will be a little more precise. I think I 
am probably reacting again as a physician to my patients who 
were down there for weeks being told--being--you know, men in 
their forties and fifties who have worked their whole lives 
being brought to tears and worker's compensation courts being 
accused of lying about being down there. So I think I may be 
reacting to that.
    I think the question--the issue is that I think it is worth 
at least examining what the possibility of having something 
along the lines of a presumption system, so that at least some 
conditions would be considered World Trade Center related. You 
know----
    Mr. Shays. It is a different issue, though. The issue is if 
you were there, we presume that whatever illness comes along is 
a result of your being there. And there you and I would be 
totally----
    Dr. Herbert. Right. And I think, I mean, the issue--right, 
the issue--I guess Katrina is--you know, most of our patients, 
we have not found that the issue of people not--who come to our 
treatment program, we have very stringent criteria, exposure-
based eligibility criteria. So I may look at this in a 
different way in terms of the exposure, the establishment of 
exposure and presence at the World Trade Center site or having 
been exposed.
    But I think that perhaps what I am trying to say is that 
right now so much of the onus remains on the World Trade Center 
responder to prove that he or she were down there, and to then, 
you know, just sort of try and navigate these very complex 
systems of access to health care.
    So I think that if there were a way to develop a system 
that--where at least there was--where it didn't start out sort 
of so heavily tipped against the World Trade responders, which 
is the way it feels now.
    Mr. Shays. OK. Well, you know, I would like to pursue that 
a little bit, but I am so grateful you are making these points, 
because these are the points we need to be discussing. And I am 
not trying to convince you your point is wrong. I want you to 
stay a doctor, and I want you to think like a doctor. I want to 
think like a legislator who wants to be helpful, and then let 
us see where there is a point where we can do something 
sensible. Do you have another point or two?
    Dr. Herbert. I just want to acknowledge that Dr. John 
Howard has been extraordinarily helpful to all of our World 
Trade Center programs, and I think he has been sometimes not as 
recognized as he should be, and I want to acknowledge that.
    Mr. Shays. Well, you know, Doctor, we are not allowing 
applause, but just imagine that the place would be a standing 
ovation. We are. Thank you.
    Any other points before I go to Dr. Levin?
    Dr. Herbert. No, thank you very much.
    Mr. Shays. OK. Dr. Levin.
    Dr. Levin. Well, I just want to make a couple of points, 
and I think everyone knows that in the immediate hours, and 
even few days, after September 11--the September 11 attacks it 
was a chaotic environment. Everyone understands that is so, and 
when there is conditions of chaos it is hard to impose 
organization.
    But it is also clear that the September 11th experience 
should be teaching us the lesson that we have to be better 
prepared in advance. For example, the point about registering 
everyone who was there--the boundaries were very porous down at 
Ground Zero for the first several days, and gradually there 
evolved checkpoints and ways to identify who was coming in and 
who was going out.
    If we can't in advance of the next either a natural 
disaster or manmade disaster find ways to identify who was 
there and have teams of people prepared to do that as people 
come into such environments, and leave such settings, then we 
are going to make the same mistakes that we made this last time 
and that we made in Katrina. And Katrina was even harder I 
think than dealing with what happened in Lower Manhattan.
    We will find ourselves in the position of not knowing who 
was exposed, dealing with the very question that you just 
raised and that is: how do we know if someone was there? We had 
that terrible story told to us this morning of someone who had 
several photographs of himself down on the pile and was asked, 
``Well, this could have been digitally altered.''
    To be--I have many patients who have been challenged in the 
worker's compensation process, in the pension process, with 
exactly that kind of question. They have a picture book full of 
photos of themselves, sometimes with elected officials with 
arms around them identifying them as heroes, and yet it wasn't 
sufficient for the worker's comp process as an identification 
of the fact that they were there.
    Mr. Shays. Well, let me just be clear, since I responded so 
clearly about this issue, there has to be common sense.
    Dr. Levin. Right.
    Mr. Shays. And that is really I think as a physician trying 
to take care of patients and get care for them, to have common 
sense prevail we think would be really important. And let me 
just extend that a little bit.
    You know, in public health there is this notion of the 
precautionary principle, and it says that if there is reason to 
believe that there is hazard, but you don't know yet whether it 
is so, you behave as if it is so until you know better. That is 
a sort of a rephrasing of the general principle.
    And I think that approach really wasn't taken following the 
September 11 attack. I don't think that at each government 
level we behaved in a way that indicated concern that, in fact, 
there were hazards there or might be hazards there. Putting 
aside Ms. Whitman's open statement to the contrary, there was 
in general a failure to recognize the necessity of protecting 
people and monitoring them closely.
    I am going to make an observation to you, that intuitively 
those statements defy logic. But they also defied logic to the 
press then, and everybody was given a mask.
    Dr. Levin. I am not sure which statement to----
    Mr. Shays. I am going to say to you, to have said--for 
anyone to say that this was a safe environment, it defies 
logic. And everyone knows that. You can't have what we had and 
have people believe for a second--and all I am saying to you is 
that the press is really on to this issue now. I am not looking 
to pick a fight with the press, but I am willing to say to you, 
everybody was focused on a lot of other issues.
    Dr. Levin. Yes, I understand that. And in a way that large 
population of responders fell through a very large crack, and 
we are dealing with the consequences of that now. And I can 
tell you, just to follow what you just suggested, there was 
hardly a physician with experience in occupational or 
environmental medicine who saw people being dragged off of the 
pile, really choking for breath, for whom the issue of 
potential asthma occurrence, sinusitis occurrence, didn't 
arise.
    It was an environment so clearly one that had hazards for 
respiratory illness, never mind psychological----
    Mr. Shays. We had a--I have a constituent who runs a 
national rental business, and they provided, without rent, a 
lot of this equipment. They said the equipment literally shut 
down every few moments, because it was getting clogged up as it 
was sucking in air to feed the gasoline in the engine.
    Dr. Levin. Under those circumstances, which were obvious to 
all--not just to physicians but anybody who was there, people 
who watch television, to find ourselves as physicians working 
so hard to persuade worker's compensation officials, pension 
boards, etcetera, of the reality of this illness--of these 
illnesses that developed, even to the current day because so 
many of our patients still have unresolved claims, are still 
fighting to get benefits that really just help pay the 
mortgage, that we are not dealing with a common sense approach 
never mind a scientific approach, but, rather, we are dealing 
with, unfortunately, politics and economics that really don't 
have a place in the public health concerns that I think we are 
really talking about here.
    Mr. Shays. Thank you for your observation. Any other 
observations?
    Dr. Frieden. Since you have asked, you know, what are the 
issues to deal with, Chairman Shays, I just--one of the points 
made this morning I think shouldn't be lost, and that is that 
in addition to the special and significant problems being faced 
by people who were there at September 11th and the months that 
followed, what we are seeing is that overlaid on a health care 
system that has problems, gaps in care, lack of access, co-
payments that can be very significant, even for people with 
insurance.
    Some of the chronic conditions may be hundreds of dollars a 
month for medications and specialty service needs. So I think 
as we think about what to do, I think that is a point worth not 
losing.
    Mr. Shays. We were--I was basically blown away yesterday to 
learn that while you are in the fire department you are getting 
Medicare, and if you are, you know, on disability and you are 
out because you are ill, you are not getting that health care. 
You are paying for it yourself. That just blows me away. Blows 
me away.
    An observation, Commissioner, or Dr. Reibman?
    Mr. Scoppetta. Well, of course, that is one of the points 
we make in the testimony about the need for assistance in these 
particular circumstances. September 11th was an unprecedented 
event. The response was unprecedented, and it turns out perhaps 
the illnesses that were contracted after that, at least in this 
particular event--instance our retirees ought to get some help.
    Mr. Shays. We are going to talk about that. Dr. Reibman.
    Dr. Reibman. I would just like to say that I think what we 
have been hearing about mostly, and appropriately so, are the 
issues of the responders. But the responders, maybe they can 
show a picture, can have some evidence that they were exposed. 
For many of the residents, it will be much more difficult to 
have attribution and disease. And this is a major issue that we 
have been dealing with and will be dealing with, attribution 
that the disease is due to World Trade Center dust exposure.
    Mr. Shays. See, what we did when we had these hearings, we 
had 15, give or take, hearings on Gulf war illnesses. Not being 
a physician, it was fascinating to go through this process. But 
there was unbelievable resistance on the part of the Department 
of Defense and VA to acknowledge that people were sick, and we 
used to have the generals and the doctors testify first, and 
then people who were sick, and hold lots of different ways, and 
parents of young kids in a sense who had lost their lives 
testifying, and the first panel left so we reversed that.
    But it took even the intervention, frankly, of Ross Perot 
who started to fund research for what happens when you are 
exposed to toxic material when you are under stress. And when 
you are under stress, there is a whole different way your body 
responds. And there were some breakthrough efforts, but it took 
10-plus years.
    What I am struck with is this, and then I am going to go to 
Mrs. Maloney for her second round--I have taken my second round 
right after my first, that is a privilege the chairman has--but 
what I am struck with is there is not a chance in hell that you 
would have been able to stop a first responder from going 
there. And if you said to them, ``You are going to cut your 
life by 10 years by going in there,'' they are saying, ``My 
buddies are down there. I am going to get them. I am going to 
help them.'' You couldn't stop them.
    But where I have my big problem is after the first week. 
Now, but I also have a big problem for the guys and the women 
who the first week were doing that who aren't getting help, 
because it is like we should be on our knees in gratitude and 
then we should be saying, ``What can we do to help you? And by 
the way, what can we help your young child, that 4-year old 
child who is growing up now without a dad, what can we do to 
help her?''
    So that is kind of where I am reacting. When I get my third 
round, I am going to want someone to describe the whole 
universe to me. I mean, we have firefighters, police, emergency 
medical personnel, transit workers, construction crew, and 
volunteers in general.
    I want to have a sense of what the whole--now that is just 
the responders, and then, I am going to make an assumption that 
I want corrected or not, that the challenge we have for the 
residents is that the ones who are probably most affected, who 
had a pocket of a cloud, who--so, in other words, that it won't 
be evenly dispersed, it will be someone in some apartment 
building nearby, and then someone further away, and they would 
have been exposed to something really deadly, but everyone in 
between might not have.
    In other words, I just think intuitively that as these 
clouds disperse, and they weren't there indefinitely, as they 
were right above Ground Zero where there was just a heated 
furnace for months and months and months. So I will want to 
have someone kind of walk me through that.
    Mrs. Maloney, thank you for your patience.
    Mrs. Maloney. Thank you so much, Mr. Chairman. I would like 
to ask Commissioner Frieden, earlier we heard some--a very 
moving statement from the father of James Zadroga, where he 
testified that a medical expert in New Jersey directly linked 
his son's death to his work at Ground Zero, the fact the lung 
weighed three times more than a normal lung, was totally black, 
and was laden with debris. Does the city of New York recognize 
these medical findings? In other words, did James Zadroga die 
from his work at Ground Zero? Yes or no.
    Dr. Frieden. I cannot comment because I have not seen the 
details of his situation. But what it highlights is what both I 
and Dr. Howard mentioned earlier, I think it is critically 
important that we agree on and have everyone have input so 
people can agree upon a set of standards that can be used to 
assess fatalities related to see whether the weight of evidence 
suggests that they are related.
    From the media reports, it certainly sounds consistent with 
illness from WTC, but without knowing the details of what 
examinations were done and what the prior history is, I can't 
responsibly make that determination.
    Mrs. Maloney. The New York Daily News has documented the 
death of at least seven responders, including James Zadroga. 
Many people come to my office saying their loved ones died as a 
direct result. So the Daily News has documented seven, and we 
have probably a list of about 30 in my office. How many deaths 
has the city's Health Department documented? You say you didn't 
look at this material. Shouldn't you have looked at it and 
given some support to James Zadroga's father?
    Dr. Frieden. His death was in New Jersey, so it was not 
within our jurisdiction. In terms of deaths within the 
jurisdiction here, if the cases are cases that are referred to 
the medical examiner or taken by the medical examiner, then 
they get a full assessment.
    Otherwise, it is a determination of whether the family 
agrees to an autopsy, and I really commend families that do 
that, because it can be difficult. But that is what allows us 
to increase our awareness and knowledge of what is happening, 
so we can all try to get closure in individual cases as well as 
more generally.
    Mrs. Maloney. Well, the city's Health Department has 
documented at least 20 deaths as a direct result of this 
summer's heatwave. And how can the city a month later know that 
certain deaths occurred because of the heatwave, but they are 
not able to document any deaths related to the September 11th 
toxic fumes that happened 5 years ago?
    Dr. Frieden. We will indeed be tracking the deaths and 
illnesses and cancers associated with the more than 71,000 
people who registered for the WTC health registry. This will 
provide us with as close as we can get to a population-based 
summary.
    I would also point out that the process for death 
certification includes specifically whether it was from heat 
exposure. So the death certificate comes in with it written on 
the death certificate, heat exposure. That does not occur for 
situations like the WTC, so it is not as simple as it might 
seem.
    Mrs. Maloney. Well, you testified there should be 
guidelines, there should be transparency. It is 5 years later. 
People are dying, and we now know scientifically what we have 
known in our hearts that it is related to September 11th. When 
will the city have the particular transparent documents that we 
can get some numbers and some sense from this?
    Dr. Frieden. In terms of the specific fatality 
investigation, Dr. Howard and NIOSH are taking the lead on 
that. And what we intend is for there to be a document that 
everyone can comment on, so people can agree at the outset 
these are the standards that need to be applied but by whatever 
institution needs to do the investigation.
    Mrs. Maloney. Well, that is another thing thrown on your 
plate, Dr. Howard. You testified earlier and came back and 
clarified one of my questions. Earlier you said that November 
1, 2001, in testimony before the New York City Council, the 
then Health Director did testify that there were illnesses 
related to September 11th toxic fumes.
    And where were the clinical guidelines for these illnesses 
and conditions? The city has known that people were sick since 
November 1, 2001, according to your testimony but waited until 
last week to issue and mail out guidelines to the doctors.
    Dr. Frieden. Just to clarify, I did not say that the city 
said people were sick. What I quoted was testimony that 
highlighted populations for which there was the greatest risk 
of health effects, including unprotected workers and others 
with pre-existing conditions. I would also----
    Mrs. Maloney. Thank you for that clarification, but my 
question is: why did it take 5 years to mail out guidelines on 
physical sickness? The Federal Government got guidelines out on 
SARS, the bird flu, and every other flu you can imagine within 
a very short period of time. And you testified earlier that you 
had mailed out guidelines for mental health.
    I would say people dying of respiratory sicknesses, people 
should be notified. And I really want to put on the record a 
study and ask that this study be put in the record. It was done 
by the fire department or done by the World Trade Center 
consortium. I am going to get this study. This study showed 
that 30 to 40 percent of the people that were being reviewed I 
believe in the World Trade Center consortium were misdiagnosed 
and mistreated.
    They were having lung disease and treated for asthma, and 
that this was causing many, many problems. So my question to 
you, and I feel very strongly about it, because what you see in 
this panel is what members--prior panel is what Members of 
Congress see in their offices every week, sick people coming in 
saying they were misdiagnosed. Why in the world could the city 
of New York, the greatest city on earth, I really believe that, 
why in the world could not the city of New York get out the 
medical guidelines until 1 week ago?
    Dr. Frieden. I would like to point out a few things. First, 
the conditions that those guidelines go over are actually very 
common conditions seen in medical practice--cough, sinusitis, 
the reflux disease. These are not conditions with which doctors 
are unfamiliar, or these are--to say that more clearly, doctors 
are familiar with these conditions.
    We did not know until relatively recently the extent to 
which symptoms have been persisting--mental--not mental health, 
but physical health symptoms have been persisting. In fact, 
really our first sense of that was in November 2004 when we 
looked for the first time at our own data from the registry and 
saw such a high rate of respiratory conditions.
    But as Dr. Reibman appropriately pointed out, we didn't 
assess for persistence at that time. Additional information was 
provided, case reports were coming out, we began the process in 
2005, and we sought to achieve consensus. Maybe it is better to 
get something out that not everyone agrees with, but we felt 
what is important is to get something out that not only will we 
be able to say we got it out, but people will say, ``We agree 
with this, we are behind it, and we are going to do it, we are 
going to follow these guidelines.''
    All of that said, would I wish that they had gotten out 
sooner? Absolutely. I would also wish that we would have had 
more scientific published evidence sooner that would help us 
make those determinations and make those recommendations.
    Mrs. Maloney. I would say everybody with any common sense 
knew that there was a medical connection. And I ask you then, 
how were you able to get out mental health guidelines but you 
were not able to get out medical guidelines? Is mental health 
guidelines easier to get a consensus on? What was the 
difference between the two that you could get out mental health 
clinical guidelines, and you were going to get back to me at 
what time and year you got them out.
    And also, by the way, after September 11th everybody sort 
of did what they could, and my office adopted--they adopted 
mental health, and we worked with the mental health community 
and got grief counselors out to every business organization 
that had lost people on September 11th. So we interact with 
that community because we worked with them as a special 
project, and I thank my office for their help today, and really 
for every day working on September 11th. It is a top priority 
of my office.
    But mental health doctors did not tell me that they got 
guidelines, so I would like to know in writing who got these 
guidelines? How far were they mailed? Was it to 100 people or 
every mental health doctor in New York? Because I know many 
that we--the offices said they never got them. So I would like 
to know where it was sent, when it was sent out, and why can 
you get out mental health guidelines--that is important, I 
congratulate you--but you could not get out physical health 
guidelines?
    Dr. Frieden. Just to reiterate, we knew from the first 
moments of the attack, based on other experience, that mental 
health effects would be long lasting and severe, and we began 
to produce guidelines to address those.
    Mrs. Maloney. Did you not know that those that were 
breathing that debris that was so----
    Dr. Frieden. No, we did not.
    Mrs. Maloney [continuing]. Thick you could chew it, that 
you would not have physical problems?
    Dr. Frieden. No, I can say I did not. We certainly knew 
there were short-term health effects. What the long-term health 
effects were we--I could not predict. Others may have predicted 
them accurately, but I certainly could not have.
    Mrs. Maloney. Well, did the city of New York have a role in 
developing the clinical guidelines for mental health and for 
physical health? Did the lawyer's department have a role in 
developing these guidelines?
    Dr. Frieden. We have shared early drafts with a wide 
variety of individuals including the Law Department, but every 
technical, clinical, scientific decision on the guidelines is 
made solely by the Health Department in conjunction with our 
partners in that document, including Mt. Sinai, the fire 
department, and others.
    Mrs. Maloney. Beyond reviewing the draft clinical 
guidelines, what role has the city's lawyers had when it comes 
to your public statements about September 11th health and the 
toxins at Ground Zero?
    Dr. Frieden. As you know, for all public officials there is 
a review process, and so our comments are reviewed by the 
General Counsel, the Health Department, as well as by the Law 
Department. They make suggestions. We determine whether or not 
to take those suggestions.
    Mrs. Maloney. Did the lawyers review your testimony before 
us today? Have you received any advice from the city's lawyers 
in preparation for your appearance today?
    Dr. Frieden. Yes.
    Mrs. Maloney. OK. I would like to ask Dr. Howard--can I----
    Mr. Shays. I want to--it has been 10 minutes here now, and 
ask you, Commissioner, about what I want to understand is I 
want some--maybe I can have you, Dr. Herbert first, or Dr. 
Howard, have me--I am trying to make sure that we get 
information to be able to write a report hopefully by this 
year. And the information I am asking is relating to not 
whether someone should have acted sooner or not, that is not 
going to help my committee get this done, and I need to make 
sure before we leave we get this done.
    I need to understand the varying degrees of coverage that 
all of these so-called--I want to take the universe--here is 
what I am wrestling with. I want to take the universe, and I 
want to know who got the best coverage and who got the worst 
coverage.
    And it strikes me--and, Commissioner, I am going to start 
with you, it strikes me that almost every firefighter was a 
potential volunteer at Ground Zero, but that you all should 
have been able to determine pretty well how many of the 
firefighters were. Can you tell me who they--your universe that 
you think, of your total number, how many you think were there? 
Commissioner.
    Mr. Scoppetta. Me?
    Mr. Shays. Yes. I am talking firefighters now.
    Mr. Scoppetta. Yes. Virtually every member of the fire 
department served some time at Ground Zero.
    Mr. Shays. It was almost a badge.
    Mr. Scoppetta. Yes, it is more than 11,000 firefighters, 
and more than 300,000 EMTs and paramedics worked at the site 
during----
    Mr. Shays. We can make an assumption almost everybody did.
    Mr. Scoppetta. Yes.
    Mr. Shays. OK. Now, I make an assumption that you had 
monitored all of them, as your testimony--in other words, this 
is a group of folks who got monitored early on, and while they 
are part of the department are getting health care. The bottom 
line is, though, that they are--some may not show any signs of 
not being well right--of being sick. But that they may be sick 
when they are no longer employed by the department, is that 
correct?
    Mr. Scoppetta. That is correct.
    Mr. Shays. But at least--the good news is this, that with 
our firefighters they were monitored, and anyone who had health 
problems were getting attention, their health needs met, is 
that correct?
    Mr. Scoppetta. Yes. And we are monitoring retirees now as 
well.
    Mr. Shays. And is that being paid for by the department?
    Mr. Scoppetta. That was paid for--the Federal funds are----
    Mr. Shays. So that is the Federal dollars.
    Mr. Scoppetta. Yes.
    Mr. Shays. And by the way, if I expose some ignorance here, 
feel free to jump right in and clarify. You know, I need to 
know. So these are the Federal dollars, what enables you to 
continue this process for those who no longer are active.
    Mr. Scoppetta. Yes.
    Mr. Shays. Dr. Herbert, Dr. Levin, Dr. Howard, 
Commissioner, whomever, Dr. Reibman, tell me who comes closest 
to matching the firefighters in terms of getting good 
monitoring and good health care at least while they are active? 
Who would that be?
    Dr. Herbert. I would say monitoring and health care are two 
different issues.
    Mr. Shays. Absolutely.
    Dr. Herbert. OK. To be eligible for our program----
    Mr. Shays. No, I just--let me just--I have given you the 
folks that I think are involved here--fire, police, emergency 
medical personnel, transit workers, construction crew, and then 
obviously volunteers in general--was there any other--do I rank 
the firemen, firefighters, up at the highest level? I am just 
trying to--I want to know where people fit in here. Are the 
construction folks, the guys who are getting screwed the most, 
are they getting help? Help me out here, guys.
    Dr. Herbert. You have in the world of other responders, the 
people who did----
    Mr. Shays. Tell me who gets the next best after the 
firefighters. Maybe nobody.
    Dr. Howard. Let me try this.
    Mr. Shays. And you can take monitoring, and then you can 
take----
    Dr. Howard. Yes. If you are a responder or a volunteer, if 
you were rescue, recovery, cleanup, restoration, essential 
services, OK, if you were in that category, which we commonly 
call responder or volunteer, then there is--there was medical 
screening for you. Dr. Herbert's group reported on her findings 
recently.
    Mr. Shays. For those who volunteered to be----
    Dr. Howard. Exactly. Responder or volunteers.
    Mr. Shays. Yes.
    Dr. Howard. Then, they got monitoring----
    Mr. Shays. Let me just--I am sorry, but I am really trying 
to nail this down. When you work for the police department or 
you work for the fire department, you are part of a club. If 
you work for a union, you are part of a union. You know, you 
talk to your colleagues. I want you to separate the volunteers 
who came just--and just came every day that weren't part of any 
organization. I want to be able to categorize, so I need a 
little bit more definition to what you are telling me.
    Dr. Howard. And your categorization criteria is, which of 
those groups that we are going to name has the most 
availability of medical support, monitoring of treatment.
    Mr. Shays. Right. And while you are telling me that 
everyone who was a potential responder has the right to 
monitoring, there is a difference between having the right and 
actually taking advantage of the right.
    Dr. Howard. OK. If you look at that, just that question, 
and you use the estimate that Mrs. Maloney used that we 
commonly use of 40,000 as the denominator, in the combined 
programs that the Federal Government has funded for screening 
and monitoring we have screened and monitored about 30,000, so 
that is about 75 percent.
    We still--and we always take every opportunity--I thank the 
print and electronic media for giving us the opportunity to say 
if you were a responder in that 40,000 group, and you haven't 
had an examination, please come in and get an examination. So 
out of that 40,000, we have screened 30,000.
    Mr. Shays. OK. So, and as Mrs. Maloney points out, and 
others point out, and you all have pointed out, being screened, 
being monitored, and getting health coverage are two different 
issues.
    Now, let us just talk about health coverage. Do you want to 
talk, Dr. Levin, about----
    Dr. Levin. Because health care delivery is such a patchwork 
system----
    Mr. Shays. I am going to ask you to give the mics back to--
we basically have three mics. You are going to share the mic 
with Commissioner Scoppetta, so that way you only have to go to 
two, OK?
    Dr. Levin. What we are dealing with is a patchwork health 
care delivery system and our patients, the responders. Putting 
aside community residents, and putting aside office----
    Mr. Shays. Well, putting aside community residents, because 
that is an important issue, but I just want to first get the 
responders, the responder community.
    Dr. Levin. You have a special group of cleanup workers who 
were the undocumented workers, often hired from the street 
corner to work each day, often struggling to get paid at the 
end of the day, offered no protection, and who are very worried 
themselves about entering any kind of system because of their 
concerns about being identified as undocumented workers.
    That is a group that we have been seeing in our center. I 
know Dr. Reibman has been seeing a number there, but they are 
not easy to reach because of their fears of----
    Mr. Shays. Seen for what? To get health benefits or----
    Dr. Levin. To be evaluated and then treated for----
    Mr. Shays. Oh, to be treated. OK.
    Dr. Levin. Yes. We know that there are many, many hundreds, 
probably thousands, who have never been seen in our programs 
because of their concerns about being identified as 
undocumented workers. That is just one aspect of it.
    We have in our population of responders a number of people 
who are pure volunteers. In other words, they were not employed 
down there. They never received a paycheck. They came to do 
volunteer work. It turns out that after some struggle the 
worker's compensation system in New York did set up a program 
to cover the health care costs of volunteers.
    Those people had an easier path to getting health care 
benefits through the worker's compensation system than people 
who in fact were employed down there and filed worker's 
compensation claims.
    Mr. Shays. I mean, this is the stuff we need to hear.
    Dr. Levin. I thought that this was the kind of issue that 
you were concerned with. The volunteer program had no insurance 
company opposing the cases. Employed workers had either 
insurance companies or self-employed--I mean, self-insured 
employers like the city, New York City, or the Transit 
Authority, or Conn Ed. These are self-insured worker's comp 
programs, and I can tell you that the track record of our 
patients in getting through the system, if they were employed 
down there, was really nightmarish.
    Mr. Shays. OK. Nightmarish as it was, once they got it, 
will they get it when they retire?
    Dr. Levin. So long as they have persistent medical problems 
that derive from their exposures at Ground Zero or in World 
Trade Center response work, their medical care is supposed to 
carry through for the rest of their lives unless--and if you 
want this level of detail I think maybe it is useful to you.
    Unless they take a lump-sum settlement, which they are 
vigorously encouraged to do within the system, at which time if 
they take a lump-sum settlement they waive all their rights to 
further payment for medical care or wage replacement or 
anything else.
    Now, many of our patients who face financial difficulties 
paying the rent, dealing with, you know, the kids' tuition----
    Mr. Shays. What kind of settlement are we talking about?
    Dr. Levin. Something in the order of $50, $60, $70,000.
    Mr. Shays. So it could just be a whisper compared to what 
they need.
    Dr. Levin. Yes, but what it does is it enables them to get 
out of debt temporarily.
    Mr. Shays. I understand that. I am not----
    Dr. Levin. But, yes, you are right, it is barely enough to 
cover a couple year's expenses, and then they are left on their 
own. And as was pointed out before, you are talking about 
medications alone that can cost several hundred dollars a month 
just to keep symptoms under control.
    So you have people in the worker's compensation system who 
were delayed in getting care, delayed in getting testing, and 
ultimately may not be covered for the duration of their 
illnesses, because they have taken lump sum.
    I want to talk about construction workers, because that is 
a large group of people who are down there.
    Mr. Shays. Is that the largest group, do you think?
    Dr. Levin. In our population, law enforcement and 
construction workers were almost comparable in terms of----
    Mr. Shays. Do you put law enforcement--firefighters as law 
enforcement?
    Dr. Levin. No, because the firefighters were not seen as 
part of our program.
    Mr. Shays. OK. I got you.
    Dr. Levin. So construction workers are in the paradoxical 
situation that if they are ill enough not to be able to put in 
enough hours on the job----
    Mr. Shays. Let me just stop you. We are not going to go too 
much longer. Do we have a time problem here? I am sure you do. 
OK. How much more time do you have? You both have time problems 
here.
    Let us do this. I am going to just have--we are going to 
go--if my colleague wants another 5 minutes, we will go with 
that and end with that. Does that meet your needs?
    Just finish your question.
    Dr. Levin. I will finish this, because it--you have the 
paradoxical situation for construction workers that they have 
to put in a ceratin number of hours on the job in order to 
retain their health benefits and the benefits for their 
families. At the very time that they are ill from the World 
Trade Center experiences, and they can't work because often 
their jobs are dusty jobs that provoke their symptoms, they 
find themselves losing their health care insurance.
    Mr. Shays. Let me just interrupt. Your questions will not 
involve either Commissioner? OK. Gentlemen, thank you very 
much. Thank you.
    Mrs. Maloney. I just want to thank the fire department for 
their extraordinarily leadership. They have come to Washington 
10, 20 times to lobby for more funds. We are deeply grateful.
    Mr. Shays. And I also want to thank our Commissioner for 
being here. Thank you. You have been at our other hearings, and 
you have been very forthcoming and we appreciate it.
    Dr. Levin. Well, just to continue briefly, you have people 
who are falling through what you could consider natural cracks 
in a patchwork system, but you also have people who are facing 
the vigorous opposition of their claims by both insurance 
companies and self-insured employers. That has been the most 
common of experiences.
    Mr. Shays. Do the construction workers get covered by their 
own fund, their own health care? That is what I am not clear 
about. Does it depend construction to construction?
    Dr. Levin. Overwhelmingly, the way construction workers get 
health care is through joint employer/union administered 
benefit funds. And it is part of I think the way construction 
trades are set up.
    Mr. Shays. I will have my staff followup on this.
    Dr. Levin. But they lose their health care benefits, find 
their cases being fought in the worker's compensation process. 
And essentially, if it weren't for the treatment resources that 
we have been able to garner at Mt. Sinai, and our partners from 
Red Cross, etcetera, these people would do without health care 
because there would be no resources available to them.
    So even though construction workers seem on the surface of 
it to have excellent plans, under ordinary circumstances in the 
particular situation of the World Trade Center related 
illnesses, they find themselves in desperate circumstances 
because there is no source that you can identify if it is not 
from philanthropic sources, and now the prospect of Federal 
funding.
    Mr. Shays. Dr. Reibman, do you want to respond to any of 
this? OK. Mrs. Maloney.
    Mrs. Maloney. First of all, I would like to thank my staff 
that has worked every single day on these issues since 
September 12, particularly my chief of staff in Washington, 
Vince Chevette, my district chief of staff, Minnie Elias, and 
Edward Mills, who has worked with me to draft and implement 
several legislative proposals and the continual letters that we 
send out practically every day on this.
    I just would like to ask Dr. Howard, we learn in the Bible 
that Moses traveled in the desert for 40 years, because he did 
not have a plan. And what has struck me is how every single 
question keeps being bounced back in your court, and every time 
I pick up a paper I read that you have not even one single 
staff member assigned to your--help you on this.
    So a lot has been thrown on you, Dr. Howard, and my 
question is: when are we going to have in writing, submitted to 
Congress, the plan?
    Mr. Shays. And I am just going to say, in my religious 
belief they wandered in the desert for 40 years because the 
children of Israel weren't ready to cross the Promised Land. 
[Laughter.]
    Mrs. Maloney. But in any event, my constituents can't wait 
40 years. They want the plan now, and they have bounced in your 
court the fatality report and the criteria. To me, if someone's 
lungs are black and they are throwing up black phlegm when they 
are dying, and their family talks about how they spit out nails 
and black phlegm, I would say it is related to September 11th.
    But in any event, we need a fatality report that builds on 
the science that came out of the Mt. Sinai-World Trade Center 
consortium science, but we need that also in writing, so it can 
be implemented.
    So my question to you--and I think your question back to 
us, is to call Ross Perot and get you some more resources to 
help get this research done. But I see a tragic ending here. I 
know--we can all be idealistic, but I know if you do not have a 
plan, if you do not have cost estimates that are scientifically 
based, even with all the plans in the world that are 
scientifically documented, it is had to get it in the budget.
    So we don't have a prayer as a New York delegation combined 
with Connecticut and New Jersey in getting a budget line for 
health care unless we get the plan, unless we get the 
documentation and the health estimates, which is a huge job. So 
my question to you is: we can't wait 40 years. When are you 
going to give us our plan in writing? And thank you very much.
    Mr. Shays. Is there any comment that any member of the 
panel--I thought it was a statement that----
    Mrs. Maloney. No, it was a very sincere question.
    Mr. Shays. OK. Well, then----
    Mrs. Maloney. He gave us a definite deadline. I hope he can 
make it, but God bless him he gave us a deadline of October 1st 
for distributing the first money. And if we don't get a 
deadline, and if we don't get a commitment in some framework, 
we are going to be waiting for 40 years. So in all sincerity, 
it is a sincere question.
    Mr. Shays. Could you respond?
    Dr. Howard. In terms of the treatment money, yesterday 
after our meeting with the Secretary we sent out to the 
grantees, some who were sitting very close to me, an e-mail 
solicitation of 15 items that we need from them to immediately 
begin this process, so we can get their applications in writing 
and we can begin the review process, so we can meet that 
October date.
    So that is the important thing. With regard to the World 
Trade Center fatality investigations program, we have----
    Mrs. Maloney. May we have a copy of those items?
    Dr. Howard. Sure. I will send you the e-mail. They will be 
receiving even more detail----
    Mr. Shays. Send the full committee the e-mail as well.
    Dr. Howard. They will be receiving an e-mail on Monday, 
which even contains more detailed requirements. So that is 
moving forward. We hope that we can meet that date. I have 
every indication we can.
    With regard to the World Trade Center fatality 
investigations program, which we talked about, the Commissioner 
mentioned, we have a draft which will be coming out for 
external review next week. I would like to thank the Mt. Sinai 
Medical Center, Dr. Landergen, and others who have worked on 
that as well.
    Mrs. Maloney. May we see----
    Dr. Howard. Of course you can. It will be out for external 
review. And the Health Department. This is a combined effort, 
and I would like to thank all of the partners for that.
    Mr. Shays. Thank you. Let me just ask you, Dr. Howard, one 
last question that Vito Fossella wanted to ask. He said----
    Mrs. Maloney. But, sir, you didn't answer the full plan. We 
can't wait 40 years. Can you give us a general----
    Dr. Howard. You know, as I have mentioned, I am hoping that 
the Secretary's task force that does give policy guidance will 
be able to assist me in that regard.
    Mr. Shays. Dr. Howard, this is from Vito Fossella. He said, 
``Dr. Howard, at our meeting yesterday Secretary Leavitt 
announced the formation of a new task force dedicated to the 
long-term health needs of September 11th first responders. In 
your role as September 11th coordinator, you have already been 
extremely effective, and we want to make sure you remain an 
integral part of this effort. Can you explain how your role 
will or will not change in the context of this new task force?
    Dr. Howard. As I explained before, my role--eyes and ears--
as a program coordinator here on the ground in New York City, 
will be to liaison with this high-level policy guidance task 
force that will give the Secretary his policy guidance.
    Mr. Shays. And you will be a part of that task force?
    Dr. Howard. Yes, sir.
    Mr. Shays. Fine.
    Mrs. Maloney. Thank you.
    Mr. Shays. Thanks all very much. We appreciate your 
testimony. We want to thank you.
    This hearing is adjourned.
    [Whereupon, the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
